No.
IN THE

Supreme Court of the United States
————

AMG CAPITAL MANAGEMENT, LLC; BLACK CREEK
CAPITAL CORPORATION; BROADMOOR CAPITAL
PARTNERS, LLC; LEVEL 5 MOTORSPORTS, LLC;
SCOTT A. TUCKER; PARK 269 LLC; AND KIM C. TUCKER,
Petitioners,
v.
FEDERAL TRADE COMMISSION,
Respondent.
————
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit
————
PETITION FOR A WRIT OF CERTIORARI
————
PAUL C. RAY
PAUL C. RAY, CHTD
8670 West Cheyenne Ave.
Suite 120
Las Vegas, NV 89129
(702) 823-2292
paulcraylaw@gmail.com

JEFFREY A. LAMKEN
Counsel of Record
MICHAEL G. PATTILLO, JR.
SARAH J. NEWMAN
MOLOLAMKEN LLP
The Watergate, Suite 660
600 New Hampshire Ave., NW
Washington, D.C. 20037
(202) 556-2000
jlamken@mololamken.com

Counsel for Petitioners
:,/621(3(635,17,1*&2,1&±  ±:$6+,1*721'&

QUESTION PRESENTED
The Federal Trade Commission Act, Pub. L. No. 63203, 38 Stat. 717 (1914) (codified as amended at 15 U.S.C.
§§ 41 et seq.), generally “empower[s] and direct[s]” the
Federal Trade Commission “to prevent” persons from
using “unfair or deceptive acts or practices in or affecting
commerce.” 15 U.S.C. § 45(a)(2). By its terms, § 13(b) of
the Act authorizes the Commission to seek “preliminary
injunction[s]” and, “in proper cases,” “permanent injunction[s].” 15 U.S.C. § 53(b). The question presented is:
Whether § 13(b) of the Act, by authorizing “injunction[s],” also authorizes the Commission to demand monetary relief such as restitution—and if so, the scope of the
limits or requirements for such relief.

(i)

ii
PARTIES TO THE PROCEEDINGS BELOW
Petitioners AMG Capital Management, LLC, Black
Creek Capital Corporation, Broadmoor Capital Partners,
LLC, Level 5 Motorsports, LLC, Scott A. Tucker, Park
269 LLC, and Kim C. Tucker were defendants in the district court and appellants in the court of appeals.
Respondent Federal Trade Commission was the plaintiff in the district court and the appellee in the court of
appeals.
AMG Services, Inc., Red Cedar Services, Inc. d/b/a
500FastCash, SFS, Inc. d/b/a OneClickCash, LeadFlash
Consulting, LLC, Partner Weekly, LLC, Muir Law
Firm, LLC, Timothy J. Muir, Don E. Brady, Robert D.
Campbell, Troy L. LittleAxe, MNE Services, Inc. d/b/a
Ameriloan d/b/a UnitedCashLoans d/b/a USFastCash
d/b/a Tribal Financial Services, and Nereyda M. Tucker
ex rel. Blaine A. Tucker were defendants in the district
court.
ETS Ventures, LLC, El Dorado Trailer Sales, and
Dale E. Becker were interested parties in the district
court.
Americans for Financial Reform, Deborah Moss, and
First Premier Bank were intervenors in the district
court.
First International Bank & Trust was an objector in
the district court.
Thomas W. McNamara was a receiver in the district
court.

iii
CORPORATE DISCLOSURE STATEMENT
Pursuant to this Court’s Rule 29.6, petitioners AMG
Capital Management, LLC, Black Creek Capital Corporation, Broadmoor Capital Partners, LLC, Level 5 Motorsports LLC, and Park 269 LLC hereby certify that
each has no parent corporation and that no public company holds 10% or more of their stock.

iv
STATEMENT OF RELATED PROCEEDINGS
The proceedings directly related to this petition within
the meaning of Rule 14.1(b)(iii) are:
x McNamara v. Hallinan, et al., No. 2:17-cv-02966GMN-NJK (D. Nev.), currently ongoing;
x McNamara v. Hallinan, et al., No. 2:17-cv-02967GMN-BNW (D. Nev.), currently ongoing;
x McNamara v. Patten, et al., No. 2:17-cv-02968GMN-NJK (D. Nev.), currently ongoing;
x McNamara v. Selling Source, LLC, et al., No.
2:17-cv-02969-GMN-DJA (D. Nev.), currently ongoing;
x McNamara v. Whamtech, Inc., No. 2:18-cv-01336JCM-CWH (D. Nev.), administratively closed on
May 23, 2019;
x McNamara v. Stealth Power, LLC, No. 2:18-cv01813-GMN-NJK (D. Nev.), currently ongoing;
x McNamara v. Intercept Corp., et al., No. 2:18-cv02281-GMN-VCF (D. Nev.), currently ongoing;
x FTC v. AMG Services, Inc., et al., No. 14-16468
(9th Cir.), judgment entered on October 30, 2014;
and
x FTC, et al. v. E.T.S. Ventures, LLC, et al., No. 1815401 (9th Cir.), judgment entered on August 15,
2018.

TABLE OF CONTENTS
Page
Opinions Below.............................................................
Statement of Jurisdiction ...........................................
Statutory Provisions Involved ...................................
Statement ......................................................................
I. Statutory Framework .....................................
II. Proceedings Below ..........................................
A. Proceedings in the District Court..........
B. The Court of Appeals’ Decision..............
Reasons for Granting the Petition ............................
I. The Courts of Appeals Are Divided
over Whether § 13(b) Authorizes the
Commission To Seek Monetary Relief .........
II. The Majority’s Interpretation of
§ 13(b) as Authorizing Monetary
Relief Is Incorrect ...........................................
A. The Text of § 13(b) Authorizes
Injunctions—Not Monetary Relief .......
B. Allowing the Commission To
Obtain Monetary Relief Under
§ 13(b) Defies the FTC Act’s
Broader Statutory Scheme .....................
C. Porter Cannot Sustain the
Majority’s Interpretation of § 13(b) .......
D. The Erroneous Departure from
§ 13(b)’s Text Has Spawned
Additional Circuit Conflicts ....................
III. The Issue Is Important and Recurring ........
(v)

3
3
4
4
4
7
7
8
10

11

15
15

18
22

26
29

vi
TABLE OF CONTENTS—Continued
Page
IV. This Case Presents an Ideal Vehicle
for Resolving the Conflict..............................
Conclusion .....................................................................

32
34

Appendix A – Court of Appeals Opinion
(Dec. 3, 2018)............................................................

1a

Appendix B – District Court Order on
Liability (May 28, 2014) ......................................... 41a
Appendix C – District Court Amended Order
on Injunctive and Monetary Relief
(Apr. 30, 2017).......................................................... 74a
Appendix D – District Court Final Judgment
(Sept. 30, 2016) ........................................................ 117a
Appendix E – Court of Appeals Order
Denying Rehearing En Banc
(June 20, 2019) ......................................................... 118a
Appendix F – Relevant Statutory Provisions .......... 120a

vii
TABLE OF AUTHORITIES
Page(s)
CASES
Alexander v. Sandoval,
532 U.S. 275 (2001) ............................................. 24
Callery v. U.S. Life Ins. Co. in N.Y.C.,
392 F.3d 401 (10th Cir. 2004) ............................ 27
CFTC v. Wilshire Inv. Mgmt. Corp.,
531 F.3d 1339 (11th Cir. 2008) .......................... 27
City of Rancho Palos Verdes v. Abrams,
544 U.S. 113 (2005) ............................................. 21
Conn. Nat’l Bank v. Germain,
503 U.S. 249 (1992) .......................................... 15, 17
FTC v. Amy Travel Serv., Inc.,
875 F.2d 564 (7th Cir. 1989) .............................. 13
FTC v. Bronson Partners, LLC,
654 F.3d 359 (2d Cir. 2011) ..................... 12, 13, 27
FTC v. Commerce Planet, Inc.,
815 F.3d 593 (9th Cir. 2016) ........................ passim
FTC v. Credit Bureau Ctr., LLC,
937 F.3d 764 (7th Cir. 2019) ........................ passim
FTC v. Dantuma, 748 F. App’x 735
(9th Cir. 2018) ..................................................... 21
FTC v. Direct Mktg. Concepts, Inc.,
624 F.3d 1 (1st Cir. 2010) ............................... 12, 13
FTC v. Febre, 128 F.3d 530
(7th Cir. 1997) ..................................................... 28
FTC v. Freecom Commc’ns, Inc.,
401 F.3d 1192 (10th Cir. 2005) ....................... 12, 13
FTC v. Gem Merch. Corp., 87 F.3d 466
(11th Cir. 1996) ................................................ 12, 13

viii
TABLE OF AUTHORITIES—Continued
Page(s)
FTC v. Inc21.com Corp.,
475 F. App’x 106 (9th Cir. 2012) ....................... 28
FTC v. Magazine Sols., LLC,
432 F. App’x 155 (3d Cir. 2011) ........................ 12
FTC v. Pantron I Corp., 33 F.3d 1088
(9th Cir. 1994) .....................................................
8
FTC v. Ross, 743 F.3d 886
(4th Cir. 2014) ..................................... 12, 13, 22, 24
FTC v. Sec. Rare Coin & Bullion
Corp., 931 F.2d 1312 (8th Cir. 1991) ............. 12, 13
FTC v. Shire Viropharma, Inc.,
917 F.3d 147 (3d Cir. 2019) ............................... 17
FTC v. Stefanchik, 559 F.3d 924
(9th Cir. 2009) ............................................. 4, 20, 28
FTC v. Verity Int’l, Ltd., 443 F.3d 48
(2d Cir. 2006)....................................................... 27
Great-West Life & Annuity Ins. Co. v.
Knudson, 534 U.S. 204 (2002) .................... passim
Hardin v. Straub, 490 U.S. 536 (1989) ................. 21
Kokesh v. SEC, 137 S. Ct. 1635
(2017).................................................... 9, 10, 21, 29
Marx v. Gen. Revenue Corp.,
568 U.S. 371 (2013) ............................................. 19
Meghrig v. KFC W., Inc.,
516 U.S. 479 (1996) ................................... 14, 25, 26
Middlesex Cty. Sewage Auth. v. Nat’l Sea
Clammers Ass’n, 453 U.S. 1 (1981) ................. 21
Nat’l Petrol. Refiners Ass’n v. FTC,
482 F.2d 672 (D.C. Cir. 1973) ........................... 15
Nken v. Holder, 556 U.S. 418 (2009) .................... 18

ix
TABLE OF AUTHORITIES—Continued
Page(s)
Norwegian Nitrogen Prods. Co. v.
United States, 288 U.S. 294 (1933) .................. 30
Porter v. Warner Holding Co.,
328 U.S. 395 (1946) ....................................... passim
SEC v. First City Fin. Corp.,
890 F.2d 1215 (D.C. Cir. 1989) ......................... 32
SEC v. Manor Nursing Ctrs.,
458 F.2d 1082 (2d Cir. 1972) ............................. 32
SEC v. Tex. Gulf Sulfur Co.,
446 F.2d 1301 (2d Cir. 1971) ............................. 32
United States v. Lane Labs-USA, Inc.,
427 F.3d 219 (3d Cir. 2005) ............................... 32
United States v. Rx Depot, Inc.,
438 F.3d 1052 (10th Cir. 2006) .......................... 32
United States v. Universal Mgmt. Servs.,
Inc., 191 F.3d 750 (6th Cir. 1999) ..................... 32
Unite Here Local 355 v. Mulhall,
571 U.S. 83 (2013) ............................................... 33
Verizon Commc’ns Inc. v. FCC,
535 U.S. 467 (2002) ............................................. 32
Warth v. Seldin, 422 U.S. 490 (1975).................... 16
Ziglar v. Abbasi, 137 S. Ct. 1843 (2017) ............... 24
STATUTES AND RULES
Federal Trade Commission Act, Pub. L.
No. 63-203, 38 Stat. 717 (1914) ................... passim
15 U.S.C. § 45(a)(2) .................................. 1, 4, 20
15 U.S.C. § 45(b) ............................................
4
15 U.S.C. § 45(l) ........................................... 5, 18
15 U.S.C. § 53(b) ...................................... passim
15 U.S.C. § 53(b)(1)..................................... 17, 20

x
TABLE OF AUTHORITIES—Continued
Page(s)
15 U.S.C. § 57a(a)(1)(B) ................................
4
15 U.S.C. § 57a(b) ..........................................
4
15 U.S.C. § 57b ...............................................
6
15 U.S.C. § 57b(a)(1).............................. 6, 20, 33
15 U.S.C. § 57b(a)(2)........................ 7, 20, 31, 33
15 U.S.C. § 57b(b) .................................. 6, 19, 31
15 U.S.C. § 57b(d) ........................................ 7, 21
Magnuson-Moss Warranty—Federal Trade
Commission Improvement Act, Pub. L.
No. 93-637, 88 Stat. 2183 (1975) ....................... 5, 6
Trans-Alaska Pipeline Authorization Act,
Pub. L. No. 93-153,
87 Stat. 584 (1973) ........................................ 5, 6, 19
15 U.S.C. § 77t(b)..................................................... 32
15 U.S.C. § 78u(d) .................................................... 32
21 U.S.C. § 332(a) .................................................... 32
28 U.S.C. § 1254(1) ..................................................
3
42 U.S.C. § 6972(a) .................................................. 25
42 U.S.C. § 9607(a)(4).............................................. 25
Sup. Ct. R. 10(a) ...................................................... 12
7th Cir. R. 40(e) ....................................................... 14
OTHER AUTHORITIES
1 D. Dobbs, Law of Remedies
(2d ed. 1993) ..................................................... 16, 17

xi
TABLE OF AUTHORITIES—Continued
Page(s)
Federal Trade Commission, Press Release,
U.S. Court Finds in FTC’s Favor and
Imposes Record $1.3 Billion Judgment
Against Defendants Behind AMG Payday
Lending Scheme (Oct. 4, 2016),
https://www.ftc.gov/news-events/ pressreleases/2016/10/us-court-finds-ftcs-favorimposes-record-13-billion-judgment ............... 33
Federal Trade Commission’s Motion To
Stay the Mandate, FTC v. Credit Bureau
Ctr., LLC, No. 18-2847, ECF No. 61
(7th Cir. Sept. 17, 2019) ............................... passim
D. Fitzgerald, The Genesis of Consumer
Protection Remedies Under Section 13(b)
of the FTC Act, https://www.ftc.gov/sites/
default/files/documents/public_events/
FTC%2090th%20Anniversary%20
Symposium/fitzgeraldremedies.pdf ................ 30
Injunctions, Divestiture and Disgorgement,
http://www.ftc.gov/sites/default/files/
documents/public_events/ftc-90thanniversary/symposium/040923transcript
007.pdf ................................................................. 30
Restatement (Third) of Restitution and
Unjust Enrichment (2011) ............................... 21
D. Spiegel, Chasing the Chameleons:
History and Development of the FTC’s
13(b) Fraud Program, 18 Antitrust 43
(Summer 2004) ........................................... 6, 30, 31
2 J. Story & W.H. Lyon, Commentaries on
Equity Jurisprudence (14th ed. 1918) ............ 15

IN THE

Supreme Court of the United States
————

AMG CAPITAL MANAGEMENT, LLC;
BLACK CREEK CAPITAL CORPORATION;
BROADMOOR CAPITAL PARTNERS, LLC;
LEVEL 5 MOTORSPORTS, LLC; SCOTT A. TUCKER;
PARK 269 LLC; AND KIM C. TUCKER,
Petitioners,
v.
FEDERAL TRADE COMMISSION,
Respondent.
————
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit
————
PETITION FOR A WRIT OF CERTIORARI
————
The Federal Trade Commission Act generally “empower[s] and direct[s]” the Federal Trade Commission
“to prevent” persons from using “unfair or deceptive acts
or practices in or affecting commerce.” 15 U.S.C.
§ 45(a)(2). By its terms, § 13(b) of the Act authorizes the
Commission to seek “preliminary injunction[s]” and, “in
proper cases,” “permanent injunction[s].” 15 U.S.C.
§ 53(b). This case concerns whether that provision, by authorizing “injunction[s],” also authorizes the Commission
to demand monetary relief, such as restitution.

2
There is a square circuit split on that issue. The
courts of appeals agree that the text of § 13(b) “mentions
only injunctive relief.” FTC v. Commerce Planet, Inc.,
815 F.3d 593, 598 (9th Cir. 2016). But many courts of
appeals have held that it implicitly authorizes the Commission to seek monetary relief as well. Invoking this
Court’s 1946 decision in Porter v. Warner Holding Co.,
328 U.S. 395 (1946)—which did not involve the FTC
Act—eight circuits had held that, “by authorizing the issuance of injunctive relief,” § 13(b) also “empowers district courts to grant any ancillary relief necessary to accomplish complete justice,” including monetary relief
such as “restitution.” Commerce Planet, 815 F.3d at 598
(quotation marks omitted). The decision below followed
that approach. App., infra, 15a-17a.
The Seventh Circuit, however, has now rejected that
position. It has held that “section 13(b)’s grant of authority to order injunctive relief does not implicitly authorize
an award of restitution.” FTC v. Credit Bureau Ctr.,
LLC, 937 F.3d 764, 767 (7th Cir. 2019). The Seventh Circuit recognized that its decision “creates a circuit split.”
Id. at 767 n.1. But it was compelled to reject the “consensus view of [its] sister circuits” given its “clear incompatibilities with the FTCA’s text and structure.” Id. at 785786.
The Commission has acknowledged that “the question
whether monetary relief is available under Section 13(b)
is a recurring one of great public importance.” Federal
Trade Commission’s Motion To Stay the Mandate at 5,
FTC v. Credit Bureau Ctr., LLC, No. 18-2847, ECF No.
61 (7th Cir. Sept. 17, 2019). It has explained that seeking
“equitable monetary relief ” pursuant to § 13(b)’s provision for injunctive relief is now “a cornerstone of the
FTC’s enforcement program.” Ibid. The circuit split, it

3
states, casts “doubt on the future availability of that remedy.” Ibid. The Commission thus has expressed the view
that “[t]here is a reasonable probability” this Court
would “grant certiorari” to review the § 13(b) issue. Id. at
4.
This case provides an ideal vehicle to address the
issue. “[B]ound by [its] prior interpretation of § 13(b),”
App., infra, 17a, the Ninth Circuit in this case affirmed a
judgment that requires petitioners to pay the Commission $1.27 billion in supposedly “equitable monetary
relief ” “styled as ‘restitution.’ ” Id. at 4a, 23a. Two of the
three panel members joined a special concurrence to
urge that the Ninth Circuit’s “interpretation” of § 13(b)
as authorizing monetary relief is “no longer tenable,” and
“wrongly authorizes” the Commission to wield “a power
that the statute does not permit.” Id. at 23a. This Court
should grant the petition for a writ of certiorari and resolve the circuit split over the proper interpretation of
§ 13(b).
OPINIONS BELOW
The court of appeals’ opinion (App., infra, 1a-40a) is
reported at 910 F.3d 417. The district court’s opinion on
liability (App., infra, 41a-73a) is reported at 29 F. Supp.
3d 1338, and its opinion on monetary relief (App., infra,
74a-116a) is unreported.
STATEMENT OF JURISDICTION
The court of appeals entered judgment (App., infra,
1a-40a) on December 3, 2018, and denied rehearing
(App., infra, 118a-119a) on June 20, 2019. On September
3, 2019, Justice Kagan extended the time to file a petition
for a writ of certiorari to October 18, 2019. This Court
has jurisdiction under 28 U.S.C. § 1254(1).

4
STATUTORY PROVISIONS INVOLVED
Relevant provisions of the Federal Trade Commission
Act, 15 U.S.C. §§ 41 et seq., are set forth in the Appendix
(App., infra, 120a-139a).
STATEMENT
I. STATUTORY FRAMEWORK
Enacted in 1914, the Federal Trade Commission Act
(“FTC Act”), Pub. L. No. 63-203, 38 Stat. 717 (1914) (codified as amended at 15 U.S.C. §§ 41 et seq.), created the
Federal Trade Commission (“Commission”) and gave it
the power to “prevent” persons from “using unfair methods of competition in commerce.” Id. ch. 311, 38 Stat. at
719. Congress later broadened the Commission’s mandate. Current § 5 of the FTC Act “empower[s] and direct[s] [the Commission] to prevent” persons from using
“unfair or deceptive acts or practices in or affecting commerce.” 15 U.S.C. § 45(a)(2). Section 5 has been construed to encompass any practices “ ‘likely to mislead
consumers acting reasonably under the circumstances.’ ”
FTC v. Stefanchik, 559 F.3d 924, 928 (9th Cir. 2009).
The FTC Act gives the Commission administrative
tools for carrying out its mission. Section 5 authorizes
the Commission to conduct an administrative adjudication if it “ha[s] reason to believe” that someone has violated or is violating the prohibition on unfair or deceptive
acts or practices. 15 U.S.C. § 45(b). If, after a hearing,
the Commission decides that “the act or practice in
question is prohibited” under § 5, it must make a written
report and issue a “cease and desist” order. Ibid. The
FTC Act also grants the Commission rulemaking authority to “define with specificity acts or practices which
are unfair or deceptive” within the meaning of § 5, id.
§ 57a(a)(1)(B), and provides procedures for the Commission to exercise that authority, see id. § 57a(b).

5
Congress later amended the FTC Act to give the
Commission authority to enforce its orders in district
court, and to seek relief in district court in the first
instance. See Trans-Alaska Pipeline Authorization Act,
Pub. L. No. 93-153, § 408(c), 87 Stat. 584, 591 (1973);
Magnuson-Moss Warranty—Federal Trade Commission
Improvement Act, Pub. L. No. 93-637, tit. II, § 206, 88
Stat. 2183, 2201-2202 (1975).
Section 5(l). In 1973, Congress amended § 5(l) of the
FTC Act to authorize the Commission to enforce its final
cease-and-desist orders in district court. See 87 Stat. at
591 (codified as amended at 15 U.S.C. § 45(l)). It provides
that the Commission may bring a “civil action” to recover
“penalt[ies]” from anyone who “violates” a final order of
the Commission. Id. § 45(l). It further provides that,
“[i]n such actions,” district courts may “grant mandatory
injunctions and such other and further equitable relief as
they deem appropriate in the enforcement of such final
orders of the Commission.” Ibid.
Section 13(b). In the same 1973 legislation, Congress
also enacted § 13(b)—the provision at issue here. Titled
“Temporary restraining orders; preliminary injunctions,”
§ 13(b) gives the Commission authority to seek judicial
relief to prevent acts that violate the Act or rules promulgated thereunder. 15 U.S.C. § 53(b). Section 13(b) provides that, where the Commission “has reason to believe”
a person “is violating, or is about to violate” a law enforced by the Commission, and that “enjoining” such act
“pending the issuance” and resolution “of a complaint by
the Commission” is in the public interest, it may seek “a
temporary restraining order or a preliminary injunction”
in district court. 87 Stat. at 592 (codified as amended at
15 U.S.C. § 53(b)). The Commission must show that,
“weighing the equities and considering the Commission’s

6
likelihood of ultimate success, such action would be in the
public interest.” Ibid. Section 13(b) also states that, “in
proper cases the Commission may seek, and after proper
proof, the court may issue, a permanent injunction.”
Ibid.
Critically here, the text of § 13(b) “mentions only injunctive relief.” FTC v. Commerce Planet, Inc., 815 F.3d
593, 598 (9th Cir. 2016). Thus, for the first “eight years”
after it was enacted, § 13(b) was scarcely employed by the
Commission for any purpose beyond seeking preliminary
injunctions. D. Spiegel, Chasing the Chameleons: History and Development of the FTC’s 13(b) Fraud Program, 18 Antitrust 43, 43 (Summer 2004).
Section 19.
In 1975—two years after enacting
§ 13(b)—Congress amended the FTC Act again to grant
the Commission further enforcement powers. It added a
new provision, § 19, authorizing the Commission to seek
relief in federal court “to redress injury to consumers”
from certain past misconduct. See Pub. L. No. 93-637, 88
Stat. at 2201-2202 (codified as amended at 15 U.S.C.
§ 57b). Section 19 authorizes a court “to grant such relief
as [it] finds necessary,” including, but not limited to, “rescission or reformation of contracts, the refund of money
or return of property, [and] the payment of damages.” 15
U.S.C. § 57b(b).
Relief under § 19, however, is not available based on a
mere showing of a § 5 violation. It is available only
(1) where the Commission shows that the conduct violates an existing Commission rule identifying the conduct
as an “unfair or deceptive act[ ] or practice[ ],” 15 U.S.C.
§ 57b(a)(1); or (2) where the Commission has previously
issued a “cease and desist order” to the defendant and
then proves in court that a “reasonable man would have
known under the circumstances” that the conduct “was

7
dishonest or fraudulent,” id. § 57b(a)(2). Actions under
§ 19 are subject to a three-year statute of limitations in
most circumstances. Id. § 57b(d).
II. PROCEEDINGS BELOW
A. Proceedings in the District Court
Scott Tucker managed businesses that provided shortterm loans to consumers over the Internet. See App.,
infra, 4a, 42a-43a. For over a decade, those businesses
offered so-called “Delaware Model” loans—loans that authorized automatic renewal without a borrower taking
any affirmative action. C.A. App. 1362, 1534-1535, 1660.
That loan product was not unique to the businesses Mr.
Tucker managed. Id. at 1660. Hundreds of online lenders offered loans that included the same automatic-renewal feature. See id. at 1658-1662. And they provided
borrowers with the same disclosures Mr. Tucker provided regarding the loans’ terms. See id. at 1788-1849.
The Commission initiated an investigation into Mr.
Tucker and the businesses’ lending practices in late 2002.
See C.A. App. 2120. For 10 years, the Commission took
no action. During that time, it did not inform Mr. Tucker
of any specific concerns. In 2012, however, the Commission filed suit against Mr. Tucker and the businesses he
managed, alleging violations of § 5 of the FTC Act. App.,
infra, 5a-6a. According to the Commission, the terms of
the loans were not being disclosed to consumers with sufficient clarity. Id. at 6a. Invoking § 13(b) of the FTC Act,
the Commission sought preliminary and permanent injunctions. C.A. App. 223. The Commission also sought
“restitution” and “disgorgement” as remedies. Ibid. It
did so, however, not under § 19 (which explicitly provides
means to “redress injury to consumers”). The Commission instead invoked § 13(b), ibid., as Ninth Circuit prece-

8
dent permitted, see FTC v. Pantron I Corp., 33 F.3d
1088, 1102 (9th Cir. 1994).
The complaint was the first time the Commission specified to the defendants the conduct it found objectionable. The defendants promptly agreed to cease the allegedly offending practices, stipulating to a preliminary injunction. See D. Ct. Dkt. 293 & 293-1. But they contested
liability under § 5 and the further relief requested under
§ 13(b). See C.A. App. 197-199.
The district court bifurcated the case into a liability
phase and a relief phase. App., infra, 6a. It granted the
Commission summary judgment on liability, finding that
the defendants’ loan disclosures violated § 5. Id. at 6a,
72a. While the disclosures were technically accurate, the
court ruled as a matter of law that the “net impression”
was misleading. Id. at 56a-62a.
At the relief phase, the district court entered a permanent injunction barring defendants from engaging in similar lending activities. App., infra, 97a-98a. It also found
Mr. Tucker, the businesses he managed, and his wife,
Kim Tucker (collectively, “petitioners”), “liable for restitution.” Id. at 104a. Purporting to provide “monetary relief in the full amount lost by consumers,” the court held
petitioners “jointly and severally liable for restitution in
the amount of $1,266,084,156.” Id. at 103a-104a. It further ruled that the Commission is not required to pay the
funds to consumers—it can deposit the money in the
Treasury instead—if it “decides that direct redress” is
“impracticable.” Id. at 108a.
B. The Court of Appeals’ Decision
The Ninth Circuit affirmed. App., infra, 19a. It first
held that the district court properly granted summary
judgment on liability under § 5. Id. at 14a. It concluded

9
that “the Loan Note was likely to deceive a consumer acting reasonably under the circumstances.” Ibid. Judge
Bea, however, filed a special concurrence regarding liability. He stated: “[W]e, a panel of three judges, have
read and understood the terms of the Loan Note. We
have not been deceived. Yet, we hold that the Loan Note
is likely to deceive the average consumer as a matter of
law.” Id. at 39a. In his view, “precedent” permitting that
result is “wrong.” Id. at 40a. “Courts should reserve
questions such as whether the Loan Note is ‘likely to deceive’ for the trier of fact.” Ibid.
Petitioners challenged the monetary relief ordered.
They urged (among other things) that § 13(b) provides
only that district courts may enter “ ‘injunction[s],’ ” and
thus does not authorize the Commission to seek “ ‘equitable monetary relief.’ ” App., infra, 15a (brackets in original). The court of appeals acknowledged that “Tucker’s
argument has some force,” but explained that “it is foreclosed by our precedent.” Ibid. The Ninth Circuit had
“repeatedly held that,” “by ‘authorizing the issuance of
injunctive relief,’ ” “§ 13 ‘empowers district courts to
grant any ancillary relief necessary to accomplish complete justice, including restitution.’ ” Id. at 15a-16a (quoting Commerce Planet, 815 F.3d at 598).
Petitioners also invoked this Court’s recent decision in
Kokesh v. SEC, 137 S. Ct. 1635 (2017), which held that
“disgorgement imposed as a sanction for violating a
federal securities law” is a “ ‘penalty’ ” for statute-oflimitations purposes. Id. at 1639. Under Kokesh, they
urged, “restitution under § 13(b) is in effect a penalty,”
and “not a form of equitable relief.” App., infra, 16a.
The panel held that Kokesh was not dispositive, because
Ninth Circuit precedent “expressly rejected the argu-

10
ment that § 13(b) limits district courts to traditional
forms of equitable relief.” Id. at 17a.
Two members of the panel—Judge O’Scannlain joined
by Judge Bea—concurred specially “to call attention to
[the Ninth Circuit’s] unfortunate interpretation of the
Federal Trade Commission Act.” App., infra, 23a. They
urged that the court’s interpretation of “§ 13(b)’s authorization of ‘injunction[s]’ to empower district courts to compel defendants to pay monetary judgments styled as
‘restitution’ ” “is no longer tenable.” Ibid. (brackets in
original). The “text and structure of the statute,” they
observed, “unambiguously foreclose such monetary relief.” Ibid. The Ninth Circuit’s “invention of this power
wrests from Congress its authority to create rights and
remedies.” Ibid. Finally, the concurring judges agreed
with petitioners that Kokesh “undermines” the Ninth
Circuit’s rationale for allowing restitution under § 13(b),
casting doubt on whether it “is an ‘equitable’ remedy at
all.” Ibid. Like disgorgement in Kokesh, the putative
“restitution” under § 13(b) “ ‘bears all the hallmarks of a
penalty.’ ” Id. at 31a.
The concurring judges urged the Ninth Circuit to “rehear this case en banc.” App., infra, 23a. Rehearing en
banc, however, was denied on June 20, 2019. Id. at 118a119a.
REASONS FOR GRANTING THE PETITION
There is a square and acknowledged circuit conflict on
“whether monetary relief is available under Section
13(b)”—a provision that, by its terms, mentions only injunctive relief. Federal Trade Commission’s Motion To
Stay the Mandate at 5, FTC v. Credit Bureau Ctr., LLC,
No. 18-2847, ECF No. 61 (7th Cir. Sept. 17, 2019) (“FTC
Credit Bureau Mot.”). The Commission agrees the
conflict exists. Ibid. And it agrees that the issue “is a

11
recurring one of great public importance.” Ibid. That is
because the Commission has made pursuing monetary
relief under § 13(b) a “cornerstone” of its “enforcement
program.” Ibid. It has extracted billions of dollars from
defendants through such suits, and it files dozens of new
cases under § 13(b) each year. Ibid. Whether the Commission can obtain such relief against defendants should
not vary based on their geographic location.
This case provides an ideal vehicle for resolving the
circuit conflict. The issue is squarely presented. And the
facts cast into stark relief the consequences of allowing
the Commission to obtain monetary remedies under
§ 13(b). Here, the Commission sought and obtained an
unprecedented award of $1.27 billion in “restitution”—in
fact, a cash payment to the government that it may keep
if distribution is “impracticable”—without satisfying the
more rigorous standards that Congress imposed in § 19 of
the FTC Act, which expressly authorizes monetary remedies. The Commission did so, moreover, without regard
to any statute of limitations. It waited 10 years after it
first initiated an investigation into petitioners’ practices
to bring suit. And never once in that time did it identify
to petitioners the conduct it considered objectionable.
The petition should be granted.
I. THE COURTS OF APPEALS ARE DIVIDED OVER
WHETHER § 13(b) AUTHORIZES THE COMMISSION TO
SEEK MONETARY RELIEF
Section 13(b) of the FTC Act, by its terms, authorizes
the Commission to “bring suit * * * to enjoin” certain acts
or practices where it has “reason to believe” someone “is
violating, or is about to violate, any provision of law” the
Commission enforces. 15 U.S.C. § 53(b). The Commission can seek, upon a proper showing, “temporary restraining order[s],” “preliminary injunction[s],” and “per-

12
manent injunction[s].” Ibid. There is an acknowledged
circuit split concerning whether, in addition to the relief
expressly identified, § 13(b) also authorizes the Commission to seek monetary relief—indeed, monetary awards
payable to the government itself. That conflict warrants
this Court’s review. See Sup. Ct. R. 10(a). Whether a
defendant can be liable for restitution and other forms of
monetary relief under § 13(b) should not vary with the
happenstance of geography.
1. Seven courts of appeals—the First, Second,
Fourth, Eighth, Ninth, Tenth, and Eleventh—hold that,
although § 13(b) by its terms authorizes “injunctions,” it
should be read to authorize the Commission to seek
monetary relief, including restitution. See FTC v. Direct
Mktg. Concepts, Inc., 624 F.3d 1, 15 (1st Cir. 2010); FTC
v. Bronson Partners, LLC, 654 F.3d 359, 365 (2d Cir.
2011); FTC v. Ross, 743 F.3d 886, 890-892 (4th Cir. 2014);
FTC v. Sec. Rare Coin & Bullion Corp., 931 F.2d 1312,
1314-1315 (8th Cir. 1991); FTC v. Commerce Planet, Inc.,
815 F.3d 593, 598 (9th Cir. 2016); FTC v. Freecom
Commc’ns, Inc., 401 F.3d 1192, 1202 n.6 (10th Cir. 2005);
FTC v. Gem Merch. Corp., 87 F.3d 466, 469 (11th Cir.
1996).1
For example, in Commerce Planet, the Ninth Circuit
acknowledged that § 13(b) “mentions only injunctive relief.” 815 F.3d at 598. Nonetheless, citing this Court’s
decision in Porter v. Warner Holding Co., 328 U.S. 395
(1946)—a case that did not involve the FTC Act, see pp.
22-23, infra—the Ninth Circuit ruled that § 13(b)’s “au1

The Third Circuit has reached the same conclusion in a nonprecedential, unpublished opinion. See FTC v. Magazine Sols., LLC,
432 F. App’x 155, 158 n.2 (3d Cir. 2011).

13
thoriz[ation] * * * of injunctive relief * * * invoked the
court’s equity jurisdiction, which carries with it ‘all the inherent equitable powers of the District Court.’ ” Commerce Planet, 815 F.3d at 598 (quoting Porter, 328 U.S.
at 398). The Ninth Circuit thus held that § 13(b), by mentioning injunctions, implicitly “empowers district courts
to grant ‘any ancillary relief necessary to accomplish
complete justice,’ ” including ordering monetary relief
such as “restitution.” Ibid. In the decision below, the
panel concluded it was “bound by” the Ninth Circuit’s
“prior interpretation of § 13(b)” in Commerce Planet.
App., infra, 17a.
The Second, Fourth, Eighth, and Eleventh Circuits
have likewise invoked Porter for the same result. See
Bronson Partners, 654 F.3d at 365-367; Ross, 743 F.3d at
890-892; Sec. Rare Coin & Bullion Corp., 931 F.2d at
1314-1315; Gem Merch. Corp., 87 F.3d at 469-470. The
First and Tenth Circuits adopted the same view without
independent analysis. See Direct Mktg. Concepts, 624
F.3d at 15; Freecom Commc’ns, Inc., 401 F.3d at 1202
n.6.
2. The Seventh Circuit has now expressly rejected
that prevailing interpretation of § 13(b). In FTC v. Amy
Travel Service, Inc., 875 F.2d 564 (7th Cir. 1989), the
Seventh Circuit initially had agreed with “other circuits”
that § 13(b) authorizes monetary relief. Id. at 571. The
“statutory grant of authority to the district court to issue
permanent injunctions,” it stated, “includes the power to
order any ancillary equitable relief,” including “monetary
equitable relief,” whenever “necessary to effectuate the
exercise of the granted powers.” Id. at 571-572.
The Seventh Circuit, however, has now reversed
course, overruling Amy Travel Service as contrary to
clear and unambiguous statutory text. In FTC v. Credit

14
Bureau Center, LLC, 937 F.3d 764 (7th Cir. 2019), the
court held that “section 13(b)’s grant of authority to
order injunctive relief does not implicitly authorize an
award of restitution.” Id. at 767.2 Hewing carefully to
the statutory language, the Seventh Circuit reasoned
that “nothing in the text or structure of the FTCA supports an implied right to restitution in section 13(b),
which by its terms authorizes only injunctions.” Id. at
775.
The Seventh Circuit also traced the history of
“[l]ower-court interpretations of section 13(b) built on
Porter,” and found them unpersuasive. 937 F.3d at 777.
Porter, the court noted, was the product of a time when
this Court “assumed that the judiciary could freely craft
remedies to fully enforce whatever rights Congress had
recognized.” Ibid. This Court’s “understanding of implied remedies,” the Seventh Circuit explained, has
“evolved after Porter.” Id. at 779. Discussing Meghrig v.
KFC Western, Inc., 516 U.S. 479 (1996), in particular, the
Seventh Circuit explained that this Court now “adhere[s]
to [a] more limited understanding of judicially implied
remedies.” 937 F.3d at 781. Under that view, courts no
longer have “license to categorically recognize all ancillary forms of equitable relief without a close analysis of
statutory text and structure.” Id. at 782.
The Seventh Circuit thus rejected the “starkly atextual” view that § 13(b) authorizes monetary relief. 937 F.3d
at 767. The court recognized that its decision “creates a
circuit split.” Id. at 767 n.1. But it was compelled to re2

Credit Bureau invoked a Seventh Circuit rule under which a threejudge panel may overrule circuit precedent. See 937 F.3d at 767 n.1;
7th Cir. R. 40(e).

15
ject the “consensus view of [its] sister circuits” given its
“clear incompatibilities with the FTCA’s text and structure,” as well as this Court’s post-Porter “refinement of
its implied remedies jurisprudence.” Id. at 785-786.
II. THE MAJORITY’S INTERPRETATION OF § 13(b) AS
AUTHORIZING MONETARY RELIEF IS INCORRECT
Any effort to read § 13(b) as authorizing monetary
relief cannot be reconciled with § 13(b)’s text, the FTC
Act’s broader statutory scheme, amendments to that Act,
or this Court’s precedent.
A. The Text of § 13(b) Authorizes Injunctions—
Not Monetary Relief
Here, statutory construction “must begin with the
words of the statute creating the Commission and delineating its powers.” Nat’l Petrol. Refiners Ass’n v. FTC,
482 F.2d 672, 674 (D.C. Cir. 1973). The text of § 13(b) is
straightforward—it grants the Commission authority to
obtain various types of injunctions. Nowhere does it
purport to grant the Commission the power to seek monetary relief such as restitution. That should be dispositive: “When the words of a statute are unambiguous,”
the “ ‘judicial inquiry is complete.’ ” Conn. Nat’l Bank v.
Germain, 503 U.S. 249, 254 (1992).
1. Section 13(b)’s heading states its subject matter:
“Temporary restraining orders; preliminary injunctions.”
15 U.S.C. § 53(b). The body of § 13(b) likewise mentions
only the Commission’s authority to obtain “temporary restraining order[s],” “preliminary injunction[s],” and “permanent injunction[s].” Ibid. Those phrases are unambiguous. An injunction is “a judicial process whereby a
party is required to do a particular thing, or to refrain
from doing a particular thing.” 2 J. Story & W.H. Lyon,
Commentaries on Equity Jurisprudence § 1181, at 549

16
(14th ed. 1918). Injunctions typically are entered for the
purpose of “prevent[ing] violation of rights” on a goingforward basis. 1 D. Dobbs, Law of Remedies § 2.9(2), at
227 (2d ed. 1993); see also Warth v. Seldin, 422 U.S. 490,
515 (1975) (describing an injunction as a “form of prospective relief ”).
Section 13(b) as a whole confirms that it authorizes the
Commission to obtain, and sets forth standards for obtaining, injunctive relief—it does not address recovery of
money. See App., infra, 24a-25a. First, § 13(b) authorizes the Commission to “bring suit * * * to enjoin” acts or
practices where it has “reason to believe” that a person
“is violating, or is about to violate” the FTC Act. 15
U.S.C. § 53(b). The statute thus authorizes suits for injunctions directed to ongoing or prospective violations—
not relief that is directed to past violations. Warth, 422
U.S. at 515.
Section 13(b) is focused solely on injunctions. It specifies forms of injunctive relief—e.g., “temporary restraining order[s],” “preliminary injunction[s],” and “permanent injunction[s].” 15 U.S.C. § 53(b). It sets forth traditional considerations, authorizing particular forms of injunctive relief upon a “proper showing,” including considerations such as “the interest of the public,” the “equities,” and “likelihood of ultimate success.” Ibid. But it
nowhere suggests any standards or criteria for monetary
remedies.
2. In fact, § 13(b) nowhere mentions monetary relief
generally, or restitution specifically. It “mentions only
injunctive relief.” Commerce Planet, 815 F.3d at 598.
And while most any claim for relief “can, with lawyerly
inventiveness, be phrased in terms of an injunction,”
Great-West Life & Annuity Ins. Co. v. Knudson, 534
U.S. 204, 211 n.1 (2002), the fact is that “[r]estitution isn’t

17
an injunction,” Credit Bureau, 937 F.3d at 771. Restitution—at least in its equitable form—is a separate doctrine by which a court may “restore to the plaintiff particular funds or property in the defendant’s possession.”
Great-West, 534 U.S. at 214. Perhaps for that reason, no
court of appeals has ever construed § 13(b)’s reference to
“injunction[s]” as expressly authorizing restitution or
other monetary relief on the ground that they are one
and the same.
Nor does the concept of awarding monetary relief,
such as restitution, otherwise “sit comfortably” within
the framework of § 13(b). Credit Bureau, 937 F.3d at
772. Section 13(b) authorizes the Commission to bring
suit when it believes a person “is violating, or is about to
violate,” a provision of the FTC Act. 15 U.S.C. § 53(b)(1).
Section 13(b) thus addresses a defendant’s ongoing or
prospective conduct—it does not authorize the Commission to seek redress solely for past harms. See FTC v.
Shire Viropharma, Inc., 917 F.3d 147, 156 (3d Cir. 2019).
Restitution, however, is an inherently backward-looking
remedy—it is a “return or restoration of what the defendant has gained in a transaction.” 1 Dobbs, supra,
§ 4.1(1), at 551 (emphasis added). If Congress had intended § 13(b) to encompass purely retrospective monetary relief, such as restitution, then it would not have
keyed § 13(b) relief to cases of ongoing or imminent violations. The terms § 13(b) imposes on the Commission do
not square with the nature of retrospective monetary relief, because § 13(b) was never meant to encompass retrospective monetary relief.
3. If there is “one, cardinal canon” of statutory construction, it is that “courts must presume that a legislature says in a statute what it means and means in a
statute what it says there.” Conn. Nat’l Bank, 503 U.S.

18
at 253-254. As this Court has explained, when Congress
makes specific “reference” to “injunction[s]” in delineating the relief available under a statutory scheme, that
should be understood as “a statutory limitation to injunctive relief ” as that concept is “typically” understood
in “equity.” Great-West, 534 U.S. at 211 n.1 (emphasis
added). An “injunction” is not “typically” understood to
encompass “restitution.” Construing the term “injunction” in § 13(b) to encompass claims by the Commission
for monetary relief renders “meaningless” the limits that
Congress imposed through its use of that term. Ibid.
B. Allowing the Commission To Obtain Monetary
Relief Under § 13(b) Defies the FTC Act’s
Broader Statutory Scheme
The contrary reading of § 13(b) makes hash of the
overall statutory scheme, rendering express provisions
redundant and rendering statutory protections impotent.
1. When Congress intended to authorize the Commission to seek relief beyond injunctions—equitable or
otherwise—it said so expressly. Section 5(l) of the FTC
Act, for example, provides that where a person violates a
final cease-and-desist order from the Commission, the
“district courts are empowered to grant mandatory injunctions and such other and further equitable relief as
they deem appropriate” to redress the violation. 15
U.S.C. § 45(l) (emphasis added). But § 13(b) contains no
mention of such equitable relief.
That “absence of similar language in section 13(b) is
conspicuous.” Credit Bureau, 937 F.3d at 773. “ ‘[W]here
Congress includes particular language in one section of a
statute but omits it in another section of the same Act, it
is generally presumed that Congress acts intentionally
and purposely in the disparate inclusion or exclusion.’ ”
Nken v. Holder, 556 U.S. 418, 430 (2009). That presump-

19
tion is particularly apt here. Congress expanded § 5(l) to
encompass “injunctions and * * * other and further equitable relief ” in 1973, in the very same legislation that
gave the Commission authority to seek only “injunction[s]” in § 13(b). See Trans-Alaska Pipeline Authorization Act, Pub. L. No. 93-153, § 408, 87 Stat. 584, 591
(1973). If Congress meant the Commission to be able to
seek more than injunctions, and demand all equitable relief, under § 13(b), it would have said so there as well.
2. Congress’s decision to amend the FTC Act to
specifically authorize certain types of backward-looking
monetary relief confirms § 13(b)’s limited reach. Added
just two years after §13(b), § 19 provides that district
courts “shall have jurisdiction” in certain circumstances
“to grant such relief as the court finds necessary to redress injury to consumers.” 15 U.S.C. § 57b(b). “Such
relief may include,” among other things, “rescission or
reformation of contracts,” and “the refund of money or
return of property.” Ibid.
Under the majority’s interpretation of § 13(b), much of
§ 19 is “entirely redundant.” App., infra, 29a. There
would have been no need for Congress to expressly authorize “the refund of money or return of property” to consumers in limited situations through § 19, 15 U.S.C.
§ 57b(b), if § 13(b) already “empower[ed] district courts to
grant ‘any ancillary relief necessary to accomplish complete justice,’ ” including monetary “restitution,” for violations of the FTC Act, Commerce Planet, 815 F.3d at
598. Limiting § 13(b) to its text—authorizing only injunctions—avoids “an interpretation [that] would render
superfluous another part of the same statutory scheme.”
Marx v. Gen. Revenue Corp., 568 U.S. 371, 386 (2013).
“[T]he canon against surplusage” thus also weighs
strongly against the majority interpretation. Ibid.

20
Allowing the Commission to seek monetary relief
under § 13(b), moreover, vitiates critical “procedural protections” Congress provided in § 19. App., infra, 27a.
For example, to obtain monetary relief under § 19, the
Commission must make one of two showings—both of
which ensure that a defendant had reason to believe the
FTC Act proscribed the challenged conduct. The Commission can show the conduct violated an existing “rule,”
promulgated under the Commission’s rulemaking authority, “respecting unfair or deceptive acts or practices.” 15
U.S.C. § 57b(a)(1). Or the Commission must already have
issued a “cease and desist order which is applicable” to
the defendant, and then must prove in district court that
a “reasonable man would have known under the circumstances” that the conduct “was dishonest or fraudulent.”
Id. § 57b(a)(2).
Section 13(b) contains no comparable safeguards. Instead, the Commission may seek relief under § 13(b)
“[w]henever [it] has reason to believe” there is a violation
of “any provision of law enforced by the [Commission].”
15 U.S.C. § 53(b)(1). That includes § 5’s general prohibition against “unfair or deceptive acts or practices in or
affecting commerce.” Id. § 45(a)(2). The conduct potentially covered by § 5 is broad, and the bar for proving a
violation after the fact is low: “An act or practice is deceptive if * * * there is a representation, omission, or
practice that * * * is likely to mislead consumers acting
reasonably under the circumstances, and * * * the representation, omission, or practice is material.” FTC v. Stefanchik, 559 F.3d 924, 928 (9th Cir. 2009) (quotation
marks omitted).3 Reading § 13(b) broadly to encompass
3

Under that “consumer-friendly standard,” the Commission is not
required “to provide proof of actual deception.” App., infra, 7a (quo-

21
monetary relief licenses the Commission to bypass the
express protections Congress built into § 19 by seeking
otherwise identical relief under § 13(b) instead.
Section 19, moreover, includes a statute of limitations.
“No action may be brought by the Commission under”
§ 19, it declares, “more than 3 years after” the “rule
violation” or “unfair or deceptive act or practice” at issue.
15 U.S.C. § 57b(d). Section 13(b), by contrast, “contains
no statute of limitations,” and courts have declined to impose one. FTC v. Dantuma, 748 F. App’x 735, 739 (9th
Cir. 2018); see Credit Bureau, 937 F.3d at 783. Allowing
the Commission to seek monetary relief under § 13(b)
renders that time limit—and the values it preserves—
virtually meaningless.4
Surely Congress did not craft the limits on monetary
and other relief that it imposed in § 19 with the intention
that the Commission could evade those limits at will by
seeking the same relief under § 13(b). Cf. Middlesex Cty.
Sewage Auth. v. Nat’l Sea Clammers Ass’n, 453 U.S. 1,
14 (1981) (holding that where Congress has provided
“elaborate enforcement provisions it cannot be assumed
that Congress intended to authorize by implication additional judicial remedies for private citizens”); City of
tation marks and alterations omitted). That, too, is difficult to reconcile with basic restitution principles, which generally require that the
defendant actually have “wrong[ed]” the “claimant,” and that the defendant’s “illicit profit [was] manifestly realized at the expense of the
claimant.” Restatement (Third) of Restitution and Unjust Enrichment § 44 cmt. a (2011).
4
The three-year limitations period, 15 U.S.C. § 57b(d), helps ensure
the “prompt resolution of disputes,” Hardin v. Straub, 490 U.S. 536,
542 n.10 (1989), and protects “ ‘vital’ ” public interests in repose, Kokesh v. SEC, 137 S. Ct. 1635, 1641 (2017).

22
Rancho Palos Verdes v. Abrams, 544 U.S. 113, 121 (2005)
(holding that “more expansive remedy under § 1983” is
unavailable to redress violations of federal statutory
rights where Congress provided “more restrictive remedies” in the statute itself ).
C. Porter Cannot Sustain the Majority’s Interpretation of § 13(b)
The circuits uniformly agree “that the statute’s text
does not expressly authorize the award of [monetary]
consumer redress.” Ross, 743 F.3d at 890. But the majority have nevertheless justified expanding it to include
such relief as “grounded” in this Court’s decision in Porter v. Warner Holding Co., 328 U.S. 395 (1946). See, e.g.,
Commerce Planet, 815 F.3d at 598. They construe Porter
as “articulat[ing] an interpretive principle that inserts a
presumption”—that, where Congress authorizes a court
to issue an “injunction,” courts should construe “the legislative branch’s real intent” as authorizing the court “to
exercise the full measure of its equitable jurisdiction.”
Ross, 743 F.3d at 890-891 (emphasis added). But Porter
cannot sustain that expansive interpretation of § 13(b).
1. Porter concerned § 205(a) of the Emergency Price
Control Act of 1942. 328 U.S. at 396. That provision
expressly authorized the Administrator of the Office of
Price Administration to seek a “ ‘permanent or temporary injunction, restraining order, or other order’ ” against
landlords who violated the Act’s ceilings on rents. Id. at
397. The question presented was whether the Administrator could seek “restitution of rents collected by a landlord in excess of the permissible maximums” under
§ 205(a). Id. at 396.
This Court held that the Administrator could pursue
restitution under § 205(a). The Court stated that, by authorizing an injunction, the statute invoked the district

23
court’s “equitable” “jurisdiction,” making “all the inherent and equitable powers of the District Court * * *
available for the proper and complete exercise of that
jurisdiction,” including restitution. 328 U.S. at 398. “Only in that way,” the Court stated, “can equity do complete
rather than truncated justice.” Ibid. Looking to the statute’s text, the Court stated that “the language of § 205(a)
admits of no other conclusion.” 328 U.S. at 399. “[T]he
term ‘other order,’ ” the Court explained, “contemplates a
remedy other than that of an injunction.” Ibid. (emphasis added). “An order for the recovery [of ] restitution
* * * may be considered a proper ‘other order’ * * * .”
Ibid.
The Court stated that a statute’s invocation of a particular equitable remedy will not always carry with it all
the powers of “equitable jurisdiction” if the statute, “in so
many words, or by a necessary and inescapable inference, restricts the court’s jurisdiction in equity.” 328
U.S. at 398. For that reason, the Court found that
another provision of the Emergency Price Control Act
that authorized a tenant to sue for damages “provides an
exclusive remedy relative to damages,” and “supersedes
th[e] possibility” that courts of equity might award damages “under 205(a).” Id. at 401. But the Court found that
no “other provision” of the Act “expressly or impliedly
preclude[d] a court from ordering restitution.” Id. at 403.
2. Unlike the statute at issue in Porter, § 13(b) mentions only “injunction[s]”; it does not include the “other
order” language the Court found to “contemplate[ ] a
remedy other than * * * an injunction.” 328 U.S. at 399.
No other provision of the statute in Porter expressly referenced restitution, so as to “supersede[ ] th[e] possibility” of awarding restitution as a matter of implicit equitable “jurisdiction under” the statute. Id. at 401. But § 19

24
of the FTC Act expressly authorizes the Commission to
obtain the very monetary relief that the majority of
circuits have construed § 13(b) to impliedly authorize.
See pp. 19-21, supra. And construing § 13(b) to authorize
such relief circumvents the important procedural and
substantive safeguards that § 19 provides. Ibid. For
those reasons alone, Porter’s construction of “injunction”
in § 205(a) of the Emergency Price Control Act should
not control the construction of “injunction” in § 13(b) of
the FTC Act.
3. In all events, the supposed “interpretive principle”
some courts have drawn from Porter—that by using the
term “injunction,” Congress “real[ly]” means “the full
measure of [a court’s] equitable jurisdiction,” Ross, 743
F.3d at 891—is not consistent with this Court’s approach
to statutory construction or implied remedies. At the
time Porter was decided, “the Court followed a different
approach to recognizing implied causes of action than it
follows now.” Ziglar v. Abbasi, 137 S. Ct. 1843, 1855
(2017). Under that “ ‘ancien regime,’ the Court assumed
it to be a proper judicial function to ‘provide such remedies as [were] necessary to make effective’ a statute’s
purpose.” Ibid. (citation omitted). The majority’s interpretation of § 13(b) is “a relic of that ancien regime.”
App., infra, 37a.
Since Porter, this Court has “adopted a far more cautious course” before implying remedies “not explicit in
the statutory text itself.” Ziglar, 137 S. Ct. at 1855.
Now, “separation-of-powers principles are or should be
central to the analysis.” Id. at 1857. “The judicial task is
to interpret the statute Congress has passed to determine whether it displays an intent to create” a particular remedy. Alexander v. Sandoval, 532 U.S. 275, 286
(2001).

25
Thus, in Meghrig v. KFC Western, Inc., 516 U.S. 479
(1996), this Court declined to “imply” additional remedies
(remedies remarkably similar to those implied below)
into otherwise clear statutory text. The question there
was whether “ ‘equitable restitution’ ” was available under
the Resource Conservation and Recovery Act of 1976
(“RCRA”), which authorizes district courts “ ‘to restrain
any person who has contributed or who is contributing to
the past or present handling * * * of any solid or hazardous waste.’ ” Id. at 482 & n.* (quoting 42 U.S.C.
§ 6972(a)). The government, citing Porter, urged that district courts had “inherent authority to award any equitable remedy” that was not “expressly” foreclosed by the
statute. Id. at 487. The Court refused to find an implied
restitution remedy in that provision. “Under a plain
reading of th[e] remedial scheme,” the Court explained,
courts could impose either “a mandatory injunction” or
“a prohibitory injunction.” Id. at 484. Neither of those
forward-facing remedies, however, “contemplates the
award of past cleanup costs, whether these are denominated ‘damages’ or ‘equitable restitution.’ ” Ibid.
The Court then contrasted the RCRA with the Comprehensive Environmental Response, Compensation, and
Liability Act of 1980 (“CERCLA”), which addresses
similar toxic-waste issues. 516 U.S. at 485. Unlike the
RCRA, CERCLA expressly authorizes monetary relief.
See 42 U.S.C. § 9607(a)(4). “Congress thus demonstrated
in CERCLA that it knew how to provide for the recovery
of cleanup costs[ ] and that the language used to define
the remedies under [the] RCRA does not provide that
remedy.” 516 U.S. at 485. Because Congress had “provided ‘elaborate enforcement provisions’ for remedying
the violation” of those statutes, it could not “ ‘be assumed
that Congress intended to authorize by implication addi-

26
tional judicial remedies.’ ” Id. at 487-488. The Court
therefore refused to follow the Porter “line of cases.” Id.
at 487.
Meghrig should make this an a fortiori case. “Every
one of Meghrig’s reasons for refusing to find restitutionary authority in the RCRA applies with equal force to
section 13(b).” Credit Bureau, 937 F.3d at 783. Like the
RCRA, § 13(b)’s plain text does not authorize restitution
or other monetary relief. See pp. 15-18, supra. It addresses only injunctions. 15 U.S.C. § 53(b). Moreover,
§ 5(l) and § 19 of the FTC Act both authorize additional
equitable remedies. See pp. 18-19, supra. And § 19 expressly authorizes monetary relief, but limits its availability. See pp. 19-21, supra. Because “Congress has provided ‘elaborate enforcement provisions’ for remedying
the violation” of the FTC Act, “ ‘it cannot be assumed
that Congress intended to authorize by implication additional judicial remedies’ ” in § 13(b). Meghrig, 516 U.S. at
487-488.
D. The Erroneous Departure from § 13(b)’s Text
Has Spawned Additional Circuit Conflicts
While most circuits have held that § 13(b) implicitly
authorizes the Commission to seek monetary relief, they
have divided over what forms of monetary relief are
available under that provision. For example, the Second
Circuit has held that, while the Commission may seek
restitution, it is limited to the form of restitution traditionally available in equity. The Ninth Circuit, by contrast, has held that the Commission may seek a broader
form of restitution that is legal in nature. That conflict is
predictable: Section § 13(b) says nothing about monetary
remedies in the first place, leaving the courts without
guidance about which forms of monetary relief are permitted and when. The fact that the circuits cannot agree

27
on the type of restitution available under § 13(b) shows
precisely why it is error to read such relief into § 13(b) in
the first place.
1. In FTC v. Verity International, Ltd., 443 F.3d 48
(2d Cir. 2006), the Second Circuit considered whether
restitution under § 13(b) “must be limited to so-called
equitable restitution.” Id. at 66. The court explained
that there are “two types of restitution”—equitable and
legal. Ibid. “Equitable restitution allowed the plaintiff to
recover money or property in the defendant’s possession
that could ‘clearly be traced’ to money or property ‘identified as belonging in good conscience to the plaintiff.’ ”
Id. at 66-67 (quoting Great-West, 534 U.S. at 212).
“Legal restitution, on the other hand, was awarded when
the plaintiff could not assert title to or the right to possession of particular property but nevertheless had some
basis for recovering * * * some benefit that the defendant
wrongly received from the plaintiff.” Id. at 67.
The Second Circuit reasoned that, because “the availability of restitution under § 13(b) of the FTC Act, to the
extent it exists, derives from the district court’s equitable
jurisdiction, it follows that the district court may award
only equitable restitution.” 443 F.3d at 67. And to “ensure” that an award can properly “be characterized as
equitable,” the Second Circuit has required that a restitutionary award “be limited to funds that actually were
paid to the defendants.” Bronson, 654 F.3d at 374.5
5

Courts have reached the same conclusion about restitution awarded
under other federal statutes, including ERISA, see, e.g., Callery v.
United States Life Ins. Co. in N.Y.C., 392 F.3d 401, 406 (10th Cir.
2004) (“[R]estitution recoveries are based upon a defendant’s gain,
not on a plaintiff [’s] loss.”), and the Commodities Exchange Act, see,
e.g., CFTC v. Wilshire Inv. Mgmt. Corp., 531 F.3d 1339, 1345 (11th

28
2. The Ninth Circuit “take[s] a different view.”
Commerce Planet, 815 F.3d at 601. It has “expressly rejected the argument that § 13(b) limits district courts to
traditional forms of equitable relief.” App., infra, 17a.
Like the Second Circuit, the Ninth Circuit reasons that
restitution is authorized under § 13(b) because its reference to “injunctive relief ” thereby “invokes a court’s
equity jurisdiction.” Commerce Planet, 815 F.3d at 602.
But the Ninth Circuit has held that the implied power to
grant all equitable relief “includes the power ‘to award
complete relief even though the decree includes that
which might be conferred by a court of law,’ such as monetary relief that would traditionally be viewed as ‘legal.’ ”
Ibid. (citation omitted).
As a result, while “the Second Circuit limits § 13(b)
relief to equitable restitution, the Ninth Circuit permits
restitution measured by the loss to consumers.” FTC v.
Inc21.com Corp., 475 F. App’x 106, 110 (9th Cir. 2012)
(citing Stefanchik, 559 F.3d at 931-932).6 The Ninth Circuit has “refused to limit restitution under § 13(b) to the
recovery of ‘identifiable assets in the defendant’s possession.’ ” App., infra, 32a (quoting Commerce Planet, 815
F.3d at 601). Consequently, the “relief ” the Commission
obtains in the form of restitution today “is indistinguishable from a request ‘to obtain a judgment imposing a
merely personal liability upon the defendant to pay a sum
of money’—essentially an ‘action[ ] at law.’ ” Id. at 33a
(quoting Great-West, 534 U.S. at 213).
Cir. 2008) (reversing district court because “awarding restitution in
the amount of customer loss was a legal remedy, and thus outside the
equitable powers of the district court”).
6
See also FTC v. Febre, 128 F.3d 530, 536 (7th Cir. 1997) (affirming
restitution award measured by “the full amount lost by consumers”).

29
3. It is perhaps not surprising that, having adopted a
“starkly atextual” view of § 13(b) as authorizing restitution, Credit Bureau, 937 F.3d at 767, the courts cannot
agree on the parameters of that implied remedy. Error
begets error. But if this Court were to find that § 13(b)
authorizes monetary remedies, that circuit conflict would
warrant review in its own right. The conflict is clear and
acknowledged. And it has profound consequences. For
example, under the Ninth Circuit’s approach, the Commission in this case was able to obtain a $1.27 billion
award for “restitution,” supposedly calculated in terms of
“the full amount lost by consumers.” App., infra, 103a104a. That is more than triple the $419 million the Commission asserted that petitioners directly “received,”
C.A. App. 1491, which would be a ceiling under the Second Circuit’s approach. As Judge O’Scannlain explained
below, while the Ninth Circuit purports to authorize “equitable monetary relief,” App., infra, at 4a, its approach
does not “have much resemblance to equitable forms of
restitution,” id. at 32a. Instead, the Ninth Circuit’s imposition of restitution under § 13(b) “ ‘bears all the hallmarks of a penalty’ ” that this Court identified in Kokesh
v. SEC, 137 S. Ct. 1635 (2017). App., infra, 31a.
III. THE ISSUE IS IMPORTANT AND RECURRING
The parties agree that the circuit conflict warrants
this Court’s review. The Commission has acknowledged
that “the question whether monetary relief is available
under Section 13(b) is a recurring one of great public importance.” FTC Credit Bureau Mot. 5. Indeed, it has
represented to the Seventh Circuit that “[t]here is a reasonable probability” this Court would “grant certiorari”
to review the issue. Id. at 4.
A. As a result of the courts’ prevailing interpretation
of the statute, § 13(b) has been transformed from a provi-

30
sion with a limited role in the overall scheme of the FTC
Act into the “cornerstone of the FTC’s enforcement program.” FTC Credit Bureau Mot. 5. When § 13(b) was
enacted in the 1970s, “no one” within the Commission
“imagined” that it “would become an important part of
the Commission’s consumer protection program.” D.
Fitzgerald, The Genesis of Consumer Protection Remedies Under Section 13(b) of the FTC Act 1, https://
www.ftc.gov/sites/default/files/documents/public_eve
nts/FTC%2090th%20Anniversary%20Symposium/fitz
geraldremedies.pdf. Indeed, “in the eight years” after it
was enacted, § 13(b) was scarcely employed by the Commission for any purpose beyond seeking preliminary injunctions. D. Spiegel, Chasing the Chameleons: History
and Development of the FTC’s 13(b) Fraud Program, 18
Antitrust 43, 43 (Summer 2004). The agency’s reluctance
to use § 13(b) in that fashion in its early years, of course,
belies the Commission’s current position. Cf. Norwegian
Nitrogen Prods. Co. v. United States, 288 U.S. 294, 315
(1933) (agency “practice has peculiar weight when it involves a contemporaneous construction of a statute by
the [agency] charged with the responsibility of setting its
machinery in motion”).
When the Commission deemed § 19’s procedures for
obtaining monetary relief too “time consuming,” it developed a legal strategy to press § 13(b) as an “alternative[ ].” Injunctions, Divestiture and Disgorgement 1213, http://www.ftc.gov/sites/default/files/documents/
public_events/ftc-90th-anniversary/symposium/04092
3transcript007.pdf. “When the early [§ 13(b)] cases were
proposed, many people within the Commission predicted
they would be unsuccessful, because Section 13(b) authorized only injunctive relief.” Fitzgerald, supra, at 22.

31
But the Commission prevailed in circuit after circuit
regardless, repeatedly obtaining monetary relief under
§ 13(b). See pp. 12-13, supra. As result, the Commission
has chosen to funnel the bulk of its enforcement efforts
into its “[Section] 13(b) Fraud Program,” rather than utilizing § 19 or purely administrative channels. See Spiegel, supra, at 43. “Suits for injunctions and equitable
monetary relief ” under § 13(b) thus have been commonplace “for more than 30 years.” FTC Credit Bureau Mot.
5. Indeed, “the agency files dozens of cases each year under Section 13(b).” Ibid.
B. Whether the Commission has statutory authority
to seek monetary relief under § 13(b) is thus “of great
public importance”—both to the Commission and to the
many defendants who are sued under that provision.
FTC Credit Bureau Mot. 5. According to the Commission, it “has utilized Section 13(b)” to recover “billions of
dollars” from defendants. Ibid. It has used that provision to obtain a judgment of more than $1 billion in this
case alone. App., infra, 104a.
The issue, of course, is not whether the Commission
has the power to seek monetary remedies at all. It is the
circumstances under which the Commission may do so.
The Commission may seek “the refund of money or return of property,” among other monetary remedies, under § 19. 15 U.S.C. § 57b(b). The question here is whether the Commission may instead seek the same relief under § 13(b)—a provision that mentions only injunctions—
and thereby bypass substantive and procedural protections Congress built into § 19 (including the requirements
of “notice” that the conduct is unlawful and agency action
within the limitations period). Credit Bureau, 937 F.3d
at 784; see 15 U.S.C. § 57b(a)(2); pp. 20-21, supra. Review is warranted.

32
C. The importance of the question presented, moreover, extends beyond the Commission and the FTC Act.
Other federal agencies rely on their statutory authority
to obtain injunctive relief to pursue billions of dollars in
restitution, disgorgement, and other forms of monetary
relief. As the Commission has explained, “the organic
acts of the Securities and Exchange Commission and the
Food and Drug Administration authorize courts to issue
injunctions but do not expressly mention monetary
relief.” FTC Credit Bureau Mot. 6 (citing 15 U.S.C.
§ 77t(b); 15 U.S.C. § 78u(d); 21 U.S.C. § 332(a)). “Relying
on the same legal theory used to interpret Section 13(b),
courts have consistently held that these statutes likewise
allow restitution or disgorgement.” Id. at 6 & n.3.7 Resolving the question presented here thus will also shed
light on the propriety of a number of other federal agencies’ enforcement regimes.
IV. THIS CASE PRESENTS AN IDEAL VEHICLE FOR
RESOLVING THE CONFLICT
This case presents an excellent vehicle for resolving
the circuit conflict. Whether § 13(b) authorizes monetary
remedies was both “pressed” by petitioners and “passed
upon” by the Ninth Circuit. Verizon Commc’ns Inc. v.
FCC, 535 U.S. 467, 530 (2002) (quotation marks omitted);
see App., infra, 15a. And there are no “logically antecedent questions that could prevent [the Court] from reach7

See, e.g., SEC v. First City Fin. Corp., 890 F.2d 1215, 1230 (D.C.
Cir. 1989); SEC v. Manor Nursing Ctrs., 458 F.2d 1082, 1103-1106
(2d Cir. 1972); SEC v. Tex. Gulf Sulfur Co., 446 F.2d 1301, 1307-1308
(2d Cir. 1971); United States v. Rx Depot, Inc., 438 F.3d 1052, 10541063 (10th Cir. 2006); United States v. Lane Labs-USA, Inc., 427
F.3d 219, 223-236 (3d Cir. 2005); United States v. Universal Mgmt.
Servs., Inc., 191 F.3d 750, 760-762 (6th Cir. 1999).

33
ing the question of the correct interpretation” of § 13(b).
Unite Here Local 355 v. Mulhall, 571 U.S. 83, 85 (2013).
This case, moreover, casts the real-world consequences of the issue into stark relief. This case involves “the
largest litigated judgment ever obtained” by the Commission. Press Release, U.S. Court Finds in FTC’s
Favor and Imposes Record $1.3 Billion Judgment
Against Defendants Behind AMG Payday Lending
Scheme (Oct. 4, 2016), https://www.ftc.gov/news-events/
press-releases/2016/10/us-court-finds-ftcs-favor-imposesrecord-13-billion-judgment. The Commission was awarded $1.27 billion in “equitable monetary relief ” from petitioners, App., infra, 4a—under a statutory provision that
mentions only “injunction[s],” 15 U.S.C. § 53(b).
The case also demonstrates the consequences of allowing the Commission to proceed under § 13(b), rather than
§ 19—evasion of § 19’s safeguards. In this case, there was
no existing Commission rule that identified petitioners’
conduct as an “unfair or deceptive act[ ] or practice[ ],” as
would support liability under § 19. 15 U.S.C. § 57b(a)(1);
pp. 6-7, supra. Nor was the Commission required to issue a “cease and desist order” first and then prove in
court that a “reasonable man would have known under
the circumstances” that the conduct “was dishonest or
fraudulent.” 15 U.S.C. § 57b(a)(2). Those requirements
have special salience where, as here, the supposedly unfair and deceptive practices petitioners engaged in were
widespread in the industry. See p. 7, supra. By proceeding under § 13(b), the Commission was able to recover
more than $1 billion by showing only that the “ ‘net
impression’ of the representation[s]” at issue “would be
likely to mislead” a reasonable consumer. App., infra, 7a.
Indeed, the Commission initiated an investigation into
petitioners’ lending practices in late 2002, but waited 10

34
years to bring suit against them. See p. 7, supra. In that
time, the Commission never notified petitioners of particular concerns, and thus gave them no opportunity to
take corrective action. Ibid. And it sought restitution
covering a longer span than would be allowed under
§ 19’s three-year limitations period. See App., infra,
100a.
The Commission is “currently evaluating whether to
file a petition for a writ of certiorari” seeking review of
the § 13(b) issue in the Seventh Circuit’s Credit Bureau
decision. FTC Credit Bureau Mot. 3. The Court will not
find a better vehicle than this case. The petition should
be granted.
CONCLUSION
The petition should be granted.
Respectfully submitted.
PAUL C. RAY
PAUL C. RAY, CHTD
8670 West Cheyenne Ave.
Suite 120
Las Vegas, NV 89129
(702) 823-2292
paulcraylaw@gmail.com

JEFFREY A. LAMKEN
Counsel of Record
MICHAEL G. PATTILLO, JR.
SARAH J. NEWMAN
MOLOLAMKEN LLP
The Watergate, Suite 660
600 New Hampshire Ave., NW
Washington, D.C. 20037
(202) 556-2000
jlamken@mololamken.com

Counsel for Petitioners
OCTOBER 2019








APPENDIX

APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
²²²²
No. 16-17197
²²²²
FEDERAL TRADE COMMISSION,
Plaintiff-Appellee,
v.
AMG CAPITAL MANAGEMENT, LLC;
BLACK CREEK CAPITAL CORPORATION;
BROADMOOR CAPITAL PARTNERS, LLC;
LEVEL 5 MOTORSPORTS, LLC;
SCOTT A. TUCKER; PARK 269 LLC; KIM C. TUCKER,
Defendants-Appellants.
————
Appeal from the United States District Court
for the District of Nevada in No. 2:12-cv-00536-GMNVCF, Gloria M. Navarro, Chief Judge, Presiding
————
Argued and Submitted August 15, 2018
San Francisco, California
Filed December 3, 2018
————

(1a)

2a
Before: Diarmuid F. O’Scannlain and Carlos T. Bea,
Circuit Judges, and Richard G. Stearns,* District Judge.
Opinion by Judge O’Scannlain;
Concurrence by Judge O’Scannlain;
Concurrence by Judge Bea
————
SUMMARY**
————
Federal Trade Commission
The panel affirmed the district court’s summary
judgment, and relief order, in favor of the Federal Trade
Commission (“FTC”) in the FTC’s action alleging that
Scott Tucker’s business practices violated § 5 of the FTC
Act’s prohibition against “unfair or deceptive acts or
practices in or affecting commerce.”
Tucker’s businesses offered high-interest, short-term
payday loans through various websites that directed
approved borrowers to hyperlinked documents that included the “Loan Note” and the essential terms of the
loan as mandated by the Truth in Lending Act (“TILA”).
The FTC alleged that Tucker violated § 5 of the FTC Act
because the Loan Note was likely to mislead borrowers
about the terms of the loan.
The panel held that the Loan Note was deceptive because it did not accurately disclose the loan’s terms. Specifically, the panel held that the TILA box’s “total of payments” value was deceptive, and the fine print’s oblique
*

The Honorable Richard G. Stearns, United States District Judge
for the District of Massachusetts, sitting by designation.
**
This summary constitutes no part of the opinion of the court. It
has been prepared by court staff for the convenience of the reader.

3a
description of the loan’s terms did not cure the misleading “net impression” created by the TILA box. The
panel concluded that the Loan Note was likely to deceive
a consumer acting reasonably under the circumstances.
The panel held that the district court had the power to
order equitable monetary relief under § 13(b) of the FTC
Act. The panel held that the Supreme Court’s recent decision in Kokesh v. SEC, 137 S. Ct. 1635 (2017), and this
court’s decision in FTC v. Commerce Planet, Inc., 815
F.3d 593, 598 (9th Cir. 2016) (holding that § 13 empowers
district court’s to grant any ancillary relief necessary),
were not clearly irreconcilable; and Commerce Planet remained good law.
The panel held that the district court did not abuse its
discretion in calculating the $1.27 billion award. The
panel applied the burden-shifting framework of Commerce Planet, and concluded that the district court did
not abuse its discretion when calculating the amount it
ordered Tucker to pay.
The panel held that the district court did not err in
permanently enjoining Tucker from engaging in consumer lending.
Judge O’Scannlain, specially concurring, joined by
Judge Bea, wrote separately to suggest that the court rehear the case en banc to reconsider Commerce Planet
and its predecessors, and the court’s interpretation of
§ 13(b) of the FTC Act to empower district courts to compel defendants to hold that this interpretation wrongly
authorized a power that the statute did not permit.
Judge Bea concurred in the opinion because precedent
compelled him to do so, but he wrote separately because
he believed that this court’s precedent was wrong in that
it allowed the panel to decide that the Loan Note was de-

4a
ceptive as a matter of law. See FTC v. Cyberspace.com,
LLC, 453 F.3d 1196, 1200 (9th Cir. 2006). Judge Bea
would hold that courts should reserve questions such as
whether the Loan Note was “likely to deceive” for the
trier of fact.
————
COUNSEL
Paul C. Ray (argued), Paul C. Ray Chtd., North Las
Vegas, Nevada, for Defendants-Appellants.
Imad Dean Abyad (argued) and Theodore P. Metzler,
Attorneys; Joel Marcus, Deputy General Counsel; David
C. Shonka, Acting General Counsel; Federal Trade
Commission, Washington, D.C.; for Plaintiff-Appellee.
————
OPINION
O’SCANNLAIN, Circuit Judge:
We must decide whether the Federal Trade Commission Act can support an order compelling a defendant to
pay $1.27 billion in equitable monetary relief.
I
A
Scott Tucker controlled a series of companies that
offered high-interest, short-term loans to cash-strapped
customers. He structured his businesses to offer these
payday loans exclusively through a number of proprietary websites with names like “500FastCash,” “OneClickCash,” and “Ameriloan.” Although these sites operated under different names, each disclosed the same loan
information in an identical set of loan documents. Between 2008 and 2012, Tucker’s businesses originated

5a
more than 5 million payday loans, each generally disbursing between $150 and $800 at a triple-digit interest rate.
The application process was simple. Potential borrowers would navigate to one of Tucker’s websites and
enter some personal, employment, and financial information. Such information included the applicant’s bank account and routing numbers so that the lender could deposit the funds and—when the bill came due—make automatic withdrawals. Approved borrowers were directed
to a web page that disclosed the loan’s terms and conditions by hyperlinking to seven documents. The most important of these documents was the Loan Note and Disclosure (“Loan Note”),1 which provided the essential
terms of the loan as mandated by the Truth in Lending
Act (“TILA”). See 15 U.S.C. § 1601 et seq. Borrowers
could open the Loan Note and read through its terms if
they chose, but they could also simply ignore the document, electronically sign their names, and click a big
green button that said: “I AGREE Send Me My Cash!”
B
In April 2012, the Federal Trade Commission
(“Commission”) filed suit against Tucker and his
businesses in the District of Nevada.2 The Commission’s
1

An example of the Loan Note is reproduced in the Appendix.
As is relevant on appeal, Tucker’s businesses include defendantsappellants AMG Capital Management, LLC; Black Creek Capital
Corporation; Broadmoor Capital Partners, LLC; and Level 5
Motorsports, LLC. Tucker is the sole owner of these corporations,
and we refer to them collectively as “Tucker.” The Commission’s
complaint also alleged that defendants-appellants Kim Tucker (Scott
Tucker’s wife) and Park 269 (a limited liability corporation that Kim
Tucker owns) “received funds” that could be “traced directly to
[Tucker’s] unlawful acts or practices.”

2

6a
amended complaint alleged that Tucker’s business
practices violated § 5 of the Federal Trade Commission
Act’s (“FTC Act”) prohibition against “unfair or deceptive acts or practices in or affecting commerce.” 15
U.S.C. § 45(a)(1).3 In particular, the Commission alleged
that Tucker violated § 5 because the terms disclosed in
the Loan Note did not reflect the terms that Tucker
actually enforced. Thus, the Commission asked the court
permanently to enjoin Tucker from engaging in consumer lending and to order him to disgorge “ill-gottenmonies.”
In December 2012, the parties agreed to bifurcate the
proceedings in the district court into a “liability phase”
and a “relief phase.” During the liability phase, the Commission moved for summary judgment on the FTC Act
claim, which the district court granted. In the relief
phase, the court enjoined Tucker from assisting “any
consumer in receiving or applying for any loan or other
extension of Consumer Credit,” and ordered Tucker to
pay approximately $1.27 billion in equitable monetary
relief to the Commission. The district court instructed
the Commission to direct as much money as practicable
to “direct redress to consumers,” then to “other equitable
relief . . . reasonably related to the Defendants’ practices
alleged in the complaint,” and then to “the U.S. Treasury
as disgorgement.” Tucker timely appeals and challenges

3

The Commission also claimed that such practices violated TILA’s
“Regulation Z,” which requires disclosures to be made “clearly and
conspicuously.” 12 C.F.R. § 1026.17(a)(1). These formally independent legal theories are largely duplicative, however, because TILA
states that a violation of its provisions “shall be deemed” a violation
of the FTC Act. 15 U.S.C. § 1607(c).

7a
both the entry of summary judgment and the relief order.
II
Tucker first argues that the district court wrongly
granted the Commission’s motion for summary judgment
finding Tucker liable for violating § 5 of the FTC Act.
A
Section 5 of the FTC Act prohibits “deceptive acts or
practices in or affecting commerce.” 15 U.S.C. § 45(a)(1).
To prevail, the Commission must show that a representation, omission, or practice is “likely to mislead consumers
acting reasonably under the circumstances.” FTC v. Stefanchik, 559 F.3d 924, 928 (9th Cir. 2009) (internal
quotation marks omitted). This consumer-friendly standard does not require the Commission to provide “[p]roof
of actual deception.” Trans World Accounts, Inc. v. FTC,
594 F.2d 212, 214 (9th Cir. 1979). Instead, it must show
only that the “net impression” of the representation
would be likely to mislead—even if such impression “also
contains truthful disclosures.” FTC v. Cyberspace.com
LLC, 453 F.3d 1196, 1200 (9th Cir. 2006).
1
In this case, the Commission argues that Tucker
violated § 5 because the Loan Note was likely to mislead
borrowers about the terms of the loan. The top third of
such Loan Note contained the so-called TILA box, which
disclosed the “amount financed,” the “finance charge,”
the “total of payments,” and the “annual percentage
rate.” The “amount financed” portion of the box was the
amount borrowed, and the “finance charge” was equal to
30 percent of the borrowed amount. The final two figures
were calculated by summing the principal and the finance
charge (“total of payments”) and then determining the

8a
“annual percentage rate.” By way of illustration, suppose
that a customer wanted to borrow $300. The Loan Note’s
TILA box would state that the “amount financed” was
$300, that the “finance charge” was $90, and that the
“total of payments” was $390. The “annual percentage
rate” would vary based on the date the first payment was
due.
But the fine print below the TILA box was essential to
understanding the loan’s terms. This densely packed
text set out two alternative payment scenarios: (1) the
“decline-to-renew” option and (2) the “renewal” option.
Beneath the TILA box, the Loan Note stated: “Your
Payment Schedule will be: 1 payment of [the ‘total of
payments’ number] . . . if you decline* the option of
renewing your loan.” The asterisk directed the reader to
text five lines further down the page, which read: “To
decline this option of renewal, you must select your
payment options using the Account Summary link sent to
your email at least three business days before your loan
is due.” Tucker would send this “Account Summary link”
three days after the funds were disbursed. With this
email, borrowers hoping to exercise the decline-to-renew
option had to navigate through an online customerservice portal, affirmatively choose to “change the
Scheduled” payment, and agree to “Pay Total Balance.”
All of this had to be done “at least three business days”
before the next scheduled payment. Thus, the borrower
had to take affirmative action within a specified time
frame if he hoped to pay only the amount listed in the
TILA box as the “total of payments.”
By contrast, the “renewal” option would end up
costing a borrower significantly more. Importantly, renewing the loan did not require the borrower to take any
affirmative action at all; it was the default payment

9a
schedule. On the third line below the TILA box, the
Loan Note read: “If renewal is accepted you will pay the
finance charge . . . only.” And with each “renewal,” the
borrower would “accrue new finance charges”—that is,
an additional 30-percent premium. After the fourth renewal, Tucker would begin to withdraw the “finance
charge plus $50,” and he would withdraw another such
payment each subsequent period until the loan was paid
in full.
To illustrate, consider again the example of the customer who wanted to borrow $300. The Loan Note’s
TILA box would indicate that his “total of payments”
would be $390, equaling $300 in principal plus a $90 finance charge. But he would be required to pay much
more than that, unless he took the affirmative steps to
“decline” to renew the loan. Once again, these steps required him to wait three days after getting the cash, follow a link in a separate email, and agree at least three
days before the due date to pay the full balance. If he
failed to perform this routine, then he would owe yet
another finance change (equaling another 30 percent of
the borrower’s remaining balance) at the next due date.
And if he simply let Tucker automatically withdraw the
payments for the course of the loan, he would owe the
$300 principal, plus ten separate finance charges, each
equaling 30 percent of the borrower’s remaining balance.
Altogether, a borrower following the default plan would
pay $975 instead of $390.
2
We agree with the Commission that the Loan Note
was deceptive because it did not accurately disclose the
loan’s terms. Most prominently, the TILA box suggested
that the value reported as the “total of payments”—
described further as the “amount you will have paid after

10a
you have made the scheduled payment”—would equal
the full cost of the loan. In reliance on this information, a
reasonable consumer might expect to pay only that
amount. But as we have described, under the default
terms of the loan, a consumer would be required to pay
much more. Indeed, under the terms that Tucker actually enforced, borrowers had to perform a series of affirmative actions in order to decline to renew the loan and thus
pay only the amount reported in the TILA box.
The Loan Note’s fine print does not reasonably clarify
these terms because it is riddled with still more misleading statements. First, the explanation of the process of
declining to renew the loan is buried several lines below
where the option to decline is first introduced. Second,
nothing in the fine print explicitly states that the loan’s
“renewal” would be the automatic consequence of inaction. Instead, it misleadingly says that such renewal
must be “accepted,” which seems to require the borrower
to perform some affirmative action. Third, between the
sentence that introduces the decline-to-renew option and
the sentences that explain the costly consequences of renewal, there is a long and irrelevant sentence about what
happens if a pay date falls on a weekend or holiday.
Thus, the fine print’s oblique description of the loan’s
terms fails to cure the misleading “net impression” created by the TILA box.
3
Tucker suggests, however, that the Loan Note is not
deceptive because it is “technically correct.” But the
FTC Act’s consumer-friendly standard does not require
only technical accuracy. In Cyberspace, we held that a
solicitation was deceptive even though “the fine print notices . . . on the reverse side of the” solicitation contained
“truthful disclosures.” 453 F.3d at 1200. Indeed, Cyber-

11a
space held that it was irrelevant that “most consumers
[could] understand the fine print on the back of the solicitation when that language [was] specifically brought to
their attention.” Id. at 1201. Just as in Cyberspace, consumers acting reasonably under the circumstances—
here, by looking to the terms of the Loan Note to understand their obligations—likely could be deceived by the
representations made there. Therefore, we agree with
the Commission that the Loan Note was deceptive.
B
Tucker further contends that the district court erred
because its narrow focus on the Loan Note fails to capture the “net impression” on consumers. The district
court found that “any facts other than the terms of the
Loan Note . . . and their presentation in the document
are immaterial to a summary judgment determination.”
But according to Tucker, the court should have considered all of his loan disclosures and all of his communications regarding those disclosures.
Tucker’s argument wrongly assumes that non-deceptive business practices can somehow cure the deceptive
nature of the Loan Note. The Act prohibits deceptive
“acts or practices,” 15 U.S.C. § 45(a)(1) (emphasis added),
so it gives the Commission flexibility to bring suit either
for particular misleading representations, or for generally deceptive business practices. Cf. FTC v. Sperry &
Hutchinson Co., 405 U.S. 233, 243 (1972) (“Congress [did
not intend] to confine the forbidden methods to fixed and
unyielding categories.” (citation omitted)). In this case,
the Commission must show only that a specific “representation” was “likely to mislead.” Stefanchik, 559 F.3d
at 928; see also Cyberspace, 453 F.3d at 1200-01 (basing
liability on deceptive solicitations without resorting to defendant’s other practices); Removatron Int’l Corp. v.

12a
FTC, 884 F.2d 1489, 1496-97 (1st Cir. 1989) (“Each advertisement must stand on its own merits; even if other advertisements contain accurate, non-deceptive claims, a violation may occur with respect to the deceptive ads.”).
Under this standard, the district court’s focus on the
Loan Note—that is, on this particular deceptive “representation”—was perfectly permissible.
C
Tucker next argues that summary judgment was also
inappropriate because he demonstrated a genuine issue
of material fact by presenting affirmative evidence from
which a jury could find in his favor. Tucker cites a host of
evidence in support of this point, but only two of his
arguments merit our attention.
First, Tucker claims that the Commission introduced
evidence that “contradicted” its theory of deception because four deposed consumers “had not read the loan disclosures” and “understood the disclosures upon reading
them at their depositions.” Thus, Tucker argues that
there is some evidence that consumers may not have regularly read the supposedly deceptive Loan Note. And if
customers were not likely to read the Loan Note in the
first place, the argument goes, then it cannot be likely to
deceive them.
But Tucker once again misunderstands the consumerfriendly standards of § 5 of the FTC Act. We have held
that “[p]roof of actual deception is unnecessary to establish a violation,” and thus Tucker can be liable if the Loan
Note itself “possess[es] a tendency to deceive.” Trans
World Accounts, Inc., 594 F.2d at 214. Thus, we held in
Cyberspace that the terms of a solicitation alone were deceptive such that “no reasonable factfinder could conclude that the solicitation was not likely to deceive consumers acting reasonably under the circumstances.” 453

13a
F.3d at 1201. True enough, we also stated in Cyberspace
that proof of actual deception is “highly probative,” but
we did so only to “bolster[ ]” our conclusion that the solicitation itself “created [a] deceptive impression.” Id. at
1200-01. In this case, however, Tucker points to no evidence that consumers who did read the Loan Note understood its terms. Tucker therefore fails to show that a
genuine issue of material fact exists.
Second, Tucker claims that the expert testimony offered by Dr. David Scheffman demonstrated an “absence
of confusion or deception.” Tucker’s counsel retained Dr.
Scheffman, who earned his doctorate in economics at the
Massachusetts Institute of Technology, to “opine on
whether the economic evidence regarding borrower behavior” was consistent with the Commission’s theory of
liability. He designed his analysis “to test for any material difference in the behavior of inexperienced consumers
that would indicate their understanding of the loan terms
was different from highly experienced consumers.” In
other words, he wanted to determine whether first-time
borrowers behaved like those who took out multiple
loans. If first-time borrowers behaved just like the repeat borrowers, Dr. Scheffman reasoned, then the firsttime borrowers could not have been misled about the loan
terms. Because there was a “near-perfect . . . correlation
between payoff behavior” among borrowers, Dr. Scheffman concluded that the data were “inconsistent with the
allegation that borrowers were misled.”
But Dr. Scheffman’s reasoning begs the question.
Consistent payoff patterns among classes of consumers
show, at best, that the consumers were similarly aware of
their obligations. While Dr. Scheffman concludes that
first-time borrowers were just as well informed as the repeat ones, it is equally plausible that the repeat borrow-

14a
ers were just as confused as those taking out their first
loans. As the district court noted, the expert’s analysis
simply assumed that repeat borrowers “plainly understood the loan terms.” He did not, however, offer any evidence “that repeat borrowers across loan portfolios
knew they were dealing with the same enterprise.” To
survive summary judgment, Tucker must identify some
specific factual disagreement that could lead a fact-finder
to conclude that the Loan Note was not likely to deceive.
See Stefanchik, 559 F.3d at 929. Dr. Scheffman’s testimony offers only speculative analysis that could cut either way. See McIndoe v. Huntington Ingalls Inc., 817
F.3d 1170, 1173 (9th Cir. 2016) (“Arguments based on
conjuncture or speculation are insufficient . . . .” (internal
quotation marks omitted)). Therefore, Dr. Scheffman’s
testimony does not raise a genuine issue of material fact.4
D
We conclude that the Loan Note was likely to deceive
a consumer acting reasonably under the circumstances.
We are therefore satisfied that the district court did not
err in entering summary judgment against Tucker as to
the liability phase.

4

We need not address Tucker’s objections that the admission of the
Commission’s consumer complaint database violated Federal Rule of
Evidence 807 and Federal Rule of Civil Procedure 37. Such evidence
was irrelevant to the district court’s determination that the Loan
Note itself was deceptive. Even if Tucker were correct, any error is
harmless. See Dowdy v. Metro. Life Ins. Co., 890 F.3d 802, 807 (9th
Cir. 2018). Likewise, we need not address the Commission’s alternative theory that Tucker is liable because he “independently violated
the Truth in Lending Act.” The finding of liability under § 5 of the
FTC Act is independently sufficient to affirm the judgment against
Tucker.

15a
III
Tucker next challenges the relief phase determination
that he must pay the Commission $1.27 billion. He urges
that the district court did not have the power to order
equitable monetary relief under § 13(b) of the FTC Act.
Alternatively, he argues that the order to pay $1.27
billion overstates his unjust gains.
A
Tucker contends that the Commission “improperly
use[d] Section 13(b) to pursue penal monetary relief under the guise of equitable authority.” After all, he points
out, § 13(b) provides only that district courts may enter
“injunction[s].” 15 U.S.C. § 53(b). According to Tucker,
an order to pay “equitable monetary relief ” is not an injunction, so he concludes that the statute does not authorize the court’s order.
Tucker’s argument has some force, but it is foreclosed
by our precedent. We have repeatedly held that § 13
“empowers district courts to grant any ancillary relief
necessary to accomplish complete justice, including restitution.” FTC v. Commerce Planet, Inc., 815 F.3d 593, 598
(9th Cir. 2016) (internal quotation marks omitted); see
also FTC v. Pantron I Corp., 33 F.3d 1088, 1102 (9th Cir.
1994) (“[T]he authority granted by section 13(b) . . . includes the power to order restitution.”). Our precedent
thus squarely forecloses Tucker’s argument.
Tucker responds that we should revisit Commerce
Planet in light of the Supreme Court’s recent decision in
Kokesh v. SEC, 137 S. Ct. 1635 (2017). In Kokesh, the
Court determined that a claim for “disgorgement imposed as a sanction for violating a federal securities law”
was a “penalty” within the meaning of the federal catchall statute of limitations. 137 S. Ct. at 1639. Much like

16a
the equitable monetary relief at issue in this case, disgorgement in the securities-enforcement context is “a
form of restitution measured by the defendant’s wrongful
gain.” Id. at 1640 (citing Restatement (Third) of Restitution and Unjust Enrichment § 51 cmt. A, at 204 (2010));
see also Commerce Planet, 815 F.3d at 599 (describing
restitution under § 13(b) as the power to “deprive defendants of their unjust gains”). The Court held that disgorgement orders are penalties because they “go beyond
compensation, are intended to punish, and label defendants wrongdoers as a consequence of violating public
laws.” Id. at 1645 (internal quotation marks omitted).
Tucker suggests that Kokesh severs the line of reasoning that links “injunctions” to “equitable monetary relief.” We said in Commerce Planet, for instance, that by
“authorizing the issuance of injunctive relief,” the statute
“invoked the court’s equity jurisdiction.” 815 F.3d at 598
(citing Porter v. Warner Holding Co., 328 U.S. 395
(1946)). Therefore, we concluded, § 13(b) “carries with it
the inherent power to deprive defendants of their unjust
gains from past violations, unless the Act restricts that
authority.” Id. at 599. Tucker contends, however, that
Kokesh’s reasoning compels the conclusion that restitution under § 13(b) is in effect a penalty—not a form of
equitable relief.
A three-judge panel may not overturn prior circuit authority unless it is “clearly irreconcilable with the reasoning or theory of intervening higher authority,” Miller
v. Gammie, 335 F.3d 889, 893 (9th Cir. 2003) (en banc),
and such threshold is not met here. First, Kokesh itself
expressly limits the implications of the decision: “Nothing in this opinion should be interpreted as an opinion on
whether courts possess authority to order disgorgement
in SEC enforcement proceedings.” Kokesh, 137 S. Ct. at

17a
1642 n.3. Second, Commerce Planet expressly rejected
the argument that § 13(b) limits district courts to traditional forms of equitable relief, holding instead that the
statute allows courts “to award complete relief even
though the decree includes that which might be conferred by a court of law.” Commerce Planet, 815 F.3d at
602 (internal quotation marks omitted). Because Kokesh
and Commerce Planet are not clearly irreconcilable, we
remain bound by our prior interpretation of § 13(b).
B
Tucker next argues that the district court abused its
discretion in calculating the amount of the award. Under
our case law, we apply a burden-shifting framework. See
Commerce Planet, 815 F.3d at 603-04. The Commission
“bears the burden of proving that the amount it seeks in
restitution reasonably approximates the defendant’s
unjust gain,” which is measured by “the defendant’s net
revenues . . . , not by the defendant’s net profits.” Id. at
603. If the Commission makes such showing, the defendant must show that the Commission’s approximation
“overstate[s] the amount of the defendant’s unjust
gains.” Id. at 604. Any “risk of uncertainty at this second step falls on the wrongdoer.” Id. (internal quotation
marks omitted).
Tucker argues that the $1.27 billion judgment overstates his unjust gains. The court arrived at such figure
based on the calculations of one of the Commission’s
analysts. The analyst relied on data from Tucker’s loan
management software to determine how much money
Tucker received from consumers in excess of the principal disbursed plus the initial 30-percent finance charge.
This surplus represented the amount of money that
Tucker had received over-and-above the amount disclosed in the TILA box, which the Commission argued

18a
represented Tucker’s ill-gotten gains. The district court
agreed, so the final sum it ordered Tucker to pay was calculated as follows: the sum of each consumer’s payments
to Tucker, minus the sum of each consumer’s “total of
payments” as disclosed in the TILA box, and minus certain other payments already made or to be made by other
defendants.
Tucker responds that the district court erred because
it ignored evidence of non-deception that should have reduced the award. Once again, Tucker reiterates the argument that repeat customers could not have been misled by the loan’s terms. Therefore, he concludes, these
customers should have been excluded from the calculation. As we said above, however, Tucker has not pointed
to specific evidence that indicates one way or another
whether repeat customers were actually deceived. See
supra Part II.C. Further, Tucker has not offered “a reliable method of quantifying what portion of the consumers who purchased [the product] did so free from deception.” Commerce Planet, 815 F.3d at 604. Therefore, the
district court did not abuse its discretion when calculating the amount it ordered Tucker to pay.5
5

The district court’s relief order also required Kim Tucker and Park
269 to disgorge more than $27 million because Tucker had “diverted
millions of dollars” from himself to them. Kim Tucker and Park 269
challenge this order. We have held that the FTC Act gives district
courts the power to reach fraudulently obtained property “in the
hands of any subsequent holder,” unless “the transferee purchases
ill-gotten assets for value, in good faith, and without actual or constructive notice of the wrongdoing.” FTC v. Network Servs. Depot,
Inc., 617 F.3d 1127, 1141-42 (9th Cir. 2010) (internal quotation marks
omitted). Here, the district court found that Kim Tucker and Park
269 did not provide any consideration for their money transfers from
Tucker. They do not dispute this core finding, and therefore we hold

19a
IV
Finally, Tucker challenges the district court’s decision
to enjoin him from engaging in consumer lending. The
text of § 13(b) limits injunctive relief to “proper cases,” 15
U.S.C. § 53(b), and Tucker argues that the “proper case”
language confines district courts to cases of “routine
fraud.” But we rejected this very argument in FTC v.
Evans Products Co., 775 F.2d 1084, 1086-87 (9th Cir.
1985). We thus cannot find fault with the district court’s
decision to enter a permanent injunction.
V
The judgment of the district court is AFFIRMED.

that the district court did not err when it ordered Kim Tucker and
Park 269 to disgorge ill-gotten gains.

20a
APPENDIX
The following is an example of the Loan Note:
LOAN NOTE AND DISCLOSURE
Date: 08/03/2011 ID#: OneClickCashBorrower’s Name: ______________

1953793314

Parties: In this Loan Note and Disclosure (“Note”) you
are the person named as Borrower above. “We” OneClickCash are the lender (the “Lender”).
All references to “we”, “us” or “ourselves” mean the
Lender. Unless this Note specifies otherwise or unless
we notify you to the contrary in writing, all notices and
documents you are to provide to us shall be provided to
OneClickCash at the fax number and address specified in
this Note and in your other loan documents.
The Account: You have deposit account, No
**********5844 (“Account”), at First Arkansas Bank
(“Bank”). You authorize us to effect a credit entry to deposit the proceeds of the Loan (the Amount Financed indicated below) to your Account at the Bank.
DISCLOSURE OF CREDIT TERMS: The information
in the following box is part of this Note.
ANNUAL
PERCENTAGE
RATE
The cost of
your credit as a
yearly rate
(e)
782.14%

FINANCE
CHARGE

Amount
Financed

Total of
Payments

The
dollar
amount
the
credit
will cost
you.
$150.00

The
amount
of credit
provided
to you or
on your
behalf.
$500.00

The amount
you will
have paid
after you
have made
the
scheduled
payment.
$650.00

21a
Your Payment Schedule will be: 1 payment of $650.00
due on 2011-08-18, if you decline* the option of renewing your loan. If your pay date falls on a weekend
or holiday and you have direct deposit, your account
will be debited on the business day prior to your normal pay date. If renewal is accepted you will pay the
finance charge of $150.00 only, on 2011-08-18. You will
accrue new finance charges with every renewal of your
loan. On the due date resulting from a fourth renewal
and every renewal due date thereafter, your loan must
be paid down by $50.00. This means your Account will
be debited the finance charge plus $50.00 on the due
date. This will continue until your loan is paid in full.
*To decline this option of renewal, you must select your
payment options using the Account Summary link sent
to your email at least three business days before your
loan is due. Security: The loan is unsecured.
Prepayment: You may prepay your loan only in increments of $50.00. If you prepay your loan in advance,
you will not receive a refund of any Finance Charge.
(e) The Annual Percentage Rate is estimated based on
the anticipated date the proceeds will be deposited to
or paid on your account, which is 8-4-2011.
Itemization Of Amount Financed of $500.00; Given
to you directly: $500.00; Paid on your account $0
See below and your other contract documents for any
additional information about prepayment, nonpayment
and default.
Promise to Pay: You promise to pay to us or to our order and our assignees, on the date indicated in the Payment Schedule, the Total of Payments, unless this Note is
renewed. If this Note is renewed, then on the Due Date,
you will pay the Finance Charge show above. This Note
will be renewed on the Due Date unless at least three
Business Days Before the Due Date either you tell us you

22a
do not want to renew the Note or we tell you that the
Note will not be renewed. Information regarding the renewal of your loan will be sent to you prior to any renewal showing the new due date, finance charge and all other
disclosures. As used in this Note, the term “Business
Day” means a day other than Saturday, Sunday, or legal
holiday, that OneClickCash is open for business. This
Note may be renewed four times without having to make
any principal payments on the Note. If this Note is renewed more than four times, then on the due date resulting from your fourth renewal, and on the due date resulting from each and every subsequent renewal, you must
pay the finance charge required to be paid on that due
date and make a principal payment of $50.00. Any payment due on the Note shall be made by us effecting one
or more ACH debit entries to your Account at the Bank.
You authorize us to effect this payment by these ACH
debit entries. You may revoke this authorization at any
time up to three Business Days prior to the date any payment becomes due on this Note. However, if you timely
revoke this authorization, you authorize us to prepare
and submit a check drawn on your Account to repay your
loan when it comes due. If there are insufficient funds on
deposit in Your Account to effect the ACH debit entry or
to pay the check or otherwise cover the Loan payment on
the due date, you promise to pay Us all sums You owe by
another form of payment other than personal check. We
do not accept personal checks, however, if You send Us a
check. You authorize Us to perform an ACH debit on
that Account in the amount specified.

23a
O’SCANNLAIN, Circuit Judge, specially concurring,
joined by BEA, Circuit Judge:
I write separately to call attention to our circuit’s unfortunate interpretation of the Federal Trade Commission Act. We have construed § 13(b)’s authorization of
“injunction[s]” to empower district courts to compel defendants to pay monetary judgments styled as “restitution.” See FTC v. Commerce Planet, Inc., 815 F.3d 593,
598 (9th Cir. 2016); FTC v. Pantron I Corp., 33 F.3d 1088,
1102 (9th Cir. 1994); FTC v. H.N. Singer, Inc., 668 F.2d
1107, 1113 (9th Cir. 1982).
I respectfully suggest that such interpretation is no
longer tenable.
Because the text and structure of the statute unambiguously foreclose such monetary relief, our invention of
this power wrests from Congress its authority to create
rights and remedies. And the Supreme Court’s recent
decision in Kokesh v. SEC, 137 S. Ct. 1635 (2017), undermines a premise in our reasoning: that restitution under
§ 13(b) is an “equitable” remedy at all. Because our interpretation wrongly authorizes a power that the statute
does not permit, we should rehear this case en banc to relinquish what Congress withheld.
I
A
I would begin (and end) with the statute’s text. Section 13(b) states that “the Commission may seek, and after proper proof, the court may issue, a permanent injunction.” 15 U.S.C. § 53(b) (emphasis added). An injunction is “a judicial process whereby a party is required
to do a particular thing, or to refrain from doing a particular thing.” 2 J. Story, Commentaries on Equity Jurisprudence § 1181, at 549 (14th rev. ed. 1918); see also 1 D.

24a
Dobbs, Law of Remedies § 1.1, at 7 (2d ed. 1993) (similar).
Injunctions might either “prevent violation of rights,” or
compel the defendant to “restore the plaintiff to rights
that have already been violated.” 1 Dobbs, § 2.9(2), at
227. But an order to pay money “as reparation for injury
resulting from breach of legal duty” is essentially a damages remedy—not a form of “specific relief ” like an injunction. Bowen v. Massachusetts, 487 U.S. 879, 913-14
(1988) (Scalia, J., dissenting). Indeed, any other interpretation would be absurd: if “injunction” included court orders to pay monetary judgments, then “a statutory limitation to injunctive relief would be meaningless, since any
claim for legal relief can, with lawyerly inventiveness, be
phrased in terms of an injunction.” Great-West Life &
Annuity Ins. Co. v. Knudson, 534 U.S. 204, 211 n.1
(2002).
If such text were not plain enough, the rest of § 13(b)
reaffirms that “injunction” means only “injunction.” The
statute states, for example, that the Commission must
believe that a person “is violating” or “is about to violate”
the Act in order to request injunctive relief. 15 U.S.C.
§ 53(b)(1). Thus, § 13(b) anticipates that a court may
award relief to prevent an ongoing or imminent harm—
but not to deprive a defendant of “unjust gains from past
violations.” Commerce Planet, 815 F.3d at 599 (emphasis
added). Indeed, § 13(b) expressly instructs courts to consider the traditional prerequisites for preliminary injunctive relief. The court must “weigh[ ] the equities,” consider the Commission’s “likelihood of ultimate success,”
and determine whether the preliminary injunction is “in
the public interest.” 15 U.S.C. § 53(b); see also Winter v.
Nat. Res. Def. Council, Inc., 555 U.S. 7, 20 (2008) (listing
these requirements along with “irreparable harm”).
Further, the statute expressly dispenses with the normal

25a
rule that a plaintiff must post a bond as security before
the district court will grant preliminary relief. Compare
15 U.S.C. § 53(b) (“[A] preliminary injunction may be
granted without bond . . . .”), with Fed. R. Civ. P. 65(c)
(requiring plaintiffs seeking preliminary injunctions to
give “security”). Section 13(b) thus not only provides for
injunctions, but it also references the constellation of
legal rules that make sense only with reference to such
relief.
Further, “injunction” cannot reasonably be interpreted to authorize other forms of equitable relief, because
Congress would have said so if it did. For example, the
Employee Retirement Income Security Act (ERISA)
authorizes litigants to seek both “to enjoin any act or
practice” and “other appropriate equitable relief.” 29
U.S.C. § 1132(a)(3). Indeed, in the Dodd-Frank Act, Congress felt compelled to amend the Commodity Exchange
Act to allow courts to impose “equitable remedies including . . . restitution . . . [and] disgorgement of gains”—
even though the statute already allowed it to impose “a
permanent or temporary injunction.” Dodd-Frank Wall
Street Reform and Consumer Protection Act, Pub. L.
No. 111-203, § 744, 124 Stat. 1376, 1735 (2010) (codified at
7 U.S.C. § 13a-1). Similar examples abound, as a brief
glance through the Statutes at Large shows. See Helping Families Save Their Homes Act of 2009, Pub. L. No.
111-22, § 201, 123 Stat. 1632, 1639 (codified at 15 U.S.C.
§ 1639a) (stating that certain persons “shall not be subject to any injunction, stay, or other equitable relief ”);
Veterans’ Benefits Improvement Act of 2008, Pub. L. No.
110-389, § 315, 122 Stat. 4145, 4167 (codified at 38 U.S.C.
§ 4323(e)) (“The court shall use . . . its full equity powers,
including temporary or permanent injunctions, temporary restraining orders, and contempt orders”); Class

26a
Action Fairness Act of 2005, Pub. L. No. 109-2, § 3(a), 119
Stat. 4, 6 (codified at 28 U.S.C. § 1712) (“equitable relief,
including injunctive relief ”).
If Congress could have used a broader phrase but
“chose instead to enact more restrictive language,” then
“we are bound by that restriction.” W. Va. Univ. Hosps.,
Inc. v. Casey, 499 U.S. 83, 99 (1991). Interpreting
§ 13(b)’s authorization of “injunctions” to empower courts
to award so-called equitable monetary relief is, to say the
least, strained.
B
1
Such sensible interpretation—that “injunction” means
only “injunction”—makes good sense in the context of
the “overall statutory scheme.” King v. Burwell, 135 S.
Ct. 2480, 2490 (2015) (internal quotation marks omitted).
While § 13(b) empowers the Commission to stop imminent or ongoing violations, an entirely different provision
of the FTC Act allows the Commission to collect monetary judgments for past misconduct. In particular, § 19
authorizes the Commission to seek “such relief as the
court finds necessary to redress injury to consumers,”
which “may include, but shall not be limited to, rescission
or reformation of contracts, the refund of money or return of property, the payment of damages, and public notification respecting . . . [such] unfair or deceptive act or
practice.” 15 U.S.C. § 57b(b) (emphasis added).
Read together, §§ 13(b) and 19 give the Commission
two complementary tools—one forward-looking and preventive, the other backward-looking and remedial—to satisfy its statutory mandate. Injunctive relief in § 13(b)
therefore functions as a simple stop-gap measure that allows the Commission to act quickly to prevent harm. In-

27a
deed, the congressional findings regarding § 13(b) state
that the “purpose of th[e] Act” is to “[e]nsure prompt enforcement of [the FTC Act] by granting statutory authority . . . to seek preliminary injunctive relief.” TransAlaska Pipeline Authorization Act, § 408(b), Pub. L. No.
93-153, 87 Stat. 576, 591 (1973). Buttressing § 13(b)’s preventive relief, § 19 allows the Commission later to seek
retrospective relief to punish or to remediate past violations. 15 U.S.C. § 57b; see FTC v. Figgie Int’l, Inc., 994
F.2d 595, 603 (1993) (“The redress remedy [in § 19] relates to past conduct . . . .”). Our misguided interpretation of § 13(b), therefore, fundamentally misunderstands
§ 13(b)’s function within the FTC Act’s “overall statutory
scheme.” Burwell, 135 S. Ct. at 2490.
Worse still, awarding monetary relief under § 13(b)
circumvents § 19’s procedural protections. Before the
Commission can collect ill-gotten gains under § 19, it
must surmount one of two procedural hurdles. First, it
may prove to the district court that the defendant “violate[d] any rule” promulgated through the Commission’s
rulemaking procedures. 15 U.S.C. § 57b(a)(1); see also id.
§ 57a (granting the Commission’s rulemaking authority).
If the Commission has not promulgated such a rule, however, it must first pursue an administrative adjudication,
issue a “final cease and desist order,” and then prove to
the district court that the defendant’s conduct was such
that a “reasonable man” would know it was “dishonest or
fraudulent.” Id. § 57b(a)(2); see also id. § 45 (granting the
Commission authority to issue cease and desist orders).
Thus, before the Commission can make someone pay, it
must have already resorted to the FTC Act’s administrative processes.
Doubtless, Congress included § 19’s procedural rules
with good reason. “No statute yet known pursues its

28a
stated purpose at all costs,” Henson v. Santander Consumer USA Inc., 137 S. Ct. 1718, 1725 (2017) (alterations
and internal quotation marks omitted), and § 19 prevents
the Commission from imposing significant monetary burdens simply by bringing a lawsuit in federal court. Instead, § 19 requires the Commission either to promulgate
rules that define unlawful practices ex ante, or first to
prosecute a wrongdoer in an administrative adjudication
that culminates in a cease and desist order. Indeed, the
very same statute that included § 19 significantly expanded both the Commission’s rulemaking authority and its
authority to seek civil penalties through § 5’s cease-anddesist procedures. See Magnuson-Moss Warranty—
Federal Trade Commission Improvement Act, tit. II,
§§ 202, 205, Pub. L. No. 93-637, 88 Stat. 2183, 2193, 2200
(1975) (codified as amended 15 U.S.C. §§ 45, 57a). Our
circuit’s flawed interpretation of § 13(b) in Commerce
Planet therefore wrongly allows the Commission to avoid
the administrative processes that Congress directed it to
follow.
2
Commerce Planet’s attempt to reconcile its interpretation of § 13(b) with § 19 is entirely unpersuasive. The decision suggests that § 19 “precludes a court from awarding damages” under § 13(b), but “does not eliminate the
court’s inherent equitable power to order payment of restitution.” 815 F.3d at 599 (emphasis added). But Commerce Planet’s interpretation of § 13(b) fails to give
unique effect to the series of remedies besides damages
that § 19 authorizes. Specifically, § 19 expressly allows
federal courts to impose certain equitable remedies like
“refund of money or return of property” and the “rescission or reformation of contracts.” 15 U.S.C. § 57b(b); see
1 D. Dobbs, § 4.3(1), at 587 (characterizing “rescission in

29a
equity” and “reformation of instruments” as “important
equitable remedies”); Samuel L. Bray, The System of
Equitable Remedies, 63 UCLA L. Rev. 530, 555-58 (2016)
(same). According to Commerce Planet, however, these
very same remedies were already available under § 13(b)
when Congress subsequently enacted § 19.1 Because
Commerce Planet’s interpretation renders § 19 almost
entirely redundant, it violates the “cardinal rule that, if
possible, effect shall be given to every clause and part
[of ] a statute.” D. Ginsberg & Sons, Inc. v. Popkin, 285
U.S. 204, 208 (1932).
II
I would end the inquiry here, for “[w]hen the words of
a statute are unambiguous,” the “judicial inquiry is complete.” Conn. Nat’l Bank v. Germain, 503 U.S. 249, 254
(1992) (internal quotation marks omitted). But even assuming arguendo that the word “injunction” authorizes
“equitable relief,” that still does not answer the question.
The Supreme Court has held that statutes authorizing
equitable relief limit federal courts only “to those categories of relief that were typically available in equity during the days of the divided bench.” Montanile v. Bd. of
Trs. of Nat’l Elevator Indus. Health Benefit Plan, 136 S.

1

Congress passed § 13(b) in 1973 and § 19 in 1975. See Trans-Alaska
Pipeline Authorization Act, § 408(F), Pub. L. No. 93-153, 87 Stat. 576,
592 (1973) (codified as amended 15 U.S.C. § 53(b)); Magnuson-Moss
Warranty—Federal Trade Commission Improvement Act, tit. II,
§ 206, Pub. L. No. 93-637, 88 Stat. 2183, 2193 (1975) (codified as
amended 15 U.S.C. § 57b); see also Peter C. Ward, Restitution for
Consumers Under the Federal Trade Commission Act: Good
Intentions or Congressional Intentions, 41 Am. U. L. Rev. 1139
(1992) (reviewing the legislative history of §§ 13(b) and 19).

30a
Ct. 651, 657 (2016) (internal quotation marks omitted).2
And as the Supreme Court has noted, “not all relief falling under the rubric of restitution is available in equity.”
Great-West, 534 U.S. at 212; see also Restatement
(Third) of Restitution and Unjust Enrichment § 4, cmt. a
(2011) (“The most widespread error is the assertion that
a claim in restitution or unjust enrichment is by its nature equitable rather than legal.”). In this case, because
restitution under § 13(b) is not a form of equitable relief, I
would conclude that we lack the authority to impose it.
A
Under the Supreme Court’s decision in Kokesh v.
SEC, 137 S. Ct. 1635 (2017), restitution under § 13(b)
would appear to be a penalty—not a form of equitable relief. In Kokesh, the Court held that SEC disgorgement,
which it described as “a form of restitution measured by
the defendant’s wrongful gain,” is a penalty. Id. at 1640
(quoting Restatement (Third) of Restitution and Unjust
Enrichment § 51, cmt. a, at 204 (2011)). The Court described three characteristics that render disgorgement a
penalty. First, it “is imposed by the courts as a consequence for violating . . . public laws.” Id. at 1643. Second, disgorgement is “punitive” rather than “remedial.”
Id. at 1644. With respect to this second characteristic,
2

These cases have arisen because the Court must interpret ERISA’s
authorization of “other appropriate equitable relief.” 29 U.S.C.
§ 1132(a)(3). See generally Samuel L. Bray, The Supreme Court and
the New Equity, 68 Vand. L. Rev. 997, 1014-23 (2015) (discussing the
Court’s use of history to demarcate equitable and legal remedies).
But “statutes addressing the same subject matter” should be
construed in pari materia, Wachovia Bank v. Schmidt, 546 U.S. 303,
315 (2006), so the Court’s analysis in these ERISA cases should
apply whenever we must determine which equitable remedies a
statute authorizes.

31a
the Court elaborated that it is “ordered without consideration of a defendant’s expenses that reduced the amount
of illegal profit,” so it “does not simply restore the status
quo [but] leaves the defendant worse off.” Id. at 1644-45.
Third, disgorgement is “not compensatory” because
some “funds are dispersed [sic] to the United States
Treasury.” Id. at 1644.
Restitution under § 13(b) shares each of these three
characteristics with SEC disgorgement. First, in Commerce Planet, we noted that the Commission sought “to
enforce a regulatory statute like § 13(b),” rather than to
resolve a “private controversy.” 815 F.3d at 602 (internal
quotation marks omitted). And like suits for disgorgement in Kokesh, suits under § 13(b) “may proceed even if
victims do not support or are not parties to the prosecution.” Kokesh, 137 S. Ct. at 1643. Second, restitution under § 13(b) is “punitive” rather than “remedial.” Id. at
1643-44. Commerce Planet holds that the wrongdoer’s
unjust gains must be measured by “net revenues” rather
than “net profits.” 815 F.3d at 603. Thus, restitution under § 13(b)—just like SEC disgorgement—“does not simply restore the status quo [but] leaves the defendant
worse off.” Kokesh, 137 S. Ct. at 1645. Third, it is not
compensatory. Funds can be paid to victims, but they
need not be. See FTC v. Pantron I Corp., 33 F.3d 1088,
1103 n.34 (1994). In this case, for instance, the Commission was instructed to give refunds to consumers, then to
use any remaining money in a way “reasonably related to
the Defendants’ practices alleged in the complaint,” then
to deposit the balance in “the U.S. Treasury as disgorgement.”
Restitution under § 13(b) therefore “bears all the hallmarks of a penalty.” Kokesh, 137 S. Ct. at 1644. As the
Supreme Court has already stated, “[a] civil penalty was

32a
a type of remedy at common law that could only be enforced in courts of law.” Tull v. United States, 481 U.S.
412, 422 (1987). Because penalties were not “available in
equity during the days of the divided bench,” Montanile,
136 S. Ct. at 657 (internal quotation marks omitted), we
should not be able to impose such penalty here—even if
we (wrongly) assume that § 13(b)’s use of “injunction”
authorizes “equitable relief.”
B
Nor does restitution under § 13(b) have much resemblance to equitable forms of restitution. Historically,
courts sitting in equity could impose a series of distinct
restitutionary remedies, including the “constructive
trust,” the “equitable lien,” “subrogation,” “accounting
for profits,” “rescission in equity,” and “reformation of instruments.” 1 Dobbs, § 4.3(1), at 587; see also Samuel L.
Bray, The System of Equitable Remedies, 63 UCLA L.
Rev. 530, 553-57 (2016) (similar). The general thread
connecting these remedies was that they did not “impose
personal liability on the defendant, but . . . restore[d] to
the plaintiff particular funds or property in the defendant’s possession.” Great-West, 534 U.S. at 214 (emphasis
added). The constructive trust, for instance, is “only used
when the defendant has a legally recognized right in a
particular asset”—e.g., a “trademark” or a “fund of money like a bank account.” 1 Dobbs, § 4.3(2), at 591. But if
such property is “dissipated,” then a plaintiff may not
“enforce a constructive trust of or an equitable lien upon
other property of the defendant.” Great-West, 534 U.S.
213-14 (quoting Restatement of Restitution § 215, cmt. a,
at 867 (1937)) (brackets omitted).
Commerce Planet, however, refused to limit restitution under § 13(b) to the recovery of “identifiable assets
in the defendant’s possession.” 815 F.3d at 601. But

33a
without such a tracing requirement, the remedy authorized by Commerce Planet loses its resemblance to the
traditional forms of equitable restitution. In this case, for
instance, the Commission’s complaint makes no effort to
identify a specific fund that the defendant wrongfully obtained. Therefore, the requested relief is indistinguishable from a request “to obtain a judgment imposing a
merely personal liability upon the defendant to pay a sum
of money”—essentially an “action[ ] at law.” Great-West,
534 U.S. at 213 (quoting Restatement of Restitution
§ 160, cmt. a, at 641-42 (1937)).
The only traditional equitable remedy to which restitution under § 13(b) is plausibly analogous is the “accounting for profits.” Such remedy “order[s] an inquiry
into the defendant’s handling of money or property, usually to ascertain the defendant’s gains so they may be
paid to . . . the plaintiff.” Bray, The System of Equitable
Remedies, supra, at 553; see also Great-West, 534 U.S. at
214 n.2 (discussing accounting for profits). An accounting
for profits also dispenses with the requirement that the
plaintiff “seek a particular res or fund of money.” 1
Dobbs, § 4.3(1), at 588. Nevertheless, restitution under
§ 13(b) is still inapposite. Generally, a suit for an accounting was proper only if (1) “the legal remedy was inadequate because of the complexity of the accounts” or (2)
“there was a pre-existing equitable duty to account” because of some fiduciary relationship. 1 Dobbs, § 4.3(5), at
609; see also 4 S. Symons, Pomeroy’s Equity Jurisprudence § 1421, at 1077-78 (5th ed. 1941). Neither is true
here: the borrowers defrauded by Tucker could establish
precisely how much they lost simply by producing bank
statements, and the defendant was not in a “fiduciary relationship” with such borrowers. More fundamentally,
however, the Commission cannot possibly claim that it

34a
seeks to recover “monies owed by the fiduciary or other
wrongdoer . . . which in equity and good conscience belong[ ] to the plaintiff ”—here, the Commission. 1 Dobbs,
§ 4.3(b), at 608 (emphasis added). In sum, restitution under § 13(b) bears little resemblance to historically available forms of equitable relief, and therefore we should
lack the authority to impose it.
C
Commerce Planet wholly avoided the historical analysis required by cases like Great-West and Montanile.
Relying on the Supreme Court’s decision in Porter v.
Warner Holding Co., 328 U.S. 395, 398 (1946), we reasoned that § 13(b)’s use of the word “injunction” invoked
the “the court’s equity jurisdiction.” 815 F.3d at 598.
Such equity jurisdiction, we continued, brought with it
“all the inherent equitable powers of the District Court”
to afford “complete rather than truncated justice.” Id. at
598-99 (internal quotation marks omitted). According to
Commerce Planet, then, § 13(b) granted a broader set of
powers than what is authorized in statutes (like ERISA)
that use the phrase “other appropriate equitable relief.”
Id. at 602. Thus, we concluded that the “interpretive constraints” that guided the Supreme Court in cases like
Great-West and Montanile did not control our construction of § 13(b). Id.
But such reasoning conflicts with the Supreme Court’s
repeated admonitions that the equitable powers of federal courts must be hemmed in by tradition. For instance,
in Grupo Mexicano de Desarrollo, S.A. v. All. Bond
Fund, Inc., the Court interpreted the scope of the equitable jurisdiction of the federal courts under the Judiciary
Act of 1789. 527 U.S. 308 (1999). There, the Supreme
Court squarely rejected the dissenting Justices’ argument that the “grand aims of equity” allowed “federal

35a
courts [to] rely on their flexible jurisdiction in equity to
protect all rights and do justice to all concerned.” Id. at
342 (Ginsburg, J., dissenting) (internal quotation marks
omitted). In “the federal system,” the majority reasoned,
“that flexibility is confined within the broad boundaries of
traditional equitable relief.” Id. at 322. Indeed, the
Court has reiterated similar concerns in other recent
cases. E.g., North Carolina v. Covington, 137 S. Ct. 1624,
1625 (2017) (“Relief in redistricting cases is fashioned in
the light of well-known principles of equity.” (internal
quotation marks omitted)); eBay Inc. v. MercExchange,
LLC, 547 U.S. 388, 394 (2006) (“[Equitable] discretion
must be exercised consistent with traditional principles of
equity, in patent disputes no less than in other cases governed by such standards.”). Such cases show that we
may not simply incant “equity” and thereby conjure the
boundless power to afford “complete rather than truncated justice.”
III
I acknowledge that several other federal courts have
agreed with our circuit’s interpretation of § 13(b), but
their numbers do not persuade me that they are correct
on the law, especially in light of Kokesh. The only decisions that engage with the issue at any length rely on the
same faulty reasoning as Commerce Planet. See FTC v.
Ross, 743 F.3d 886, 890-92 (4th Cir. 2014); FTC v. Gem
Merch. Corp., 87 F.3d 466, 468-70 (11th Cir. 1996); FTC v.
Security Rare Coin & Bullion Corp., 931 F.2d 1312,
1314-15 (8th Cir. 1991); FTC v. Amy Travel Serv., Inc.,
875 F.2d 564, 571-72 (7th Cir. 1989).3 But none of these
3

The remaining decisions uncritically adopt the analysis of the other
federal courts. See FTC v. Bronson Partners, LLC, 654 F.3d 359,
365 (2d Cir. 2011); FTC v. Magazine Sols., LLC, 432 F. App’x 155,

36a
decisions cogently explains how restitution under § 13(b)
fits with § 19. None undertakes the historical analysis
that Montanile and Great-West seem to require. And in
any event, the Court’s decision in Kokesh—which casts
serious doubt on restitution’s equitable pedigree—
postdates every single one of them. These past errors,
even if common, do not justify our continued disregard of
the statute’s text and the Supreme Court’s related precedent.
IV
Just last year, Justice Kennedy explained in Ziglar v.
Abbasi that the Supreme Court once “followed a different approach to recognizing implied causes of action than
it follows now.” 137 S. Ct. 1843, 1855 (2017). Under this
“ancien regime,” the Court described, it was assumed “to
be a proper judicial function to provide such remedies as
[were] necessary to make effective a statute’s purpose.”
Id. (internal quotation marks omitted). Since those days,
however, the Court has “adopted a far more cautious
course before finding implied causes of action.” Id. at
1855. Under Ziglar, if “a party seeks to assert an implied
cause of action under the Constitution itself ” or “under a
federal statute, separation-of-powers principles are or
should be central to the analysis.” Id. at 1857. So too
158 n.2 (3d Cir. 2011) (unpublished); FTC v. Direct Mktg. Concepts,
Inc., 624 F.3d 1, 15 (1st Cir. 2010); FTC v. Freecom Commc’ns, Inc.,
401 F.3d 1192, 1202 n.6 (10th Cir. 2005). And though the Fifth Circuit reasoned that § 13(b) invoked the district court’s “inherent equitable jurisdiction,” the actual remedy in the case was an order to
place assets into an escrow account “to preserve the status quo” and
“assure the possibility of complete relief following administrative adjudication.” FTC v. Sw. Sunsites, Inc., 665 F.2d 711, 716-21 (5th Cir.
1982). Such an order is quite unlike the order to pay a sum of money
as restitution, so it says little about the question here.

37a
here, the principle that must guide our analysis is that
Congress—not the courts—should dictate rights and remedies in our federal system. See id. (“The question is
‘ who should decide’ whether to provide for a damages remedy, Congress or the courts? The answer most often
will be Congress.” (internal quotation marks and citation
omitted)); Armstrong v. Exceptional Child Ctr., Inc., 135
S. Ct. 1378, 1385 (2015) (“The power of federal courts of
equity to enjoin unlawful executive action is subject to express and implied statutory limitations.”); Alexander v.
Sandoval, 532 U.S. 275, 286 (2001) (“The judicial task is
to interpret the statute Congress has passed to determine whether it displays an intent to create . . . a private
remedy.”).
Heedless of such instruction, we have implausibly construed the word “injunction” in § 13(b) to authorize the
extensive power to order defendants to repay ill-gotten
gains—never mind that such interpretation makes
nonsense out of § 19, and never mind that it ignores the
Court’s statements that our equitable powers must be
hemmed in by tradition. I submit that our interpretation
of § 13(b) is thus an impermissible exercise of judicial creativity, and it contravenes the basic separation-of-powers
principle that leaves to Congress the power to authorize
(or to withhold) rights and remedies. Our decision in
Commerce Planet is therefore a relic of that ancien regime that the Court over the last few decades has expressly and repeatedly repudiated.
We should rehear this case en banc to revisit Commerce Planet and its predecessors.

38a
BEA, Circuit Judge, specially concurring:
I concur in the opinion because our precedent1 compels me to, but I write separately to acknowledge that
the question whether something is “likely to deceive” is
inherently factual and should not be decided at the summary judgment stage.
Summary judgment is proper only when there exists
no genuine issue of material fact. Anderson v. Liberty
Lobby, Inc., 477 U.S. 242, 247 (1986). A dispute of a material fact is “genuine” if the “evidence is such that a reasonable jury could return a verdict for the nonmoving
party.” Id. at 248. In other words, in this case, to affirm
the district court’s grant of summary judgment, we must
conclude from the proofs presented that no reasonable
juror could find other than that a reasonable consumer
would likely be deceived by the Loan Note. This is difficult to do when the whole of the Loan Note is read. It is
undisputed that a careful reading of the Loan Note and
its fine print reveals the automatic renewal feature,
whereby borrowers’ loans would be automatically renewed unless they navigated to a link sent to their email
and chose to pay their total balance. Because the Loan
Note includes truthful disclosures, we can say it is “likely
to deceive” as a matter of law only by positing two scenarios: (1) it is unreasonable as a matter of law to expect
the average consumer to read all the words of the Loan
Note, including the fine print, or (2) as a matter of law, it
is unreasonable to expect the average consumer to understand all the words of the Loan Note in the manner in
which they are displayed.
1

See FTC v. Cyberspace.com LLC, 453 F.3d 1196, 1200 (9th Cir.
2006).

39a
As to the first point, I know of no authority that says
consumers need not read the fine print of their contracts;
such a holding would certainly imperil the validity of
many insurance contracts. And as to the second point, to
say it is unreasonable to expect the average consumer to
understand the words of the Loan Note in the manner in
which they are displayed, we would have to recognize
either that the three judges of this panel are better text
readers than is the average consumer or that judges are
not average consumers. I don’t know of any authority for
recognizing either assertion.
Indeed, we, a panel of three judges, have read and
understood the terms of the Loan Note. We have not
been deceived. Yet, we hold that the Loan Note is likely
to deceive the average consumer as a matter of law.
Under this court’s precedent, I accept that we may decide that the Loan Note is deceptive as a matter of law
under § 5 of the FTC Act. See FTC v. Cyberspace.com
LLC, 453 F.3d 1196, 1200 (9th Cir. 2006). What is determinative under Cyberspace is whether the “net impression” of the questioned text is likely to deceive. Id. This
rule seems to require a judge consciously to blur his eyes
as to the actual print to gain an “impression,” or perhaps
to see the print as French impressionist masters of the
late Nineteenth Century saw objects. But whether we
are guided by impressions from words or words themselves, Cyberspace defies logic when the words are actually understood by the judge to state something other
than the “net impression” that is claimed “likely to deceive.”
If something is “likely to deceive,” it means it will
more probably than not deceive. To predict what is “likely” to happen is to predict an event. An event is a fact,
yet to occur. It did not occur when we read the Loan

40a
Note. I am at a loss to understand how we can find it
would ineluctably occur in the case of an average reasonable consumer. It seems the event may occur or may not
occur. If so, whether it occurs in every case can be disputed. Disputed factual questions are reserved for juries, not for district judges acting alone nor for a panel of
appellate judges. Thus, while our precedent obliges me
to concur in this case, I think our precedent is wrong.
Courts should reserve questions such as whether the
Loan Note is “likely to deceive” for the trier of fact.

41a
APPENDIX B
UNITED STATES DISTRICT COURT
DISTRICT OF NEVADA
²²²²
NO. 2:12-cv-00536-GMN-VCF
²²²²
FEDERAL TRADE COMMISSION,
Plaintiff,
v.
AMG SERVICES, INC., et al.,
Defendants.
————
ORDER
————
May 28, 2014
²²²²
Pending before the Court for consideration is the Report and Recommendation (ECF No. 539) of the Honorable Cam Ferenbach, United States Magistrate Judge, entered on January 28, 2014. On February 14, 2014, the
Muir Law Firm, LLC and Timothy J. Muir (collectively
the “Muir Defendants”) filed their Limited Objection
(ECF No. 541) and AMG Services Inc., SFS, Inc., Red
Cedar Services, Inc., and MNE Services, Inc. (collectively the “Lending Defendants”) filed their Objection.
(ECF No. 542.) The Lending Defendants’ Objection was
joined by Defendants AMG Capital Management, Level 5
Motorsports, LeadFlash Consulting, Black Creek Capital
Corporation, Broadmoor Capital Partners, Scott A.

42a
Tucker, Blaine A. Tucker, Don E. Brady, Troy LittleAxe,
and Robert D. Campbell. (ECF Nos. 545, 548, 549, 552.)
The Federal Trade Commission (the “FTC”) filed its Response to the Muir Defendants’ Objection (ECF No. 554)
and Response to the Lending Defendants’ Objection
(ECF No. 556) on March 2, 2014.
For the reasons discussed below, the Court will accept
and adopt Magistrate Judge Ferenbach’s Report and Recommendation (ECF No. 539) to the extent that it is not
inconsistent with this opinion.
I. BACKGROUND
The FTC’s Complaint (ECF No. 1) alleges that Defendants violated portions of the Federal Trade Commission Act (the “FTC Act”),1 the Truth in Lending Act
(“TILA”),2 and the Electronic Fund Transfer Act
(“EFTA”),3 in connection with the Defendants’ activities
in offering and extending “high-fee, short-term ‘payday’
loans and the collection of those loans.” (Complaint 2:2325, ECF No. 1.) The relevant facts underlying these
claims primarily involve the loan application and loan repayment processes created by Defendants.4
A. The Loan Application Process
In order to obtain a short-term, payday loan from the
Lending Defendants, borrowers must complete online
applications available through the Lending Defendants’

1

15 U.S.C. §§ 41-58.
15 U.S.C. §§ 1601-1667f.
3
15 U.S.C. §§ 693-1693r.
4
A more detailed recitation of the underlying facts of the case is set
forth in Judge Ferenbach’s Report and Recommendation (ECF No.
539.)
2

43a
websites5 that request personal, employment, and financial information. (Defendants’ Opposition 6:8-7:20, ECF
No. 493.) With the information provided in the loan applications, the Lending Defendants determine a maximum amount that can be borrowed, which ranges between $150.00 and $800.00. (Id. 7:20-8:3.) This information also allows the Lending Defendants to make automatic withdrawals from the borrowers’ bank accounts. (Id.)
In order to receive the loan proceeds, the borrower is
required to select the desired loan amount, click four separate boxes accepting the Lending Defendants’ terms
and conditions, type his or her name in an electronic signature box, and click a button that reads: “I AGREE
Send Me My Cash!” (Id. 8:4-9:22.) The borrowers, however, are not actually required to read the terms and conditions of their loans in order to receive the loan proceeds. See generally (Id.) On the contrary, the webpage
format discourages the reading of the terms and conditions because it breaks the terms and conditions up into
nine separate hyperlinks in eight or nine point font. See
(Id. 8:4-9:22.) Furthermore, the most important link that
takes the borrowers to the document at issue for the present motions—the Loan Note and Disclosure link—is the
least conspicuous6 of the nine links. (Id.) The boxes and
disclosure links appear on the websites as follows:
5

Though the various websites of the Lending Defendants differ in
appearance, all of them provide the same information to borrowers
in the same language, so all of the Lending Defendants’ loan notes
and other documents are essentially “identical.” (Defendants’ Opposition 6:12-16, ECF No. 493.)
6
As noted by Judge Ferenbach, the Loan Note and Disclosure link is
buried in the fourth paragraph and overshadowed by two all caps redundant links to the LIMITED WAIVER OF SOVERIEGN

44a
I have read and accept the terms of the Application, including the terms and provisions of
the LIMITED WAIVER OF SOVEREIGN
IMMUNITY and the ARBITRATION PROVISION contained therein.
I have read and accept the terms of the Privacy
Policy & Electronic Disclosure and Consent
Agreement.
I have read and accept the terms of the Authorization Agreement.
I have read and accept the terms of the Loan
Note and Disclosure, including the terms and
provisions of the LIMITED WAIVER OF
SOVERIEGN IMMUNITY and the ARBITRATION PROVISION contained therein.7
(Id. 9:1-22.) If a borrow does click on the Loan Note and
Disclosure link, the following document appears, which
consists of a Truth in Lending Box (“TILA Box”) and 764
words in densely packed, fine print with some of the fine
print curiously contained in a second box:

IMMUNITY and the ARBITRATION PROVISION. (Report &
Recommendation 3:10-21, ECF No. 539.)
7
As depicted in Defendants’ filings, hyperlinks are signified by
underlining. See (Defendants’ Opposition 8:4-9:22, ECF No. 493.)

45a
LOAN NOTE AND DISCLOSURE
Borrower’s Name: ______________
Parties: In this Loan Note and Disclosure (“Note”) you
are the person named as Borrower above. “We” Ameriloan are the lender (the “Lender”).
All references to “we”, “us” or “ourselves” mean the
Lender. Unless this Note specifies otherwise or unless
we notify you to the contrary in writing, all notices and
documents you are to provide to us shall be provided to
Ameriloan at the fax number and address specified in
this Note and in your other loan documents.
The Account: You have deposit account, No
**********5844 (“Account”), at First Arkansas Bank and
Trust (“Bank”). You authorize us to effect a credit entry
to deposit the proceeds of the Loan (the Amount Financed indicated below) to your Account at the Bank.
DISCLOSURE OF CREDIT TERMS: The information
in the following box is part of this Note.
ANNUAL
PERCENTAGE
RATE
The cost of
your credit as a
yearly rate
(e)
684.38%

FINANCE
CHARGE

Amount
Financed

Total of
Payments

The dollar
amount
the credit
will cost
you

The
amount of
credit
provided
to you or
on your
behalf

The
amount
you will
have paid
after you
have
made the
scheduled
payment

$90.00

$300.00

$390.00

Your Payment Schedule will be: 1 payment of $390.00
due on 2010-09-24, if you decline* the option of renewing your loan. If your pay date falls on a weekend or

46a
holiday and you have direct deposit, your account will
be debited on the business day prior to your normal
pay date. If renewal is accepted you will pay the finance charge of $90.00 only, on 2010-09-24. You will accrue new finance charges with every renewal of your
loan. On the due date resulting from a fourth renewal
and every renewal due date thereafter, your loan must
be paid down by $50.00. This means your Account will
be debited the finance charge plus $50.00 on the due
date. This will continue until your loan is paid in full.
*To decline this option of renewal, you must select your
payment options using the Account Summary link sent
to your email at least three business days before your
loan is due. Security: The loan is unsecured.
Prepayment: You may prepay your loan only in increments of $50.00. If you prepay your loan in advance,
you will not receive a refund of any Finance Charge.
(e) The Annual Percentage Rate is estimated based on
the anticipated date the proceeds will be deposited to
or paid on your account, which is 9-8-2010.
Itemization Of Amount Financed of $300.00; Given
to you directly: $300.00; Paid on your account $0
See below and your other contract documents for any
additional information about prepayment, nonpayment
and default.
Promise to Pay: You promise to pay to us or to our order and our assignees, on the date indicated in the Payment Schedule, the Total of Payments, unless this Note is
renewed. If this Note is renewed, then on the Due Date,
you will pay the Finance Charge show above. This Note
will be renewed on the Due Date unless at least three
Business Days Before the Due Date either you tell us you
do not want to renew the Note or we tell you that the
Note will not be renewed. Information regarding the re-

47a
newal of your loan will be sent to you prior to any renewal showing the new due date, finance charge and all other
disclosures. As used in this Note, the term “Business
Day” means a day other than Saturday, Sunday, or legal
holiday, that Ameriloan is open for business. This Note
may be renewed four times without having to make any
principal payments on the Note. If this Note is renewed
more than four times, then on the due date resulting
from your fourth renewal, and on the due date resulting
from each and every subsequent renewal, you must pay
the finance charge required to be paid on that due date
and make a principal payment of $50.00. Any payment
due on the Note shall be made by us effecting one or
more ACH debit entries to your Account at the Bank.
You authorize us to effect this payment by these ACH
debit entries. You may revoke this authorization at any
time up to three Business Days prior to the date any payment becomes due on this Note. However, if you timely
revoke this authorization, you authorize us to prepare
and submit a check drawn on your Account to repay your
loan when it comes due. If there are insufficient funds on
deposit in Your Account to effect the ACH debit entry or
to pay the check or otherwise cover the Loan payment on
the due date, you promise to pay Us all sums You owe by
another form of payment other than personal check. We
do not accept personal checks, however, if You send Us a
check. You authorize Us to perform an ACH debit on
that Account in the amount specified.

See (FTC’s Memo in Supp. of MSJ 10:4-12, ECF No. 456)
(reproducing this exact Loan Note Disclosure); see also
(Defendants’ Opposition 11:1-26, ECF No. 493) (reproducing a loan note from OneClickCash with the same
exact provisions); (Lending Defendants’ Mot. Summary

48a
Judgment 5:11-22, ECF No. 461) (reproducing a loan
note from USFastCash with the same exact provisions).
B. The Repayment Process
As indicated by the emphasized terms located in the
TILA Box portion of the Loan Note and Disclosure document, borrowers who obtain loans from the Lending Defendants are only obligated to repay a fixed sum equal to
one finance charge plus the amount borrowed. (FTC’s
Memo in Supp. of MSJ 10:4-12, ECF No. 456) (showing a
single repayment of $390.00 for a $300.00 loan); see (Defendants’ Reply 7:1-15, ECF No. 512.) However, if borrowers fail to satisfy certain conditions precedent to
establish the single payment option, then they are automatically enrolled in a ten pay-period “renewal” plan.
(Id.) Under the renewal plan, the terms of which are
scattered throughout the dense text below the TILA Box
in the Loan Note and Disclosure document, a new finance
charge accrues each pay-period and the borrower’s principal balance only begins to decrease by $50.00 per payperiod following the fourth payday. (Defendants’ Opposition 12:1-15:4, ECF No. 493.) As a result, if the borrower
of a $300.00 loan from the Lending Defendants fails to
successfully opt out of the renewal plan, his or her total
payments would actually total $975.00 rather than the
$390.00 shown in the TILA Box. (Id.) The following table illustrates such a payment schedule under the renewal plan:

49a
Payday

1
2
3
4
5
6
7
8
9
10
Total

Payment

Finance
Charge
(30% of
Remaining
Principal
Balance 

Amount
Applied
to
Principal

Remaining
Principal
Balance

Total Paid
to Date

$90.00
$90.00
$90.00
$90.00
$90.00
$90.00
$90.00
$90.00
$140.00 $90.00
$125.00 $75.00
$110.00 $60.00
$95.00
$45.00
$80.00
$30.00
$65.00
$15.00
$975.00 $675.00

$0.00
$0.00
$0.00
$0.00
$50.00
$50.00
$50.00
$50.00
$50.00
$50.00
$300.00

$300.00
$300.00
$300.00
$300.00
$250.00
$200.00
$150.00
$100.00
$50.00
$0.00
–

$90.00
$180.00
$270.00
$360.00
$500.00
$625.00
$735.00
$830.00
$910.00
$975.00
$975.00

(Id.); see also (FTC’s Memo in Supp. of MSJ 14:1-14,
ECF No. 456) (reproducing an internal document from
Defendants’ containing this payment schedule).
While borrowers technically have the ability to decline
enrollment in the automatic renewal plan, the mechanism
for declining enrollment is controlled by the Defendants
through a convoluted email-and-hyperlink procedure.8
8

The fine print of Defendants’ Loan Note and Disclosure document
states that “[t]o decline this option of renewal, you must select your
payment option using the Account Summary link sent to your email
at least three business days before your loan is due.” The document,
however, appears to somewhat contradict the first statement when it

50a
See (Defendants’ Opposition 7:12-14; 14:15-16; 16:16-18,
ECF No. 493.) For a borrower to decline enrollment in
the automatic renewal plan using the email-and-hyperlink procedure, the following steps must be completed:
(1) three days after the loan is funded, the Lending Defendants send an email to the borrower containing additional loan terms and a link to a webpage from where the
borrower may elect to decline enrollment in the renewal
plan; (2) the borrower opens the email, reads the new
terms, accesses the webpage, and selects the option to
opt out; and (3) the selection is executed three business
days before the borrower’s “loan is due.” (Id. 7:12-14.)
The discrepancy between the repayment schedule
prominently presented in the TILA Box and the renewal
plan repayment schedule borrowers are automatically
entered into by the Lending Defendants as well as the
convoluted procedure for opting out of the renewal plan
appear to have created significant confusion for many
borrowers about the true cost of their loans. See (Exs.
167-168 of FTC’s Dec. in Supp. of MSJ, ECF No. 455167, 455-168) (compiling approximately 8,500 consumer
complaints); (Oxenford Depo. 170:18-172:10, Ex. 113 of
FTC’s Dec. in Supp. of MSJ, ECF No. 455-113) (estimating that approximately eighty percent of the borrowers
she spoke with complained that Defendants had withalso states that “[t]his Note will be renewed on the Due Date unless
at least three Business Days Before the Due Date either you tell us
you do not want to renew the Note or we tell you that the Note will
not be renewed.” (Defendants’ Opposition 11:1-26, ECF No. 493.)
Therefore, it appears ambiguous from the face of the document
whether a borrower must use the email-and-hyperlink procedure to
opt out of the renewal plan or whether simply notifying the Defendants of the desire to opt out would be sufficient to opt out. (Report &
Recommendation 6:3-13, ECF No. 539.)

51a
drawn more from their accounts than the loan cost). Furthermore, Defendants’ own internal records indicate that
the Lending Defendants’ employees were instructed to
conceal how the loan repayment plans worked in order to
keep potential borrowers in the dark. For example, in
response to an email from one of the Lending Defendants’ sales representatives suggesting they use clearer
language when explaining a loan to potential borrowers,
the Manager of Training and Development stated:
I don’t think that [this language] encourages a customer to GET a loan . . . . When we are trying to
sell it I think we should leave out terms like renew
and pay down. We don’t want to complicate things
if we are trying to get them to get a loan. I have
heard many times customers ask to withdraw the
loan after the explanation and I believe that a lot of
it has to do with the way it is explained.
(Email, Ex. 72 of FTC’s Dec. in Supp. of MSJ, ECF No.
455-72.)
C. Procedural History of the Case
The FTC filed its Complaint on April 2, 2012, alleging
claims for deceptive acts and practices and deceptive collection practices in violation of the FTC Act (Counts I &
II), for failing to properly disclose certain loan information in violation of TILA and its implementing Regulation
Z9 (Count III), for conditioning the extension of credit on
the preauthorization of recurring loans in violation of
EFTA (Count IV), and for disgorgement as provided under section 13(b) of the FTC Act (Count V). (Complaint
15:1-20:8, ECF No. 1.)

9

12 C.F.R. § 1026.

52a
On December 27, 2012, the Court signed an Order entering the parties’ joint stipulation for preliminary injunction and bifurcation. (ECF No. 296.) The Bifurcation Order divided the litigation into two phases: a liability phase and a relief phase. (Id. 9:1-10:23.) During
Phase I of the proceedings, the Court would adjudicate
the merits of the FTC’s claims for violations of the FTC
Act, TILA, and EFTA. (Id. 9:1-24.) During Phase II of
the proceedings, the Court would adjudicate the remaining issues, including whether the various Defendants constitute a common enterprise. (Id. 10:1-19.)
On July 18, 2013, the Lending Defendants as well as
Defendants AMG Capital Management, Level 5 Motorsports, LeadFlash Consulting, Black Creek Capital Corporation, Broadmoor Capital Partners, Scott A. Tucker,
Blaine A. Tucker, Don E. Brady, Troy LittleAxe, and
Robert D. Campbell (collectively the “Settling Defendants”) stipulated to settle Counts II & IV with the FTC.
(Joint Motion for Stipulated Order, ECF No. 446.) The
settlement, however, remained contingent upon Court
approval. (Id.) Furthermore, the Muir Defendants,
whose liability in this action depends largely upon the
FTC’s common enterprise theory, were notably absent
from the settlement. (Id.; Complaint ¶¶ 16, 19, 25, ECF
No. 1; Muir Objection 2:1-16, ECF No. 541.)
On September 30, 2013, before the Court had approved the settlement with the Settling Defendants, the
FTC moved for summary judgment on Counts I-IV
against all Defendants. (FTC’s Mot. Summary Judgment
p. 1, ECF No. 454.) That same day, the Lending Defendants filed their own motion seeking summary judgment
on Count III, which was joined by the other Defendants.
(Lending Defendants’ Mot. Summary Judgment, ECF
No. 461; Joinders, ECF Nos. 462-63, 465-66, 470-71.)

53a
Then on October 8, 2013, the Court approved the stipulated settlement of Counts II & IV with the Settling Defendants. (Order pp. 1-13, ECF No. 478.) Subsequently,
on November 4, 2013, the FTC withdrew its motion for
summary judgment on Counts II & IV against the Settling Defendants, but not the Muir Defendants. (Withdrawal Motion p. 2, ECF No. 487.)
The FTC’s Motion for Summary Judgment on Counts
I & III against all Defendants, and Counts II & IV
against the Muir Defendants (ECF Nos. 454, 487) and
the Lending Defendants’ Motion for Summary Judgment
on Count III (ECF No. 461) were referred to Magistrate
Judge Ferenbach pursuant to 28 U.S.C. § 636(b)(1)(B)
and District of Nevada Local Rule IB 1-4. On January
28, 2014, Judge Ferenbach recommended that this Court
enter an order granting the FTC’s Motion for Summary
Judgment on Counts I & III against all Defendants and
denying without prejudice the motion on Counts II & IV
against the Muir Defendants as well as denying the
Lending Defendants’ Motion for Summary Judgment on
Count III. (Report & Recommendation, ECF No. 539.)
Judge Ferenbach further recommended that the Bifurcation Order be amended to permit Counts II & IV to proceed against the Muir Defendants during Phase II. (Id.)
II. LEGAL STANDARD
A party may file specific written objections to the findings and recommendations of a United States Magistrate
Judge made pursuant to Local Rule IB 1-4. 28 U.S.C.
§ 636(b)(1)(B); D. Nev. R. IB 3-2. Upon the filing of such
objections, the Court must make a de novo determination
of those portions of the Report to which objections are
made. Id. The Court may accept, reject, or modify, in
whole or in part, the findings or recommendations made

54a
by the Magistrate Judge. 28 U.S.C. § 636(b)(1); D. Nev.
IB 3-2(b).
The Federal Rules of Civil Procedure provide for summary adjudication when the pleadings, depositions, answers to interrogatories, and admissions on file, together
with the affidavits, if any, show that “there is no genuine
dispute as to any material fact and the movant is entitled
to judgment as a matter of law.” Fed. R. Civ. P. 56(a).
Material facts are those that may affect the outcome of
the case. See Anderson v. Liberty Lobby, Inc., 477 U.S.
242, 248 (1986). A dispute as to a material fact is genuine
if there is sufficient evidence for a reasonable jury to return a verdict for the nonmoving party. See id. “Summary judgment is inappropriate if reasonable jurors,
drawing all inferences in favor of the nonmoving party,
could return a verdict in the nonmoving party’s favor.”
Diaz v. Eagle Produce Ltd. P’ship, 521 F.3d 1201, 1207
(9th Cir. 2008) (citing United States v. Shumway, 199
F.3d 1093, 1103-04 (9th Cir. 1999)). A principal purpose
of summary judgment is “to isolate and dispose of factually unsupported claims.” Celotex Corp. v. Catrett, 477
U.S. 317, 323-24 (1986).
In determining summary judgment, a court applies a
burden-shifting analysis. “When the party moving for
summary judgment would bear the burden of proof at trial, it must come forward with evidence which would entitle it to a directed verdict if the evidence went uncontroverted at trial. In such a case, the moving party has the
initial burden of establishing the absence of a genuine issue of fact on each issue material to its case.” C.A.R.
Transp. Brokerage Co. v. Darden Rests., Inc., 213 F.3d
474, 480 (9th Cir. 2000) (citations omitted). In contrast,
when the nonmoving party bears the burden of proving
the claim or defense, the moving party can meet its bur-

55a
den in two ways: (1) by presenting evidence to negate an
essential element of the nonmoving party’s case; or (2) by
demonstrating that the nonmoving party failed to make a
showing sufficient to establish an element essential to
that party’s case on which that party will bear the burden
of proof at trial. See Celotex Corp., 477 U.S. at 323-24. If
the moving party fails to meet its initial burden, summary judgment must be denied and the court need not
consider the nonmoving party’s evidence. See Adickes v.
S.H. Kress & Co., 398 U.S. 144, 159-60 (1970).
If the moving party satisfies its initial burden, the burden then shifts to the opposing party to establish that a
genuine issue of material fact exists. See Matsushita
Elec. Indus. Co. v. Zenith Radio Corp., 475 U.S. 574, 586
(1986). To establish the existence of a factual dispute, the
opposing party need not establish a material issue of fact
conclusively in its favor. It is sufficient that “the claimed
factual dispute be shown to require a jury or judge to resolve the parties’ differing versions of the truth at trial.”
T.W. Elec. Serv., Inc. v. Pac. Elec. Contractors Ass’n, 809
F.2d 626, 631 (9th Cir. 1987). In other words, the nonmoving party cannot avoid summary judgment by relying
solely on conclusory allegations that are unsupported by
factual data. See Taylor v. List, 880 F.2d 1040, 1045 (9th
Cir. 1989). Instead, the opposition must go beyond the
assertions and allegations of the pleadings and set forth
specific facts by producing competent evidence that
shows a genuine issue for trial. See Celotex Corp., 477
U.S. at 324.
At summary judgment, a court’s function is not to
weigh the evidence and determine the truth but to determine whether there is a genuine issue for trial. See Anderson, 477 U.S. at 249. The evidence of the nonmovant
is “to be believed, and all justifiable inferences are to be

56a
drawn in his favor.” Id. at 255. But if the evidence of the
nonmoving party is merely colorable or is not significantly probative, summary judgment may be granted. See
id. at 249-50.
III. DISCUSSION
A. Objection of the Lending Defendants
In their Objection (ECF No. 542), the Lending Defendants—joined by the other Defendants—assert that
Judge Ferenbach erred in his Report and Recommendation (ECF No. 539) by applying an incorrect legal standard, by improperly treating fact questions as questions of
law, and by violating the summary judgment standard in
resolving disputes of material fact in the FTC’s favor.
(Objection 1:9-14, ECF No. 542.) Specifically, Defendants assert that Judge Ferenbach erred (1) by treating
the net impression of Defendants’ loan documents as a
question of law instead of fact, (2) by ignoring facts as immaterial that are favorable to Defendants, (3) by “inventing new theories” as to why the loan documents are ambiguous, (4) by misconstruing material facts in favor of the
FTC, (5) by evaluating the TILA disclosure in a manner
contrary to Ninth Circuit case law, (6) by applying the incorrect test for contractual ambiguity, and (7) by failing
to grant summary judgment to Defendants. (Id. 1:152:6.) The first four objections relate to Judge Ferenbach’s granting of summary judgment to the FTC on
Count I while the final three objections relate to Judge
Ferenbach’s granting of summary judgment to the FTC
on Count III. For the following reasons, each of these
objections is without merit.
1. Treatment of the Net Impression of the
Loan Documents
Section 5 of the Federal Trade Commission Act of
1914 prohibits, inter alia, “unfair or deceptive acts or

57a
practices in or affecting commerce.” 15 § U.S.C. 45(a)(1).
“An act or practice is deceptive if ‘first, there is a representation, omission, or practice that, second, is likely to
mislead consumers acting reasonably under the circumstances, and third, the representation, omission, or practice is material.’ ” F.T.C. v. Gill, 265 F.3d 944, 950 (9th
Cir. 2001) (citing F.T.C. v. Pantron I Corp., 33 F.3d 1088,
1095 (9th Cir. 1994)). Actual deception is not required for
a Section 5 violation. Trans World Accounts, Inc. v.
F.T.C., 594 F.2d 212, 214 (9th Cir. 1979). Rather, Section
5 “only requires a showing that misrepresentations ‘possess a tendency to deceive.’ ” F.T.C. v. Commerce Planet,
Inc., 878 F. Supp. 2d 1048, 1073 (C.D. Cal. 2012) (quoting
Trans World Accounts, Inc., 594 F.2d at 214). Furthermore, the Court considers “the overall, common sense
‘net impression’ of the representation or act as a whole to
determine whether it is misleading,” and a Section 5 violation may still be found even if the fine print and legalese were technically accurate and complete. Commerce
Planet, 878 F. Supp. 2d at 1063 (citing Gill, 265 F.3d at
956)); see also F.T.C. v. Cyberspace.Com LLC, 453 F.3d
1196, 1200 (9th Cir. 2006) (stating that a representation
“may be likely to mislead by virtue of the net impression
it creates even though the [representation] also contains
truthful disclosures”).
Defendants’ first objection is that Judge Ferenbach
erred by “improperly step[ping] into the shoes of the
fact-finder” and treating the net impression of the Loan
Note and Disclosure document as a question of fact instead of law. (Objection 3:8-19, ECF No. 542.) Defendants assert that the Ninth Circuit and District of Nevada
cases granting summary judgment to the FTC for Section 5 claims are distinguishable from this case because
in those cases the Court found that no genuine issues of

58a
material fact existed. (Id. 4:1-9) (citing FTC v. Stefanchik, 559 F.3d 924, 929 (9th Cir. 2009); Cyberspace.Com
LLC, 453 F.3d at 1201; Gill, 265 F.3d at 955- 56; FTC v.
Publishers Bus. Servs., Inc., 821 F. Supp. 2d 1205, 1226
(D. Nev. 2010); FTC v. Grant Connect, LLC, 827 F.
Supp. 2d 1199, 1219 (D. Nev. 2011)).
Defendants’ argument, however, is unpersuasive.
First, numerous Ninth Circuit cases, including the ones
cited by Defendants have found the net impression of a
representation to be suitable for summary judgment determination. See e.g. Cyberspace.Com LLC, 453 F.3d at
1201 (“[T]he district court properly granted summary
judgment to the FTC on the FTCA § 5 violation because
no reasonable factfinder could conclude that the solicitation was not likely to mislead consumers acting reasonably under the circumstances in a way that is material.”);
F.T.C. v. Gill, 71 F. Supp. 2d 1030, 1035 (E.D. Cal. 1999),
aff ’d, 265 F.3d 944 (9th Cir. 2001) (“Where the operative
facts are substantially undisputed, and the heart of the
controversy is the legal effect of such facts, such a dispute effectively becomes a question of law that can, quite
properly, be decided on summary judgment.”). Second,
as will be addressed in the next section of this opinion,
Judge Ferenbach correctly found that there are no genuine issues of material fact regarding the terms Loan Note
Disclosure and no reasonable factfinder could conclude
that the document was not likely to mislead consumers.
See Infra § III.A.2. Therefore, Judge Ferenbach did not
improperly supplant the role of the jury in determining
the net impression of the Loan Note Disclosure. Defendants’ objection is without merit.

59a
2. Ignoring as “Immaterial” Facts Favorable
to Defendants
Defendants’ second objection is that in conducting his
“likely to mislead” analysis, Judge Ferenbach failed to
follow the appropriate summary judgment standard by
ignoring all the evidence that was favorable to Defendants and drawing all factual inferences in favor of the
FTC. (Objection 7:15-24, ECF No. 542.) In support of
this objection, Defendants argue that the facts ignored
by Judge Ferenbach, such as Defendants’ expert testimony, show the Loan Note Disclosure was not misleading. (Id. 8:4-13:24.) Defendants’ also reorganize and explain the terms of the document in an attempt to show
that the TILA Box and fine print are consistent and that
the terms contained in the fine print of the document are
not hidden, vague, uncertain, or contradictory. (Id.)
This argument, however, misunderstands the law and
Judge Ferenbach’s analysis and was directly addressed
and refuted in the Report and Recommendation. (Report
& Recommendation 22:11-26:18, ECF No. 539.) First,
the terms of the Loan Note Disclosure are not disputed
by Defendants. See e.g. (Defendants’ Opposition 11:1-26,
ECF No. 493.) Second, Judge Ferenbach noted that the
terms of the TILA Box and the fine print of that document provide the basis for his finding that Defendants violated Section 5 of the FTC Act. (Report & Recommendation 23:4-6, ECF No. 539.) Therefore, any facts other
than the terms of the Loan Note Disclosure and their
presentation in the document are immaterial to a summary judgment determination. Anderson, 477 U.S. at
248 (“Only disputes over facts that might affect the outcome of the suit under the governing law will properly
preclude the entry of summary judgment.”); see also (Report & Recommendation 24:17-26:18, ECF No. 539) (ad-

60a
dressing in detail why each of Defendants’ factual disputes are immaterial).
Furthermore, Defendants’ presentation and explanation of the fine print terms fail to show that Judge Ferenbach erred in finding that the Loan Note Disclosure was
likely to mislead as a matter of law. The Loan Note and
Disclosure document’s net impression is likely to mislead
because of the way the terms are presented to borrowers
by the document, not because Defendants’ counsel can
pull out the important terms and rearrange them in large
bullet point lists that allow for a clearer understanding of
their effects. See Feil v. F.T.C., 285 F.2d 879, 887 n.18
(9th Cir. 1960) (“The law is not made for experts but to
protect the public,—that vast multitude which includes
the ignorant, the unthinking and the credulous, who, in
making purchases, do not stop to analyze but too often
are governed by appearances and general impression.”)
(quoting Aronberg v. F.T.C., 132 F.2d 165, 170 (7th Cir.
1943)); Cyberspace.Com LLC, 453 F.3d at 1200 (“A [representation] may be likely to mislead by virtue of the
net impression it creates even though the [representation] also contains truthful disclosures.”); (Report & Recommendation 10:14-18, ECF No. 539) (“[A]rguments
about the technicalities of the loan note’s provisions, qualifications, and disclaimers are misplaced. Even if an argument regarding the loan note is technically true in the
mind of an attorney, the argument is immaterial under
Rule 56 if it is not also true in the eyes of a ‘reasonable’
borrower.”). The test for a FTC Act violation is whether
the representation “is likely to mislead consumers acting
reasonably under the circumstances.” Pantron I Corp.,
33 F.3d at 1095.
As Judge Ferenbach correctly found, the net impression of the Loan Note Disclosure is likely to mislead bor-

61a
rowers acting reasonably under the circumstances because the large prominent print in the TILA Box implies
that borrowers will incur one finance charge while the
fine print creates a process under which multiple finance
charges will be automatically incurred unless borrowers
take affirmative action. (Report & Recommendation
16:17-19, ECF No. 539) (“It requires no citation of authority to demonstrate that the ‘net impression’ of a boldfaced representation, which states that the borrower is
responsible to repay a fixed sum, is misleading when the
fine print indicates that the boldfaced fixed sum is not
fixed.”); see Commerce Planet, Inc., 878 F. Supp. 2d at
1065 (“the information about the continuity plan . . . is
buried with other densely packed information and legalese, which makes it unlikely that the average consumer
will wade through the material and understand that she
is signing up for a negative option plan.”) This structure
gives the impression that a $300.00 loan from the Lending Defendants will only cost borrowers $90.00, when in
fact, unless borrowers read the fine print and take the
necessary steps to opt out of the renewal plan, such a
loan will incur $675.00 in fees.
Furthermore, the material terms in the fine print are
arranged in the document in such a way that the existence of the automatic renewal and the process for declining renewal are hidden from borrowers. See Supra 4:118 (reproducing the Loan Note Disclosure). These
terms, which significantly alter the parties’ legal obligations from what is implied by the terms in the TILA Box,
are concealed from borrowers because they are scattered
throughout the fine print in the document and because
the terms never expressly state that the renewal plan is

62a
automatic.10 (Id.) Instead, the Loan Note Disclosure
merely uses phrases implying automatic enrollment, such
as that “1 payment [will be due] if you decline the option
of renewing your loan.”11 (Id.)
Therefore, Defendants’ factual disputes are immaterial and no reasonable jury could find that the Loan Note
Disclosure was not likely to mislead borrowers acting
reasonably under the circumstances. This objection is
without merit.

10

Perhaps the most telling evidence that the important terms in the
Loan Note Disclosure are hidden by their scattered presentation in
the fine print is provided by Defendants’ own counsel. In the portion
of their Opposition arguing that the process for declining renewal is
not hidden, Defendants’ counsel listed nine bulleted terms that allegedly advise borrowers about the automatic nature of the renewal
process. (Defendants’ Opposition 9:4-10-5, ECF No. 493.) As pointed out by the FTC, however, only five of the listed terms are actually
contained in the Loan Note Disclosure document and, if numbered
as they are listed by Defendants’ counsel, those five terms appear in
the Loan Note Disclosure in the order 2, 3, 5, 1, 6. (Resp. to Opposition 17:5-18:9, ECF No. 556.) Furthermore, all of these terms except
1 and 6 are separated from the next relevant term by unrelated fine
print. (Id.)
11
Buried in the seventeenth sentence of the Loan Note Disclosure’s
block of fine print is the statement: “This Note will be renewed on
the Due Date unless at least three Business Days Before the Due
Date either you tell us you do not want to renew the Note or we tell
you that the Note will not be renewed.” See Supra 4:1-18 (reproducing the Loan Note Disclosure). This statement is the closest the
Loan Note Disclosure comes to clearly expressing the automatic nature of the renewal plan, and notably, it is the first bullet point in Defendants’ counsel’s list of terms that are “not hid[den].” (Defendants’ Opposition 9:3-13, ECF No. 493.)

63a
3. Provision of Additional Reasons why the
Loan Documents are Ambiguous
Defendants’ third objection is that Judge Ferenbach
violated Federal Rule of Civil Procedure 56(f ) by granting summary judgment to the FTC after “invent[ing] a
new theory” never advanced by the FTC that the Loan
Note Disclosure’s net impression is misleading because it
is unclear under its terms how a borrower may opt out of
the renewal plan.12 (Objection 10:19-23, ECF No. 542.)
It is true that a district court may grant a summary
judgment motion “on grounds not raised by a party” only
“[a]fter giving [the nonmovant] notice and a reasonable
time to respond.” Fed. R. Civ. P. 56(f ). However, while
the FTC may not have specifically argued that this particular ambiguity pointed out by Judge Ferenbach contributed to the misleading net impression of the Loan Note
Disclosure, the FTC repeatedly argued in its motion that
summary judgment was appropriate because of the “inconspicuous, contradictory, confusing, and vague language” in the document. (FTC’s Memo in Supp. of MSJ
1:20-21, ECF No. 456); see e.g. (id. 19:6-7) (“the loan documents were confusing, particularly on the issue of the
repayment terms”). Judge Ferenbach’s citing of a particular example of the confusing and contradictory terms
argued by the FTC as a basis for their motion does not
constitute a ruling on grounds not raised by the moving
party under Federal Rule of Civil Procedure 56(f ). See
Ervco, Inc. v. Texaco Ref. & Mktg., Inc., 422 F. Supp. 2d
1084, 1086 (D. Ariz. 2006) (“Notice is not required if the
12

This ambiguity arises from two statements in the Loan Note Disclosure, which alternatively provide that a borrower may opt out by
the email-hyperlink procedure or by “tell[ing]” the Lending Defendants that he or she wishes to opt out. See supra note 8.

64a
issue on which the summary judgment was granted is a
subset of the larger issue raised by the party.”) (citing
Intel Corp. v. Hartford Accident and Indemnity Co., 952
F.2d 1551, 1556 (9th Cir. 1991)). Therefore, this objection
is without merit.
4. Interpretation of the Facts
Defendants’ fourth objection is that “the Report misconstrues or misunderstands numerous material facts,
always in ways favoring the FTC.” (Objection 1:23-24,
ECF No. 542.) The three examples of “material facts”
cited by Defendants that Judge Ferenbach is alleged to
have misconstrued are that: (1) The Loan Note Disclosure link is not buried or inconspicuous because it is also
displayed at the top of the webpage, (2) the words under
the TILA Box are not “fine” because they are the same
size as the rest of the disclosures, and (3) borrowers did
not need to click the nine separate hyperlinks to read all
the loan documents because all the documents were contained on the same webpage and only required scrolling
up and down. (Id. 17:4-17.)
Defendants’ assertions that Judge Ferenbach erred in
interpreting these three facts are misleading and irrelevant. Regarding the first example, Judge Ferenbach
noted that the Loan Note Disclosure link appearing next
to the mandatory check boxes, which would naturally
draw a borrower’s attention, was inconspicuous because
it was buried in the fourth paragraph and overshadowed
by two all caps hyperlinks. (Report & Recommendation
3:10-23, ECF No. 539.) This observation is true and unrefuted by Defendants. The fact that another link to the
Loan Note Disclosure may have been placed at another
location on the webpage far away from the check boxes is
irrelevant and does not invalidate Judge Ferenbach’s observation. Likewise, Judge Ferenbach’s use of the

65a
phrase “fine print” to describe the 628 words appearing
below the TILA Box is accurate, notwithstanding Defendants’ argument that they are the same size as the
text in the rest of the document, because the 628 words
are grouped in one large block of small print while the
TILA Box disclosures are bolded and surrounded by eyecatching white space. See BLACK’S LAW DICTIONARY 709
9th ed. 2009) (“fine print. (1951) The part of an agreement or document—usu. in small, light print that is not
easily noticeable—referring to disclaimers, restrictions,
or limitations.”). Finally, the fact that the nine separate
hyperlinks lead to the location of each loan document on
one webpage rather than separate webpages with one
document on each is irrelevant to Judge Ferenbach’s
point that the large number of links presented to borrowers as containing the loan documents discourages them
from reading the documents. See (Report & Recommendation 3:10-23, ECF No. 539) (“Defendants’ webpage facilitates borrowers not reading Defendants’ terms and
conditions.”). Therefore, this objection is without merit.
5. Evaluation of the TILA Disclosures
“[TILA] requires creditors to provide borrowers with
clear and accurate disclosures of terms dealing with
things like finance charges, annual percentage rates of
interest, and the borrower’s rights.” Beach v. Ocwen
Fed. Bank, 523 U.S. 410, 412 (1998). These mandated
terms must be disclosed “clearly and conspicuously” to
borrowers before the credit is extended. 12 C.F.R.
§ 1026.17(a)-(c). Furthermore, TILA requires “absolute
compliance by creditors.” Rubio v. Capital One Bank,
613 F.3d 1195, 1199 (9th Cir. 2010) (citations omitted).
“[B]ecause TILA is liberally construed in favor of the
consumer and strictly enforced against the creditor . . .
any misleading ambiguity . . . should be resolved in favor

66a
of the consumer.” Id. at 1202 (internal quotations omitted).
Defendants’ fifth objection is that Judge Ferenbach
ignored binding Ninth Circuit precedent in determining
that the Loan Note Disclosure was ambiguous in the abstract rather than determining the technical question of
whether the Loan Note Disclosure complied with TILA.
(Objection 19:14-22:7, ECF No. 542.) Defendants rely
entirely on the Ninth Circuit’s ruling in Hauk v. JP Morgan Chase Bank USA, 552 F.3d 1114 (9th Cir. 2009) for
the proposition that courts may not “engage . . . in an abstract inquiry into whether any part of the Loan Note
[Disclosure] is ‘ambiguous.’ ” (Id. 19:25-28.)
Defendants, however, are the ones who appear to be
ignoring binding Ninth Circuit precedent as their argument based on Hauk has been explicitly rejected by the
Ninth Circuit. In Hauk, the Ninth Circuit denied a plaintiff ’s claims under TILA based upon ambiguous or misleading language in a provision that was not a disclosure
governed by TILA or Regulation Z. Hauk, 552 F.3d at
1121-22. In Rubio v. Capital One Bank, the Ninth Circuit clarified that “Hauk did not condone misleading disclosures. It simply rejected the argument that TILA liability could be based on disclosures that were misleading
about anything at all—what it called misleading in the
abstract.” Rubio, 613 F.3d at 1200 (internal quotations
omitted). By contrast, the Ninth Circuit found in Rubio
that disclosures which are required under TILA must be
clear and conspicuous, and such a “disclosure that is not
‘clear and conspicuous’ is ipso facto misleading.” Id.
The misleading disclosures at issue here—the finance
charge, APR, total of payments, and payment schedule—
are the very ones mandated by TILA. 12 C.F.R.
§ 1026.18(d)-(e), (g)-(h). Therefore, Judge Ferenbach did

67a
not ignore binding Ninth Circuit precedent in finding
that the Loan Note Disclosure was ambiguous and in violation of TILA. (Report & Recommendation 30:4-6, ECF
No. 539) (“Because Defendants’ loan note is ambiguous
as a matter of law, ‘the terms of the legal obligation between the parties’ were not ‘clearly and conspicuously’
disclosed, as TILA requires.”). Defendants’ objection is
without merit.
6. Ambiguity in TILA Mandated Terms
Defendants’ sixth objection is that Judge Ferenbach
failed to use the correct test for contractual ambiguity in
finding that the ambiguities in the Loan Note Disclosure
violated TILA. (Objection 2:1-2, ECF No. 542.) In support of this objection, Defendants assert that the proper
“hornbook test” for ambiguity in this case is “whether the
Loan Note [Disclosure] may reasonably be read as creating an obligation to renew as opposed to the single-payment obligation reflected in the TILA disclosures.”13 (Id.
19:6-8.) Defendants then assert that under this standard
the TILA mandated terms in the Loan Note Disclosure
were not ambiguous because the “single-payment option”
was “clearly disclosed” and borrowers were not legally
required to follow the renewal plan. (Id. 19:8-14, 22:925:22.)

13

Defendants provide no legal citation for this “test,” though they do
later cite Williston on Contracts, for the proposition that, “as a matter of contract law, performance (like renewal) that either party may
decline is not a legal obligation.” 1 WILLISTON ON CONTRACTS § 1:2
(4th ed. 2010) (The actual quote is: “[A]n understanding that leaves
an essential element of a promise open for future negotiation and
agreement, constitutes no promise, and creates no legal obligation
until the future agreement is actually made.”).

68a
Defendants’ argument here is unpersuasive. A contract is ambiguous if it is “reasonably susceptible” to
more than one interpretation. Skilstaf, Inc. v. CVS Caremark Corp., 669 F.3d 1005, 1015 (9th Cir. 2012); see also
11 WILLISTON ON CONTRACTS § 30:5 (stating the
same). In its analysis of FTC Act violations, this Court
has already determined that the terms in the Loan Note
Disclosure regarding the automatic renewal plan were
likely to mislead because they implied in the prominent
TILA Box that only one finance charge would be incurred while the fine print created a process under which
multiple finance charges would be automatically incurred
unless borrowers take affirmative action. See supra
§ III.A.2. Those terms are therefore also ambiguous because a reasonable borrower could think the information
prominently displayed in the TILA Box accurately reflected his or her legal obligations without needing to undertake any additional action, even if such a reading is
not technically accurate. Rubio, 613 F.3d at 1202 (citing
Rossman v. Fleet Bank (R.I.) Nat. Ass’n, 280 F.3d 384,
394 (3d Cir. 2002)) (“any misleading ambiguity—any disclosure that a reasonable person could read to mean
something that is not accurate—‘should be resolved in favor of the consumer.’ ”). Furthermore, an ambiguous disclosure is necessarily not clearly and conspicuously disclosed.14 See id. (“it is precisely because reasonable con-

14

The Court also notes that even if the terms were not ambiguous,
the disclosures relating to the automatic entry of a loan into the renewal plan were not clear and conspicuous as they were buried in
fine print. See supra § III.A.2; see also Barrer v. Chase Bank USA,
N.A., 566 F.3d 883, 892 (9th Cir. 2009) (“Clear and conspicuous disclosures, therefore, are disclosures that a reasonable cardholder
would notice and understand . . . . [T]he change-in-terms provision

69a
sumers can interpret an ambiguous disclosure in more
than one way that such a disclosure cannot be clear and
conspicuous.”); see also Watts v. Key Dodge Sales, Inc.,
707 F.2d 847, 852 (5th Cir. 1983) (“the provision is ambiguous, thus violating the TILA or Regulation Z.”); In re
Whitley, 772 F.2d 815, 817 (11th Cir. 1985) (“these divergent readings of the provision render the language ambiguous and therefore violative of TILA and Regulation
Z.”). This objection is without merit.
7. Failing to Grant Defendants’ Motion for
Summary Judgment
Defendants’ seventh objection is that Judge Ferenbach erred by failing to grant Defendants’ summary
judgment on Count III. (Objection 2:3-6, ECF No. 542.)
As the Court has already found that Judge Ferenbach
did not err in granting summary judgment for the FTC
on Count III, this objection is without merit.
B. Limited Objection of the Muir Defendants
In their Limited Objection (ECF No. 541), the Muir
Defendants assert that Judge Ferenbach erred in his Report and Recommendation by only denying summary
judgment against the Muir Defendants on Counts II &
VI while granting the FTC summary judgment against
the Muir Defendants on Counts I & III. (Limited Objection 3:23-4:10, ECF No. 541.)
Under the Bifurcation Order, no discovery regarding
the Muir Defendants’ liability for any of the counts alleged in the Complaint would occur until Phase II of the
litigation. (Bifurcation Order p. 10, ECF No. 296); (Report & Recommendation 34:3-6, ECF No. 539.) As a re. . . is buried too deeply in the fine print for a reasonable cardholder
to [notice].”)

70a
sult, discovery during Phase I regarding the alleged violations underlying the claims was effectively left to the
Lending Defendants. See (Stip. to Withdraw Discovery
Requests, ECF No. 278) (where the Muir Defendants
and the FTC agree to withdraw pending discovery requests and postpone future discovery against each other
until Phase II of the litigation). However, all discovery
regarding Counts II & IV ceased when the FTC and the
Settling Defendants reached a settlement agreement on
those two counts, even though the settlement did not include the Muir Defendants and explicitly did not resolve
the FTC’s claims against the Muir Defendants on Counts
II & IV. (Order Granting Stipulated Motion ¶ 4, ECF
No. 478) (“This settlement does not settle and resolve
any conduct not alleged in Counts II and IV of the Complaint or as to any other party.”) (emphasis added).
Therefore, while the Muir Defendants remained potentially liable for Counts II & IV, discovery had not been
effectively completed on those counts at the time of the
FTC’s Motion for Summary Judgment.
In the Report and Recommendation, Judge Ferenbach
granted the FTC summary judgment against all Defendants, including the Muir Defendants, on Counts I & III.
(Report & Recommendation 35:16-18, ECF No. 539.)
However, because the Bifurcation Order and settlement
agreement had effectively prevented the Muir Defendants from conducting discovery at the time the motion for
summary judgment was filed, Judge Ferenbach recommended denying summary judgment on Counts II & IV
and amending the Bifurcation Order to permit those
claims to proceed during Phase II. (Id. 35:1-36:5) (citing
Fed. R. Civ. P. 56(d) (“If a nonmovant shows by affidavit
or declaration that, for specified reasons, it cannot pre-

71a
sent facts essential to justify its opposition, the court
may: (1) defer considering the motion or deny it.”).
The Muir Defendants assert that granting summary
judgment on Counts I & III effectively “nullified” the
protections afforded under the Federal Rules of Civil
Procedure that necessitated denying summary judgment
on Counts II & IV. (Limited Objection 3:23-4:10, ECF
No. 541.) The Muir Defendants further assert that the
Bifurcation Order and Judge Ferenbach’s “inconsistent
ruling” denied them of their fundamental right to engage
in discovery about the claims against them. (Id. 4:23-5:8.)
The Muir Defendants assertions, however, are unpersuasive. In contending that they were denied the right to
engage in discovery and that Judge Ferenbach’s Report
and Recommendation is inconsistent in granting summary judgment on Counts I & III while denying it on
Counts II & IV, the Muir Defendants appear to ignore
two important facts. First, the Muir Defendants voluntarily chose to postpone discovery until after Phase I by
stipulation (ECF No. 278) and no doubt benefited from
being relieved from the costs involved in conducting that
discovery. Second, the situation regarding Counts I &
III is fundamentally different from the situation regarding Counts II & IV. Unlike Counts II & IV, which were
not fully litigated by the Lending Defendants, full discovery and litigation was conducted by the Lending Defendants on Counts I & III, as was originally contemplated by
all parties—including the Muir Defendants—in the Bifurcation Order. See (Bifurcation Order, ECF No. 296);
(Stip. to Withdraw Discovery Requests, ECF No. 278).
With respect to Counts I & III, the Muir Defendants are
in the same position as all the other Defendants who allowed the Lending Defendants to take the lead in Phase
I. Therefore, the Muir Defendants’ rights to discovery

72a
and litigation of the claims in Count I & III were voluntarily given to and adequately protected by the Lending
Defendants, while those rights with respect to Counts II
& IV were not protected by the Lending Defendants due
to their separate settlement.
It was for precisely this reason that Judge Ferenbach
denied summary judgment on Counts II & IV while
granting it on Counts I & III. (Report & Recommendation 35:1-4, ECF No. 539) (“In light of the Settling Defendants’ not opposing summary judgment on counts two
and four, the court must deny the FTC’s motion for summary judgment on counts two and four in order to . . . afford the Muir Defendants an opportunity to conduct discovery and litigate the relevant claims and defenses.”).
Judge Ferenbach’s recommendation to grant summary
judgment against the Muir Defendants on Counts I & III
while denying it on Count II & IV, would prevent the
Muir Defendants from improperly relitigating issues
while ensuring their right to engage in discovery and litigation on those claims which were not adequately protected by the Lending Defendants. Therefore, the Muir
Defendants’ objection is without merit, and the recommendation of Judge Ferenbach regarding summary
judgment against the Muir Defendants and amendment
of the Bifurcation Order is adopted by the Court.
IV. CONCLUSION
IT IS HEREBY ORDERED that the Report and
Recommendation (ECF No. 539) is ACCEPTED and
ADOPTED in full, to the extent it is not inconsistent
with this opinion.
IT IS FURTHER ORDERED that the FTC’s Motion
for Summary Judgment (ECF No. 454) is GRANTED in
part and DENIED in part. The FTC’s Motion for Summary Judgment is GRANTED on Count I and Count III.

73a
The FTC’s Motion for Summary Judgment is DENIED
without prejudice on Count II and Count IV.
IT IS FURTHER ORDERED that Defendants’ Motion for Summary Judgment (ECF No. 461) is DENIED.
IT IS FURTHER ORDERED that the Bifurcation
Order is amended to permit Count II and Count IV to
proceed against the Muir Defendants during Phase II of
the litigation.
DATED this 28th day of May, 2014.

/s/ Gloria M. Navarro
Gloria M. Navarro, Chief Judge
United States District Judge

74a
APPENDIX C
UNITED STATES DISTRICT COURT
DISTRICT OF NEVADA
————
NO. 12-cv-00536-GMN-VCF
————
FEDERAL TRADE COMMISSION,
Plaintiff,
v.
AMG SERVICES, INC., et al.,
Defendants.
————
AMENDED ORDER1
————
April 30, 2017
————
Pending before the Court is a Motion for Summary
Judgment, (ECF No. 900), filed by Defendants AMG
Capital Management, LLC (“AMG Capital”); Level 5
Motorsports, LLC (“Level 5”); Black Creek Capital Corporation (“Black Creek”); Broadmoor Capital Partners
(“Broadmoor”); and Scott A. Tucker (“Scott Tucker”)
1

The Court merely intends this Amended Order to clarify that its
original Order, (ECF No. 1057), of September 30, 2016, in no way implicates Defendants Nereyda Tucker, as Executor of the Estate of
Blaine Tucker, or LeadFlash Consulting, LLC. The Amended Order
does not alter any deadlines set by its original Order, nor does the
Amended Order constitute a re-entry of judgment against any defendant.

75a
(collectively “Tucker Defendants”).2 Plaintiff Federal
Trade Commission (“FTC”) filed a Response, (ECF No.
938), and the Tucker Defendants filed a Reply, (ECF No.
949).
Also pending before the Court is a Motion for Summary Judgment, (ECF No. 907), filed by the FTC. Defendants Park 269, LLC (“Park 269”) and Kim C. Tucker
(“Kim Tucker”) (collectively “Relief Defendants”) filed a
Response, (ECF No. 935), as did the Tucker Defendants,
(ECF No. 941). The FTC filed a Reply, (ECF No. 952).
Also pending before the Court is a Motion for Summary Judgment, (ECF No. 913), filed by the Tucker Defendants. The FTC filed a Response, (ECF No. 940), and
the Tucker Defendants filed a Reply, (ECF No. 950).
Because the Court GRANTS FTC’s Motion, the Court
DENIES as moot the motions filed by the Tucker Defendants and the Relief Defendants (collectively “Defendants”).3
2

As per the Court’s Order of September 20, 2016, the instant Order
does not implicate Defendants Nereyda Tucker, as Executor of the
Estate of Blaine Tucker, or LeadFlash Consulting, LLC. (See Order, ECF No. 1054).

3

Also pending before the Court are three Motions to Reconsider
filed by the Tucker Defendants. (See ECF Nos. 850, 963, 975). Two
of these motions relate to orders entered by Magistrate Judge Cam
Ferenbach. “A district judge may reconsider any pretrial matter referred to a magistrate judge in a civil . . . case . . . where it has
been shown that the magistrate judge’s ruling is clearly erroneous or
contrary to law.” LR IB 3-1. A magistrate judge’s pretrial order issued under 28 U.S.C. § 636(b)(1)(A) is not subject to de novo review,
and the reviewing court “may not simply substitute its judgment for
that of the deciding court.” Grimes v. City and County of San Francisco, 951 F.2d 236, 241 (9th Cir. 1991). The Court may overturn the
magistrate judge’s decision if, upon review, the Court is left with a
definite and firm conviction that a mistake has been made. See Da-

76a
I. BACKGROUND
This action was brought by the FTC, asserting that
the “high-fee, short-term payday loans” offered by former Defendants AMG Services, Inc. (“AMG”), SFS, Inc.
(“SFS”), Red Cedar Services, Inc. (“Red Cedar”), and
MNE Services, Inc. (“MNE”) (collectively “Lending Defendants”) violated section 5 of the Federal Trade Commission Act of 1914, 15 § U.S.C. 45(a)(1), the Truth in
Lending Act of 1968, 15 U.S.C. § 1601(a), and Regulation
Z, 12 C.F.R. § 1026(a). (Am. Compl. 15:1-20:6, ECF No.
386).

vid H. Tedder & Assocs. v. United States, 77 F.3d 1166, 1169-70 (9th
Cir. 1996).
The most recently filed Motion, (ECF No. 975), asks the Court to
reconsider its Asset Freeze Order, (ECF No. 960). Because the
Court grants the FTC’s request for equitable monetary relief, infra,
the Court DENIES this Motion as moot. Similarly, Defendants’
first Motion to Reconsider, (ECF No. 850), is DENIED as moot in
light of the instant Order. In this Motion, Defendants raise a multitude of objections to Magistrate Judge Ferenbach’s Order, (ECF
No. 849), regarding discovery issues. Even if the Court were to
grant this Motion, the result of the instant Order would remain unchanged given the wealth of evidence establishing Defendants’ liability.
Finally, Regarding Defendants’ remaining Motion to Reconsider,
(ECF No. 963), the Court does not agree with Defendants that
Judge Ferenbach exceeded his authority. First, Judge Ferenbach’s
Order, (ECF No. 956), denying Defendants’ request for discovery
sanctions did not constitute a dispositive order. See 28 U.S.C.
§ 636(b)(1)(A) (listing dispositive motions). Second, the Court does
not endorse Defendants’ interpretation of Judge Ferenbach’s Order
as indicative of double standard. The well-reasoned decision does
not reflect Defendants’ absolutist reading. In light of the acrimonious discovery process in this case, Judge Ferenbach’s Order is a
clear attempt to move the discovery process forward. Accordingly,
the Court DENIES this Motion.

77a
The FTC has filed its Motion for Summary Judgment
against the only remaining parties that did not settle the
claims against them. The remaining defendants are
AMG Capital, Level 5, Black Creek, and Broadmoor (collectively “Corporate Lending Defendants”) as well as
Scott Tucker. The FTC seeks injunctive relief against
Scott Tucker and equitable monetary relief from the Corporate Lending Defendants and Scott Tucker. The FTC
also seeks disgorgement from the Relief Defendants.
A. Factual History4
Scott Tucker controlled, founded, or was president of a
host of short-term payday loan marketing and servicing
companies, including, inter alia, National Money Service,
Inc. (“NMS”), CLK Management LLC (“CLK”), and
Universal Management Services, Inc. (“UMS”) (collectively “Scott Tucker Loan Servicing Companies”). (Exs.
1-2, 4-5, 14 to Singhvi Decl., ECF Nos. 908-1-2, 4-5, 14).
Between 2003 and 2008, the Scott Tucker Loan Servicing
Companies entered into agreements with the Santee
Sioux Tribe of Nebraska, the Miami Tribe of Oklahoma,
and the Modoc Tribe of Oklahoma to allow the tribes to
become “authorized lenders” for CLK. (See Exs. 14-15,
18 to Singhvi Decl., ECF Nos. 908-14-15, 18). The tribes
subsequently formed SFS, Red Cedar, and MNE. (Exs.
17, 19-20 to Singhvi Decl., ECF Nos. 908-17, 19-20). In
2006, CLK transferred its trademarks for 500 FastCash,
OneClickCash, Ameriloan, USFastCash, and UnitedCashLoans (“Loan Portfolios”) to the new tribal entities.
(Ex. 6 to Singhvi Decl., ECF No. 908-6). Following these
transfers, SFS, Red Cedar, and MNE became the lenders for the Loan Portfolios. (Dempsey Dep. at 15-19,
4

Given the lengthy history of this case, the Court provides a brief
factual overview and discusses the remaining facts in further detail,
infra, as they pertain to specific issues.

78a
ECF No. 908-7). In 2008, CLK was acquired by AMG
Services, Inc., a tribal corporation created by the Miami
Tribe. (Ex. 46 to Singvhi Decl., ECF No. 908-46).
B. Procedural History
On December 27, 2012, the Court signed an Order,
(ECF No. 296), entering the parties’ joint stipulation for
preliminary injunction and bifurcation. The Bifurcation
Order divided the litigation into two phases: Phase I, a liability phase, and Phase II, a relief phase. (Id. 9:1-10:23).
During Phase I of the proceedings, the Court would adjudicate the merits of the FTC’s claims for violations of the
FTC Act, TILA, and EFTA. (Id. 9:1-24). During Phase
II of the proceedings, the Court would adjudicate the remaining issues, including the individual liability of the
various Defendants. (Id. 10:119). On January 28, 2014,
Magistrate Judge Cam Ferenbach entered a Report and
Recommendation (“R&R”), (ECF No. 539), granting
summary judgment in favor of the FTC on two of its four
causes of action. In his R&R, Magistrate Judge Ferenbach reviewed the websites through which the Lending
Defendants sold their loans as well as the Loan Note Disclosures contained therein. (See, e.g., R&R 2:12-16).
On May 28, 2014, this Court entered an Order, (ECF
No. 584), adopting the R&R. Specifically, the Court
agreed that “the net impression of the Loan Note Disclosure is likely to mislead borrowers acting reasonably under the circumstances because the large prominent print
in the TILA Box implies that borrowers will incur one finance charge while the fine print creates a process under
which multiple finance charges will be automatically incurred unless borrowers take affirmative action.” (Order
15:8-12, ECF No. 584). Subsequently, the Lending Defendants stipulated to settle all of the FTC’s claims
against them resulting in monetary judgments in the ag-

79a
gregate amount of $25,496,677. (See generally Orders,
ECF Nos. 727, 760-762, 888-889).
In the instant Motion, the FTC seeks summary judgment on the Defendants’ remaining affirmative defenses
as well as the issues of individual liability, common enterprise liability, liability of the Relief Defendants, and remedies. (Pl.s’ MSJ 14:22-23, ECF No. 907). The Court addresses each of these issues in turn, after first addressing
several of Defendants’ evidentiary objections.
II. LEGAL STANDARD
The Federal Rules of Civil Procedure provide for summary adjudication when the pleadings, depositions, answers to interrogatories, and admissions on file, together
with the affidavits, if any, show that “there is no genuine
dispute as to any material fact and the movant is entitled
to judgment as a matter of law.” Fed. R. Civ. P. 56(a).
Material facts are those that may affect the outcome of
the case. See Anderson v. Liberty Lobby, Inc., 477 U.S.
242, 248 (1986). A dispute as to a material fact is genuine
if there is sufficient evidence for a reasonable jury to return a verdict for the nonmoving party. See id. “Summary judgment is inappropriate if reasonable jurors,
drawing all inferences in favor of the nonmoving party,
could return a verdict in the nonmoving party’s favor.”
Diaz v. Eagle Produce Ltd. P’ship, 521 F.3d 1201, 1207
(9th Cir. 2008) (citing United States v. Shumway, 199
F.3d 1093, 1103-04 (9th Cir. 1999)). A principal purpose
of summary judgment is “to isolate and dispose of factually unsupported claims.” Celotex Corp. v. Catrett, 477
U.S. 317, 323-24 (1986).
In determining summary judgment, a court applies a
burden-shifting analysis. “When the party moving for
summary judgment would bear the burden of proof at trial, it must come forward with evidence which would enti-

80a
tle it to a directed verdict if the evidence went uncontroverted at trial. In such a case, the moving party has the
initial burden of establishing the absence of a genuine issue of fact on each issue material to its case.” C.A.R.
Transp. Brokerage Co. v. Darden Rests., Inc., 213 F.3d
474, 480 (9th Cir. 2000) (citations omitted). In contrast,
when the nonmoving party bears the burden of proving
the claim or defense, the moving party can meet its burden in two ways: (1) by presenting evidence to negate an
essential element of the nonmoving party’s case; or (2) by
demonstrating that the nonmoving party failed to make a
showing sufficient to establish an element essential to
that party’s case on which that party will bear the burden
of proof at trial. See Celotex Corp., 477 U.S. at 323-24. If
the moving party fails to meet its initial burden, summary judgment must be denied and the court need not
consider the nonmoving party’s evidence. See Adickes v.
S.H. Kress & Co., 398 U.S. 144, 159-60 (1970).
If the moving party satisfies its initial burden, the burden then shifts to the opposing party to establish that a
genuine issue of material fact exists. See Matsushita
Elec. Indus. Co. v. Zenith Radio Corp., 475 U.S. 574, 586
(1986). To establish the existence of a factual dispute, the
opposing party need not establish a material issue of fact
conclusively in its favor. It is sufficient that “the claimed
factual dispute be shown to require a jury or judge to resolve the parties’ differing versions of the truth at trial.”
T.W. Elec. Serv., Inc. v. Pac. Elec. Contractors Ass’n, 809
F.2d 626, 631 (9th Cir. 1987). In other words, the nonmoving party cannot avoid summary judgment by relying
solely on conclusory allegations that are unsupported by
factual data. See Taylor v. List, 880 F.2d 1040, 1045 (9th
Cir. 1989). Instead, the opposition must go beyond the
assertions and allegations of the pleadings and set forth

81a
specific facts by producing competent evidence that
shows a genuine issue for trial. See Celotex Corp., 477
U.S. at 324.
At summary judgment, a court’s function is not to
weigh the evidence and determine the truth but to determine whether there is a genuine issue for trial. See Anderson, 477 U.S. at 249. The evidence of the nonmovant
is “to be believed, and all justifiable inferences are to be
drawn in his favor.” Id. at 255. But if the evidence of the
nonmoving party is merely colorable or is not significantly probative, summary judgment may be granted. See
id. at 249-50.
III. DISCUSSION
A. Evidentiary Objections
The Tucker Defendants object to nearly all of the evidence relied upon by the FTC in its Motion for Summary
Judgment. (See Obj., ECF No. 943). While the Court
addresses some of those objections that pertain to the
Court’s Order below, the Tucker Defendants’ remaining
objections do not merit further discussion.
1. The Squar Milner Report
The Squar Milner Report was prepared at AMG’s request “to assist management in calculating any outstanding balances to, from, and among AMG, CLK Management, the various portfolios . . . on the one hand, and
Scott Tucker and related entities, on the other hand.”
(Squar Milner Report at 8, ECF No. 908-260). It reflects
statements and interviews with unknown individuals, (see
id. at 11), and the FTC seeks to offer evidence from the
Squar Milner Report to prove the truth of the matter asserted: “the presence of thousands of transactions solely
for Scott Tucker’s benefit, that AMG’s books and records
were not maintained in an orderly fashion, and that the
Defendants’ complete lack of accounting controls were

82a
susceptible to manipulation,” (FTC’s MSJ 47:24-27, ECF
No. 907).
The FTC argues this Report falls within the exception
under Federal Rule of Evidence 803(6) for a business
record. (See Resp. to Obj. 13:3-14:9, ECF No. 953).
However, the Court finds that this Report does not meet
the requirements in order to constitute a business record
pursuant to this Rule. The case relied upon by Defendants, Paddack v. Dave Christensen, Inc., 745 F.2d 1254
(9th Cir. 1984), is instructive. In Paddack, the subject
documents were special audit reports prepared in anticipation of litigation, not restated quarterly and annual reports or corresponding auditor’s work product prepared
in the ordinary course of business. Paddack, 745 F.2d at
1257-58. Similarly, the Squar Milner Report is not simply a regular audit report. Instead, it was “a special investigation” in which “a financial audit report under GAAP”
was not issued and, moreover, was likely made in anticipation of and preparation for this litigation. (Obj., 4:9-15,
ECF No. 943). Therefore, the Court finds that the Squar
Milner Report was not made in the normal, regular
course of business, as required by Federal Rule of Evidence 803(6), and is therefore inadmissible.
2. Emails
The Tucker Defendants argue that the emails relied
upon by the FTC “must be excluded as unauthenticated
and inadmissible hearsay.” (Obj. 11:25-26). However, all
but one of the emails are presumptively authentic because they were produced by a party opponent. Haack v.
City of Carson City, No. 3:11-CV-00353-RAM, 2012 WL
3638767, at *7 (D. Nev. Aug. 22, 2012) (noting that exhibits produced by a party opponent are “deemed authentic”). In addition, all of the emails are authentic per Federal Rule of Evidence 901(b)(4) because of their distinc-

83a
tive characteristics. See, e.g., Brown v. Wireless Networks, Inc., No. C 07-4301 EDL, 2008 WL 4937827, at *4
(N.D. Cal. Nov. 17, 2008).
Regarding the hearsay issue, many of the emails are
admissible non-hearsay as they were sent by Scott Tucker or an employee of the Corporate Lending Defendants.
See Fed. R. Evid. 801(d)(2)(D). Further, other emails
are admissible pursuant to Federal Rule of Evidence
801(c)(2) because they are not offered for the truth of the
matter asserted. See Fed. R. Evid. 801(c)(2). The FTC
relies on one such email, for example, to show Scott
Tucker was “aware that the loan repayment model was
problematic and confusing to consumers,” (Resp. to Obj.
18:13-15) (emphasis added), not that “90% of the issues
[the Tucker Defendants] have with customers stems from
them not understanding [the Tucker Defendants’] process of renewal and paydowns,” (Ex. 75 to Singhvi Decl.,
ECF No. 908-75). The Court therefore overrules the
Tucker Defendants’ objections regarding emails.
3. Checks and Other Bank Records
The Tucker Defendants seek to exclude certain checks
and bank records as unauthenticated and inadmissible
hearsay. (See Tucker Defs.’ Resp. to FTC’s MSJ 16:2618:11, ECF No. 941). With regard to the authentication
objection, “[a]s a negotiable instrument, a check is a species of commercial paper, and therefore self-authenticating.” United States v. Pang, 362 F.3d 1187, 1192 (9th Cir.
2004); see also Fed. R. Evid. 902(9). As to the bank records, the Tucker Defendants have not set forth any reasons for questioning the authenticity of the bank records
submitted by the FTC. Federal Rule of Evidence 901(a)
provides that “the requirement of authentication or identification as a condition precedent to admissibility is satisfied by evidence sufficient to support a finding that the

84a
matter in question is what its proponent claims.” Fed. R.
Evid. 901(a). The appearance of the bank records and
content persuade the Court that the documents are what
they purport to be. See Fed. R. Evid. 902(9) (“Commercial paper, signatures thereon, and documents relating
thereto to the extent provided by general commercial
law” are self-authenticating); Fed. R. Evid. 901(b)(4)
(documents can be authenticated by their “appearance,
contents, substance, internal patterns, or other distinctive characteristics, taken in conjunction with the circumstances”).
Next, neither the checks nor the bank records constitute hearsay. The bank records fall under the business
records exception to the hearsay rule. See Fed. R. Evid.
803(6); (see, e.g., Custodian of Bus. R. Aff., Ex. 257 to
Singhvi Decl., ECF No. 908-257) (laying foundation testimony establishing that bank statements are bank’s business records). Further, to the extent the bank statements and checks are signed by Scott Tucker, they are
non-hearsay pursuant to Federal Rule of Evidence
801(d)(2)(A). Accordingly, the Court overrules the Tucker Defendants’ objections regarding the checks and bank
records relied upon by the FTC.
B. Defenses
The remaining affirmative defenses argued by Defendants’ are without merit. See F.T.C. v. Am. Microtel,
Inc., No. CV-S-92-178-LDG(RJJ), 1992 WL 184252, at *1
(D. Nev. June 10, 1992) (“[T]he law is well established
that principles of laches and equitable estoppel are not
available as defenses in a suit brought by the government
to enforce a public right or a public interest.”) (citing
United States v. Ruby Co., 588 F.2d 697, 705 n.10 (9th
Cir.)); F.T.C. v. Ivy Capital, Inc., No. 2:11-CV-283 JCM
GWF, 2011 WL 2470584, at *2 (D. Nev. June 20, 2011)

85a
(“Section 13(b) of the Federal Trade Commission Act
specifies no statute of limitations period.”); F.T.C. v.
Commerce Planet, Inc., 815 F.3d 593, 601 (9th Cir. 2016)
(holding that “joint and several liability is permissible” in
actions brought under § 13(b) and affirming monetary
award); F.T.C. v. Evans Prod. Co., 775 F.2d 1084, 1086
(9th Cir. 1985) (rejecting defendant’s attempt to “limit
§ 13(b) to cases involving ‘routine fraud’ ” and agreeing
that “a ‘proper case’ for which § 13(b) injunctive relief
may be sought includes . . . any case involving a law enforced by the FTC”).
Likewise, the Court rejects the Tucker Defendants’
argument that the FTC abused its discretion under the
FTC Act by proceeding through adjudication rather than
rulemaking. (See Tucker Defs.’ Resp. to FTC’s MSJ
96:15-16). “[T]he choice made between proceeding by
general rule or by individual, ad hoc litigation is one that
lies primarily in the informed discretion of the administrative agency.” S.E.C. v. Chenery Corp., 332 U.S. 194,
203 (1947). The Ninth Circuit has clarified that where
“adjudication change[d] existing law, and ha[d] widespread application,” the FTC “exceeded its authority by
proceeding to create new law by adjudication rather than
by rulemaking.” Ford Motor Co. v. F.T.C., 673 F.2d 1008,
1010 (9th Cir. 1981). Subsequent cases have clarified that
an agency may announce new principals during adjudication so long as “its action [does not] 1) constitute an abuse
of discretion or 2) circumvent the [Administrative Procedure Act’s] requirements.” Union Flights, Inc. v. FAA,
957 F.2d 685, 688 (9th Cir. 1992).
Here, adjudication by the FTC is proper. First, this litigation will not result in any changes to existing law. It
merely applies the established principles of the FTC Act
to the Tucker Defendants’ particular unfair business

86a
practices. Moreover, this action is against a single set of
defendants and involves one discrete fraudulent practice.
The Court’s instant Order does not have “widespread application.” Further, the FTC has not abused its discretion nor attempted to circumvent the APA. The FTC is
not using this “adjudication to amend a recently amended
rule, or to bypass a pending rulemaking proceeding.”
Union Flights, 957 F.2d at 688. Similarly, the Tucker
Defendants cannot claim that they relied on a former
FTC policy, or any other recognized situation constituting an abuse of discretion. See id. Without these showings, the Tucker Defendants have not demonstrated an
abuse of discretion or an attempt to circumvent the APA.
C. Individual Liability
An individual may be held liable for corporate violations of the FTC Act if the individual: “(1) participated directly in, or had the authority to control, the unlawful
acts or practices at issue; and (2) had actual knowledge of
the misrepresentations involved, was recklessly indifferent to the truth or falsity of the misrepresentations, or
was aware of a high probability of fraud and intentionally
avoided learning the truth.” Commerce Planet, 815 F.3d
at 600; see also F.T.C. v. Stefanchik, 559 F.3d 924, 931
(9th Cir. 2009)
If the FTC proves direct participation in or authority
to control the wrongful act, then the individual may be
permanently enjoined from engaging in acts that violate
the FTC Act. F.T.C. v. Garvey, 383 F.3d 891, 900 (9th
Cir. 2004). To hold an individual liable for monetary redress, the FTC must additionally establish knowledge.
FTC v. Affordable Media, 179 F.3d 1228, 1234 (9th Cir.
1999); FTC v. Publ’g Clearing House, Inc., 104 F.3d 1168,
1171 (9th Cir. 1997). Proof that the defendant intended
to deceive consumers or acted in bad faith is unnecessary

87a
to establish a § 5(a) violation. FTC v. World Travel Vacation Brokers, Inc., 861 F.2d 1020, 1029 (7th Cir. 1988)
(“An advertiser’s good faith does not immunize it from
responsibility for its misrepresentations.”); Feil v. F.T.C.,
285 F.2d 879, 896 (9th Cir. 1960) (“Whether good or bad
faith exists is not material, if the Commission finds that
there is likelihood to deceive.”).
1. Participation and Authority to Control
Authority to control may be evidenced by “active involvement in business affairs and making of corporate
policy, including assuming the duties of a corporate officer.” F.T.C. v. Amy Travel Serv., Inc., 875 F.2d 564, 573
(7th Cir. 1989). An individual’s position as a corporate officer or authority to sign documents on behalf of the corporate defendant is sufficient to show requisite control.
See Publ’g Clearing House, 104 F.3d at 1170 (holding
that individual’s “assumption of the role of president of
[the corporation] and her authority to sign documents on
behalf of the corporation demonstrate that she had the
requisite control over the corporation” for purposes of
finding individual liability under § 5(a)).
The FTC has satisfied the first prong for individual liability. The evidence abundantly establishes that Scott
Tucker participated in and had authority to control the
Lending Defendants. As president of NMS and CLK,
Scott Tucker directed the creation and organization of
the Lending Defendants, which operated merely as a veneer for Scott Tucker’s lending entities. Specifically,
Scott Tucker presented the Santee Sioux Tribe of Nebraska, the Miami Tribe of Oklahoma, and the Modoc
Tribe of Oklahoma with business proposals that would allow the tribes to become “authorized lenders” for NMS.
(Exs. 2, 12-13 to Singhvi Decl., ECF Nos. 908-2, 12-13).
These proposals required the Scott Tucker Loan Servic-

88a
ing Companies to provide “the capital to fund all loan
transactions” and “the personnel, equipment and knowledge to make the business an immediate success,” while
the tribes were not required to invest any capital in the
business. (See, e.g., Ex. 2 to Singhvi Decl. at 3, 7, ECF
No. 908-2) (“The Tribe and the proposed Tribal entity
will not be required to provide any investment, cash or
cash equivalent and will not be responsible for any losses.”). Instead, the tribes were merely required to designate one employee and to do “all things reasonably necessary to carry on the Pay Day Loan business as a lender
with the full support of [a Scott Tucker Loan Servicing
Company].” (Id.). In exchange, the tribes would receive
a guaranteed monthly fee. (Id.). Scott Tucker arranged
for the drafting of the tribal lending ordinances that the
tribes ultimately enacted without any significant changes.
(Exs. 18, 27-29 to Singhvi Decl., ECF Nos. 908-18, 27-29).
Scott Tucker structured the Lending Defendants to be
completely dependent on the Scott Tucker Loan Servicing Companies. The service agreements signed by Scott
Tucker between UMS and the tribes required UMS to
“furnish . . . all support staff, equipment and business
arrangements required to conduct an efficient payday
loan business.” (Miami Tribe Serv. Agreement ¶ 3, ECF
No. 908-14). Further, UMS agreed to provide all capital
for the payday loan operation “to be administered wholly
and only by UMS.” (Id. ¶ 2); (see also SFS Serv. Agreement ¶ 1, ECF No. 908-15). Moreover, the Lending Defendants’ 30(b)(6) representative, Natalie Dempsey, testified that “all the consumer loans ever offered by [the
Lending Defendants have] been serviced by AMG, CLK
or NM Services.” (Dempsey Dep. at 21, ECF No. 908-7).
With regard to the Lending Defendants’ lending activities, SFS’s Rule 30(b)(6) representative, Lee Ickes

89a
(“Ickes”), testified that AMG drafted SFS’s loan applications. (Ickes Dep. at 9, ECF No. 908-13). Similarly,
MNES stated during discovery that AMG performs “the
drafting, modification and review of [MNES’s] loan
notes, disclosures and websites.” (MNE Resp. to FTC
Interrog. No. 9, ECF No. 908-144); (see also Red Cedar
Resp. to Interrog. No. 9, ECF No. 908-146) (stating
same). Moreover, Dempsey testified that only AMG staff
were involved in the drafting and modification of loan disclosures and websites. (Dempsey Dep. at 90). Ickes testified that AMG set the payment schedule for consumer
loans for SFS and underwrites consumers’ loan applications. (Ickes Dep. at 14, 16). Moreover, Ickes testified
that SFS does not have access to the criteria for loan approval, and SFS has never rejected a loan that AMG determined met the criteria for approval. (Id. at 15-16).
Scott Tucker’s role did not materially change following
the merger of CLK into AMG in 2008. Indeed, AMG
Meeting Minutes describe CLK’s merger with AMG as
“just a name change.” (Ex. 48 to Singhvi Decl., ECF No.
908-48). In addition, an email to CLK employees announcing the AMG merger clarifies that “[y]our job description, responsibilities and pay will not change at all
. . . just the name of the company you work for.” (Ex. 49
to Singhvi Decl., ECF No. 908-49). Even after the merger, Scott Tucker retained the authority to implement
policies as AMG’s President. (See Grote Dep. at 44, Ex.
908-67); (Ex. 54 to Singhvi Decl. at 7, ECF No. 908-54)
(referencing Scott Tucker as AMG President). Although
Scott Tucker attempted to obfuscate his official title with
AMG over time, Defendants admit that, at the very least,
Scott Tucker was an executive with operational control of
AMG. (AMG Am. Resp. to Expedited Interrog. No. 3,
ECF No. 908-58).

90a
Consistent with this authority, Scott Tucker continued
to participate in control of the Lending Defendants.
Scott Tucker had authority to control the Lending Defendants’ accounts used to fund consumer loans. (See
Ickes Dep. at 21) (“AMG Services oversees or manages
[the day-to-day operational funds] for the Santee Sioux
Nation, SFS, Inc.”). Specifically, the Miami Tribe passed
a corporate resolution granting Scott Tucker power of attorney over its accounts. (Ex. 80 to Singhvi Decl., ECF
No. 908-80). Scott Tucker is also an authorized signatory
on the SFS portfolio account and seven other accounts
belonging to the Lending Defendants. (Ickes Dep. at 29);
(AMG Am. Resp. to Interrog. No. 1, ECF No. 908-81).
The FTC has produced a voluminous record of checks
signed by Scott Tucker from the Lending Defendants’ accounts to the Corporate Lending Defendants wholly
owned by Scott Tucker. (See, e.g., Ex. 83 to Singhvi
Decl., ECF No. 908-83).
Further, Scott Tucker reviewed and approved loan
disclosures and websites for the Lending Defendants.
(See, e.g., AMG Am. Resp. to Expedited Interrog. No. 9,
ECF No. 908-62); (Dempsey Dep. at 90). Indeed, the
FTC has produced numerous examples of Scott Tucker
involved in such activities. (See, e.g., Ex. 63 to Singhvi
Decl., ECF No. 908-63) (email in which Scott Tucker
opines on whether or not certain language should be included in lending application). Scott Tucker also had the
power to hire and fire and exercised that authority with
respect to the expansion of loan processing employees in
the Miami office. (Williams Decl. at 7, ECF No. 908-155).
2. Knowledge
The knowledge requirement is satisfied by establishing that “the individual had actual knowledge of the material misrepresentation, was recklessly indifferent to the

91a
truth or falsity of a misrepresentation, or had an awareness of a high probability of fraud along with an intentional avoidance of truth.” Garvey, 383 F.3d at 900 (citing Publ’g Clearing House, 104 F.3d at 1171). “The degree of participation in business affairs is probative of
knowledge.” FTC v. Am. Standard Credit Sys., 874 F.
Supp. 1080, 1089 (C.D. Cal. 1994); see also Affordable
Media, 179 F.3d at 1235 (“The extent of an individual’s
involvement in a fraudulent scheme alone is sufficient to
establish the requisite knowledge for personal restitutionary liability.”).
The evidence demonstrates that, at the very least,
Scott Tucker was recklessly indifferent to the misleading
representations of the Lending Defendants. As discussed above, Scott Tucker reviewed the loan disclosures
and websites. Dempsey testified that Tucker “conducted
reviews” of loan documents and websites. (Dempsey
Dep. at 90). In many instances, Scott Tucker proposed
specific language for loan disclosures. (See, e.g., Ex. 65
to Singhvi Decl., ECF No. 908-65). Further, Scott Tucker stated in discovery exchanges that he “comments on
and recommends proposed changes to webpages.” (Scott
Tucker Resp. to Interrog. No. 2, ECF No. 908-68).
With regard to consumer complaints, Scott Tucker
had ample notice of internal AMG complaint tracking reports as well as complaints received by the tribes and
third party services. Dempsey testified that Scott Tucker had “seen [AMG] reports on customer complaints.”
(Dempsey Dep. at 90). Red Cedar Services’ president,
Troy LittleAxe, stated that he “would forward the written [consumer] complaints to AMG Services, Inc., specifically Scott Tucker.” (LittleAxe Resp. to Pl.’s Interrog.
No. 4, ECF No. 908-69). Moreover, “[e]verytime [LittleAxe] had contact with an individual consumer or a state

92a
agency, [he] would notify . . . AMG Services, Inc., specifically Scott Tucker.” (Id.). In emails between Scott
Tucker and Blaine Tucker discussing the escalating consumer complaints, Scott Tucker suggested development
of a compliance department. (See Ex. 72 to Singhvi
Decl., ECF No. 908-72).
Finally, Scott Tucker was specifically aware that customers often did not understand Defendants’ process of
renewals and paydowns. Scott Tucker received an email
from Tim Buckley, an AMG manager, proposing a new
repayment model that would address the fact that “90%
of the issues we have with customers stem from them not
understanding our process of renewals and paydowns.”
(Ex. 75 to Singhvi Decl.). When asked about the e-mail
during his deposition, Scott Tucker invoked his Fifth
Amendment privilege against self-incrimination.5 (Scott
Tucker Dep. 41:25-44:9, , ECF No. 908-76). Scott Tucker’s pervasive role and authority at AMG, which extended to almost every facet of the company’s business and
operations, also creates a strong inference that Scott
Tucker had the requisite knowledge that the Lending
Defendants’ webpages were misleading. Am. Standard
Credit Sys., 874 F. Supp. at 1089; Amy Travel, 875 F.2d
at 574; Affordable Media, 179 F.3d at 1235. Accordingly,
the evidence, coupled with Scott Tucker’s assertions of
the Fifth Amendment, demonstrate that Scott Tucker
had the requisite knowledge to be held individually liable
for the deceptive website marketing of the Lending Defendants.
5

In this instance, the Court draws an adverse inference against Scott
Tucker for his repeated invocation of his Fifth Amendment privilege
during his deposition. See SEC v. Jasper, 678 F.3d 1116, 1126-27
(9th Cir. 2012) (affirming district court’s adverse inference in similar
circumstances).

93a
D. Common Enterprise Liability
Under the theory of common enterprise, each entity in
a group of interrelated companies can be held jointly and
severally liable for the actions of other entities in that
group. FTC v. Network Servs. Depot, Inc., 617 F.3d
1127, 1142-43 (9th Cir. 2010). “Entities constitute a common enterprise when they exhibit either vertical or horizontal commonality—qualities that may be demonstrated
by a showing of strongly interdependent economic interests or the pooling of assets and revenues.” Id. “To determine whether a common enterprise exists, the Court
considers factors such as: common control; the sharing of
office space and officers; whether business is transacted
through a maze of interrelated companies; the commingling of corporate funds and failure to maintain separation of companies; unified advertising; and evidence that
reveals that no real distinction exists between the corporate defendants.” FTC v. Grant Connect, LLC, 827 F.
Supp. 2d 1199, 1216 (D. Nev. 2011) aff ’d in part, vacated
in part, 763 F.3d 1094 (9th Cir. 2014).
The evidence demonstrates that no real distinction exists between the Corporate Lending Defendants. The
Tucker Defendants admit that AMG Capital, Level 5, and
Broadmore all used the same Nevada address for incorporation. (Tucker Defs.’ Am. Ans. ¶¶ 10-12, 15, ECF No.
397). Further, bank statements, checks, and invoices all
demonstrate that the Corporate Lending Defendants all
operated from the same Kansas address, which the Tucker Defendants do not dispute. (See Ex. 168 to Singhvi
Dep., ECF No. 908-168). Nor do the Tucker Defendants
dispute that the Corporate Lending Defendants are
wholly-owned by Scott Tucker. (See Corp. Disclosure
Statement, ECF No. 58). Finally, as discussed supra,
Scott Tucker dominated the Lending Defendants’ bank

94a
accounts and funneled thousands of payments to the Corporate Lending Defendants. Indeed, beyond their unfounded evidentiary objections, the Tucker Defendants
do not dispute the commingling of funds between AMG
Capital, Level 5, Broadmore, Black Creek, and other entities owned by Scott Tucker. (See Tucker Defs.’ Resp.
to FTC’s MSJ 67:15-27, 68:18-24).
The Tucker Defendants argue that a common enterprise did not exist because “the FTC has not shown that
the Tucker entities participated in the lending.” (Resp.
66:5-7). The Tucker Defendants oversimplify the standard to show common enterprise liability. The Ninth Circuit panel in Network Services did not find the existence
of a common venture dispositive. Network Servs., 617
F.3d at 1143. Instead, the panel also considered the existence of pooled resources, staff, and funds as well as
common ownership in its determination that a common
enterprise existed under the facts in that case. Id. Likewise, other courts analyze these factors collectively without emphasis on any one factor. See, e.g., Fed. Trade
Comm’n v. Mortg. Relief Advocates LLC, No. CV-145434-MWF (AGRx), 2015 WL 11257575, at *6 (C.D. Cal.
July 1, 2015) (“It is not necessary that the FTC prove any
particular number of entity connections in order to establish a common enterprise, and, similarly, no one connection is dispositive.”). Accordingly, in light of the overwhelming evidence that the Tucker Defendants operated
as a common enterprise, each is jointly and severally liable for one another’s wrongful conduct.
E. Relief Defendants
District courts are given broad authority under the
FTC Act to fashion equitable remedies to the extent necessary to ensure effective relief. Network Servs., 617
F.3d at 1141-42. “[T]he broad equitable powers of the

95a
federal courts can be employed to recover ill gotten gains
for the benefit of the victims of wrongdoing, whether held
by the original wrongdoer or by one who has received the
proceeds after the wrong.” S.E.C. v. Colello, 139 F.3d
674, 676 (9th Cir. 1998). “The creditor plaintiff must
show that the [relief ] defendant has received ill gotten
funds and that he does not have a legitimate claim to
those funds.” Id. at 677. Upon such a showing, the remedy is an equitable monetary judgment in the amount of
the funds that the relief defendant received. See id.; see
also S.E.C. v. Banner Fund Int’l, 211 F.3d 602, 617 (D.C.
Cir. 2000) (“[D]isgorgement is an equitable obligation to
return a sum equal to the amount wrongfully obtained,
rather than a requirement to replevy a specific asset.”).
The evidence establishes that Scott Tucker diverted
millions of dollars from himself and the Corporate Lending Defendants to the Relief Defendants. Beginning with
Scott Tucker’s wife, Kim Tucker, numerous bank statements show payments amounting to $19,072,774 in favor
of Kim Tucker from the Tucker Defendants. (See Ex.
227 to Singhvi Decl., ECF No. 908-227). These payments
include a check for over $4.1 million from Black Creek.
(Ex. 228 to Singhvi Decl., ECF No. 908-228). In addition,
on several occasions Scott Tucker directed loan portfolios
to make payments to a Corporate Lending Defendant,
then simultaneously caused the Corporate Lending Defendant to pay the aggregate amount to Kim Tucker.
(See, e.g., Ex. 231 to Singhvi Decl., ECF No. 908-231).
Moreover, Kim Tucker admits that she “intermittently
received monies from or on behalf of her spouse, Scott
Tucker, through AMG Services, Inc. and Black Creek
Capital Corporation . . . for the purposes of personal
and household uses.” (Kim Tucker Supp. Ans. to Interrog. 6(c), ECF No. 908-226).

96a
Turning to Park 269, Kim Tucker’s wholly owned entity and nominal owner of an $8 million home located at
269 Park Avenue, Aspen, Colorado, the evidence demonstrates that AMG financed the purchase, mortgage, furnishing, maintenance, housekeeping, landscaping, and
property taxes for the property. (See Ex. 87 to Singhvi
Decl., ECF No. 908-87); (Ex. 238 to Singhvi Decl., ECF
No. 908-238). Park 269 does not dispute these payments.
(See generally House Dep., ECF No. 908-237). Further,
a summary created by Blaine Tucker of Scott Tucker’s
investments shows that AMG is the holding company and
funding company for Park 269. (Ex. 202 to Singhvi Decl.
at 4, ECF No. 908-202).
Neither Kim Tucker nor Park 269 have a legitimate
claim to these funds. See Colello, 139 F.3d at 676. Kim
Tucker admits she had no role or ownership interest in
any Corporate Lending Defendant. (Kim Tucker Supp.
Resp. to Interrog. No. 1, ECF No. 908-226). Nor did
Kim Tucker provide any consideration for the money
transfers to her. (See Kim Tucker Supp. Ans. to Interrog. 6(c)). Further, Park 269 disclaims having offered
any services or other value to the Tucker Defendants.
(Park 269 Resp. to Interrog. No. 6, ECF No. 908-235).
The Court therefore finds disgorgement of $19,072,774
from Kim Tucker’s accounts and $8 million from Park
269 is appropriate.
F. Remedies
The FTC requests both a permanent injunction
against the Tucker Defendants and monetary equitable
relief, in the form of restitution or, in the alternative, disgorgement. (First Am. Compl. 20:7-19, ECF No. 386).
Under § 13(b) of the FTC Act, the FTC “may seek, and
after proper proof, the court may issue, a permanent injunction.” 15 U.S.C. § 53(b); see also Evans Prods., 775

97a
F.2d at 1086. “This provision gives the federal courts
broad authority to fashion appropriate remedies for violations of the Act,” F.T.C. v. Pantron I Corp., 33 F.3d
1088, 1102 (9th Cir. 1994), including “any ancillary relief
necessary to accomplish complete justice,” F.T.C. v. H.
N. Singer, Inc., 668 F.2d 1107, 1113 (9th Cir. 1982).
1. Permanent Injunction
A permanent injunction is justified if there exists
“some cognizable danger of recurrent violation,” United
States v. W.T. Grant Co., 345 U.S. 629, 633 (1953), or
“some reasonable likelihood of future violations,” CFTC
v. Co Petro Mktg. Grp., Inc., 502 F. Supp. 806, 818 (C.D.
Cal. 1980), aff ’d, 680 F.2d 573 (9th Cir. 1982). The Court
examines the totality of the circumstances involved and a
variety of factors in determining the likelihood of future
misconduct. Co Petro Mktg. Grp., 502 F. Supp. at 818;
SEC v. Murphy, 626 F.2d 633, 655 (9th Cir. 1980). Nonexhaustive factors include the degree of scienter involved, whether the violative act was isolated or recurrent, whether the defendant’s current occupation positions him to commit future violations, the degree of harm
consumers suffered from the unlawful conduct, and the
defendant’s recognition of his own culpability and sincerity of his assurances, if any, against future violations.
Murphy, 626 F.2d at 655; FTC v. Magui Publishers, Inc.,
No. 89-3818, 1991 WL 90895, at *15-16 (C.D. Cal. Mar.
28, 1991). “[I]t must be ‘absolutely clear that the allegedly wrongful behavior could not reasonably be expected to
recur.’ ” TRW, Inc. v. F.T.C., 647 F.2d 942, 953 (9th Cir.
1981) (quoting United States v. Concentrated Phosphate
Exp. Ass’n, 393 U.S. 199, 203 (1968)).
The Court finds that a permanent injunction against
Scott Tucker is appropriate under the circumstances to
enjoin him from engaging in similar misleading and de-

98a
ceptive lending activities. Here, Scott Tucker did not
participate in an isolated, discrete incident of deceptive
lending, but engaged in sustained and continuous conduct
that perpetuated the deceptive lending since at least
2008. Scott Tucker initiated the Corporate Lending Defendants’ relationship with the tribes and oversaw the organization of the Lending Defendants. Scott Tucker
served as a key leader and executive of the Corporate
Lending Defendants. Scott Tucker reviewed the various
iterations of the loan documents and webpages and, at
the very least, was recklessly indifferent to the fact that
they were misleading, given the ample notice of consumer confusion. In addition, Scott Tucker was previously
convicted on federal charges related to another fraudulent lending scheme. See United States v. Tucker, Case
No. CR-90-00163-01 (W.D. Mo. Aug. 13, 1990); United
States v. Tucker, Case No. 4:81-CR-00001 (W.D. Mo. Jan.
4, 1991). Further, as with every question asked during
his deposition, Scott Tucker invoked the Fifth Amendment as to his current business ventures and whether or
not he is currently engaged in consumer lending. (See
Scott Tucker Dep. 111:21-114:12); Colello, 139 F.3d at 677
(affirming district court’s adverse inference against defendant who “consistently invoked his Fifth Amendment
privilege not to testify”). All of these factors weigh in favor of imposing a permanent injunction against Scott
Tucker.
2. Monetary Equitable Relief
Section 13(b) permits a panoply of equitable remedies,
including monetary equitable relief in the form of restitution and disgorgement, as well as miscellaneous reliefs
such as asset freezing, accounting, and discovery to aid in
providing redress to injured consumers. Pantron I
Corp., 33 F.3d at 1103 n.34 (9th Cir. 1994); F.T.C. v. Fig-

99a
gie Int’l, Inc., 994 F.2d 595, 606-08 (9th Cir. 1993); H.N.
Singer, 668 F.2d at 1113.
i. Restitution and Disgorgement
The FTC Act is designed to protect consumers from
economic injuries. Stefanchik, 559 F.3d at 931. To effect
that purpose, courts may award restitution to redress
consumer injury. F.T.C. v. Gill, 265 F.3d 944, 958 (9th
Cir. 2001) (“We have held that restitution is a form of ancillary relief available to the court in these circumstances
to effect complete justice.”). Restitution may be measured by the “the full amount lost by consumers rather
than limiting damages to a defendant’s profits.” Stefanchik, 559 F.3d at 931 (affirming restitution of over $17
million for the full amount of consumer loss); see also
FTC v. Febre, 128 F.3d 530, 536 (7th Cir. 1997) (affirming
restitution for more than $16 million against company
and officer as consumer loss under section 13(b)). Consumer loss is calculated by “the amount of money paid by
the consumers, less any refunds made.” FTC v. Direct
Mktg. Concepts, Inc., 648 F. Supp. 2d 202, 213-14 (D.
Mass. 2009), aff ’d, 624 F.3d 1 (1st Cir. 2010); see also Stefanchik, 559 F.3d at 931; Figgie, 994 F.2d at 606; Gill,
265 F.3d at 958.
As an alternative to restitution, “[s]ection 13(b) permits a district court to order a defendant to disgorge illegally obtained funds.” Febre, 128 F.3d at 537. Disgorgement is measured by the amount of profits causally connected to the violation. SEC v. Happ, 392 F.3d 12, 31 (1st
Cir. 2004). The purpose of disgorgement is not to redress
consumer injuries but to deprive wrongdoers of ill-gotten
gains. Febre, 128 F.3d at 537.
Irrespective of the measure used to calculate monetary equitable relief, courts apply a burden-shifting
framework to determine the specific amount to award.

100a
Direct Mktg. Concepts, 624 F.3d at 15. First, the FTC
bears the initial burden of providing the Court with a reasonable approximation of the monetary relief to award.
Commerce Planet, 815 F.3d at 603. A reasonable estimate, rather than an exact amount, is proper because
that may be the only information available, as when defendants do not maintain data necessary to calculate the
precise amount. FTC v. QT, Inc., 512 F.3d 858, 864 (7th
Cir. 2008) (“A court is entitled to proceed with the best
available information[.]”); FTC v. Verity Int’l, Ltd., 443
F.3d 48, 69 (2d Cir.2006) (“Of course, the reasonableness
of an approximation varies with the degree of precision
possible.”), cert. denied, 549 U.S. 1278, 127 S. Ct. 1868,
167 L. Ed. 2d 317 (2007).
Second, once the FTC satisfies this burden, “the burden then shifts to the defendant to show that the FTC’s
figures overstate the amount of the defendant’s unjust
gains.” Commerce Planet, 815 F.3d at 604. “Any fuzzy
figures due to a defendant’s uncertain bookkeeping cannot carry a defendant’s burden to show inaccuracy.” Direct Mktg. Concepts, 624 F.3d at 15; see also Commerce
Planet, 815 F.3d at 604 (“Any risk of uncertainty at this
second step ‘fall[s] on the wrongdoer whose illegal conduct created the uncertainty.’ ”) (quoting F.T.C. v. Bronson Partners, LLC, 654 F.3d 359, 368 (2d Cir. 2011)).
ii. Calculation of Consumer Loss
The FTC requests an amount of $1,317,753,577 in consumer loss between 2008 and 2012. (FTC’s MSJ 73:2021). The FTC relies on calculations performed by Elizabeth Miles, a data analyst employed by the FTC. (See
Miles Decl. ¶ 1, ECF No. 908-244). Miles used loan data
from eCash, the Tucker Defendants’ loan management
software, produced by AMG and MNES. (See Id. ¶ 2);
(Resp. to Obj. 22:13-15). To implement the calculations,

101a
Miles used Stata, software designed to sort and aggregate large databases. (Miles Decl. ¶ 4). Miles created
“scripts,” or commands, to identify where a consumer
paid more than the disclosed total of payments, the principal and one finance charge. (Id. ¶¶ 4-11). Miles excluded loan records without matching consumer information
as well as loans to individual consumers who borrowed
from any specific portfolio more than once. (Id. ¶¶ 8-9).
For that subset of loans, the FTC instructed Miles multiply the amount borrowed by the disclosed total of payments, or 1.3, reflecting the standard 30% finance charge
imposed by the Lending Defendants. (Id. ¶ 11); (see
Resp. to Obj. 25:2-4). Then, Miles directed the software
to subtract that amount from the total amount consumers
paid. (Id. ¶ 12). The resulting amount of consumer harm
is the total amount paid in excess of the amount borrowed accounting for disclosed finance charges, or
$1,317,753,577. (Id. ¶ 13).
The Tucker Defendants’ objections to the FTC’s consumer harm calculation largely center on the admissibility of the Miles Declaration. (See Obj. 21:13-22:20);
(Tucker Defs.’ Resp. to FTC’s MSJ 72:20-80:2). On this
point, the Tucker Defendants argue, inter alia, that the
FTC’s calculations do not include “over 3.3 million consumer records and over 3,000 loan records” that failed to
merge into a single new data set. (Tucker Defs.’ Resp. to
FTC’s MSJ 79:13). However, the absence of these records likely benefits the Tucker Defendants; if these records had successfully merged, the amount of consumer
harm would conceivably be greater than the instant calculation. Further, the Court has already found the Miles
Declaration admissible. (Order 9:20 n.5, ECF No. 960).
Next, the Tucker Defendants object that the FTC’s
calculation “erroneously assumes that every single bor-

102a
rower forever relied upon the loan disclosures and that
every dollar paid in excess of the principal plus one finance charge was directly attributable to a Section 5 violation.” (Tucker Defs.’ Resp. to FTC’s MSJ 80:9-11).
The Court agrees with the FTC that, as a matter of law,
the FTC need not show that all consumers were deceived
or that all consumers relied upon the misrepresentations.
Under § 13(b) of the FTC Act, proof of injury by every individual consumer is not required to justify a restitution
award. Stefanchik, 559 F.3d at 929 n.12; Figgie, 994 F.2d
at 605 (“It is well established with regard to Section 13 of
the FTC Act . . . that proof of individual reliance by
each purchasing customer is not needed.”). This is because, unlike a private suit for fraud, “[s]ection 13 serves
a public purpose by authorizing the Commission to seek
redress on behalf of injured consumers,” and “[r]equiring
proof of subjective reliance by each individual consumer
would thwart effective prosecutions of large consumer redress actions and frustrate the statutory goals of the section.” Figgie Int’l, 994 F.2d at 605. Rather, “[a] presumption of actual reliance arises once the Commission
has proved that the defendant made material misrepresentations, that they were widely disseminated, and that
consumers purchased the defendant’s product.” Id.; see
also FTC v. Inc21.com Corp., 745 F. Supp. 2d 975, 1011
(N.D. Cal. 2010) (“[I]t is sufficient for the FTC to prove
that misrepresentations were widely disseminated (or
impacted an overwhelming number of consumers) and
caused actual consumer injury.”), aff ’d, 475 Fed. Appx.
106 (9th Cir. 2012).
In addition, the Tucker Defendants argue that repeat
borrowers within the same loan portfolio as well as repeat borrowers across the different loan portfolios should
be excluded from the calculation. (Tucker Defs.’ Resp. to

103a
FTC’s MSJ 81:21-84:19). The Tucker Defendants assert
that the repeat nature of these loans indicates that these
borrowers were “satisfied” and “unconfused.” (Id. 82:27,
83:2). In support, the Tucker Defendants rely on a report prepared by their economics expert, Dr. David
Scheffman (“Dr. Scheffman”). (Id. 81:22-25). Dr. Scheffman states in his report that “[repeat borrowers] . . .
plainly understood the loan terms,” without further explanation and merely as a premise to his ultimate conclusions. (Scheffman Report ¶ 20, ECF No. 942-16). This
single conclusory statement alone is insufficient to create
a genuine dispute of material fact that repeat customers
were not misled. Further, the Tucker Defendants provide no evidence that repeat borrowers across loan portfolios knew they were dealing with the same enterprise.
Finally, the Tucker Defendants also argue that they
should only be liable for one finance charge per borrower
because “the only amount with a causal nexus to the
Court’s finding of a Section 5 violation is one finance
charge for each first-time borrower.” (Tucker Defs.’
Resp. to FTC’s MSJ 86:5-6). This argument is legally
and factually incorrect. The instant § 13 damages calculation asks whether consumers who purchased loans “did
so in reliance on the misrepresentations.” Commerce
Planet, 815 F.3d at 604. On this point, the Court determined, supra, that the FTC was entitled to a presumption in the affirmative. Consumers began paying back
their loans only after the “fraud in the selling” was complete and could not thereafter escape the loan repayment
scheme. Figgie, 994 F.2d at 606. Accordingly, the calculation appropriately includes subsequent finance charges.
Where, as here, consumers suffer economic injury resulting from a defendant’s violations of the FTC Act, equity requires monetary relief in the full amount lost by

104a
consumers. See Stefanchik, 559 F.3d at 931. Accordingly, the Court finds that the Tucker Defendants are jointly
and severally liable for restitution in the amount of
$1,266,084,156, plus prejudgment interest. This amount
reflects the $1,317,753,577 in total harm minus the
$24,596,677 collected from former defendants and the
$27,072,744 owing from the Relief Defendants, discussed
supra. (See FTC’s MSJ 100:3-6).
IV. CONCLUSION
IT IS HEREBY ORDERED that the Relief Defendants’ Motion for Summary Judgment, (ECF No. 900), is
DENIED.
IT IS FURTHER ORDERED that the Tucker Defendants’ Motion for Summary Judgment, (ECF No.
913), is DENIED.
IT IS FURTHER ORDERED that the Tucker Defendants’ Motions to Reconsider, (ECF Nos. 850, 963,
975), are DENIED.
IT IS FURTHER ORDERED that the FTC’s Motion
for Summary Judgment, (ECF No. 907), is GRANTED
pursuant to the following terms:
I.
DEFINITIONS
For the purpose of this Order, the following definitions
apply:
1. “Collection of Debts” means any activity the principal purpose of which is to collect or attempt to collect, directly or indirectly, Debts owed or due or asserted to be
owed or due.
2. “Consumer credit” means credit offered or extended to a natural person primarily for personal, family, or
household purposes.

105a
3. “Corporate Defendants” means AMG Capital Management, LLC; Black Creek Capital Corporation; Level
5 Motorsports, LLC; and Broadmoor Capital Partners,
LLC, and their successors and assigns, individually, collectively, or in any combination.
4. “Debt” means any obligation or alleged obligation
of a consumer to pay money arising out of a transaction
in which the money, property, or services that are the
subject of the transaction are primarily for personal,
family, or household purposes, whether or not such obligation has been reduced to judgment.
5. “Defendants” means the Corporate Defendants and
Scott Tucker.
6. “Material” means likely to affect a person’s choice
of, or conduct regarding, goods or services.
7. “Person” means a natural person, organization, or
other legal entity, including a corporation, partnership,
proprietorship, association, cooperative, or any other
group or combination acting as an entity.
8. “Relief Defendants” means Kim Tucker and Park
269, LLC.
II.
BAN ON CONSUMER LENDING
IT IS ORDERED that Scott Tucker and the Corporate Defendants, whether directly or through an intermediary, are permanently restrained and enjoined from, or
assisting others engaged in:
A. Providing, arranging for, or assisting any consumer in receiving or applying for any loan or other extension
of Consumer Credit; and
B. Advertising, marketing, promoting, or offering any
loan or other extension of Consumer Credit.

106a
III.
PROHIBITION AGAINST
MISREPRESENTATIONS
IT IS FURTHER ORDERED that Scott Tucker and
the Corporate Defendants, and the Corporate Defendants’ officers, agents, employees, and attorneys, and all
other persons in active concert or participation with any
of them, who receive actual notice of this Order, Whether
acting directly or indirectly, in connection with promoting or offering for sale any good or service, are permanently restrained and enjoined from misrepresenting or
assisting others in misrepresenting, expressly or by implication, any fact Material to consumers concerning any
good or service, such as: the total costs; any material restrictions, limitations, or conditions; or any material aspect of its performance, efficacy, nature, or central characteristics.
IV.

PROHIBITION AGAINST DECEPTIVE
COLLECTION PRACTICES
IT IS FURTHER ORDERED that Scott Tucker and
the Corporate Defendants, and their officers, agents, employees, and attorneys, and all other persons in active
concert or participation with any of them, who receive actual notice of this Order, whether acting directly or indirectly, in connection with the Collection of Debts, are
hereby permanently restrained and enjoined from misrepresenting, or assisting others in misrepresenting, expressly or by implication:
A. That consumers can be arrested, prosecuted, or
imprisoned for failing to pay the Defendant;
B. That the Defendant will or can take formal legal
action against consumers who do not pay the Defendant,
including but not limited to, filing suit; and
C. Any other Material fact.

107a
V.
INJUNCTION CONCERNING ELECTRONIC
FUND TRANSFER PRACTICES
IT IS FURTHER ORDERED that Scott Tucker and
the Corporate Defendants, and their officers, agents, employees, and attorneys, and all other persons in active
concert or participation with any of them, who receive actual notice of this Order, whether acting directly or indirectly, are hereby permanently restrained and enjoined
from conditioning the extension of credit on preauthorized electronic fund transfers.
VI.
MONETARY JUDGMENT
IT IS FURTHER ORDERED that:
A. Judgment in the amount of $1,301,897,652 is entered in favor of the Commission against the Defendants
as equitable monetary relief. In addition, judgment in
the amount of $19,072,774 is entered in favor of the Commission against Relief Defendant Kim Tucker, and judgment in the amount of $8,000,000 is entered in favor of
the Commission against Relief Defendant Park 269,
LLC.
B. The Defendants are ordered to pay to the Commission $$1,266,084,156, plus prejudgment interest. Such
payment must be made within 14 days of entry of this Order by electronic fund transfer in accordance with instructions previously provided by a representative of the
Commission.
C. Kim Tucker is ordered to pay to the Commission
$19,072,774. Such payment must be made within 14 days
of entry of this Order by electronic fund transfer in accordance with instructions previously provided by a representative of the Commission.
D. Park 269, LLC is ordered to pay to the Commission $8,000,000. Such payment must be made within 14

108a
days of entry of this Order by electronic fund transfer in
accordance with instructions previously provided by a
representative of the Commission.
E. The Defendants and Relief Defendants relinquish
dominion and all legal and equitable right, title, and interest in all assets transferred pursuant to this Order and
may not seek the return of any assets.
F. The facts alleged in the Complaint will be taken as
true, without further proof, in any subsequent civil litigation by or on behalf of the Commission, including in a
proceeding to enforce its rights to any payment or monetary judgment pursuant to this Order, such as a nondischargeability complaint in any bankruptcy case.
G. The facts alleged in the Complaint establish all elements necessary to sustain an action by the Commission
pursuant to Section 523(a)(2)(A) of the Bankruptcy Code,
11 U.S.C. § 523(a)(2)(A), and this Order will have collateral estoppel effect for such purposes.
H. The Defendants and Relief Defendants must submit their Taxpayer Identification Numbers to the Commission, and acknowledge that their Taxpayer Identification Numbers may be used for collecting and reporting
on any delinquent amount arising out of this Order, in accordance with 31 U.S.C. § 7701.
I. All money paid to the Commission pursuant to this
Order may be deposited into a fund administered by the
Commission or its designee to be used for equitable relief, including consumer redress and any attendant expenses for the administration of any redress fund. If a
representative of the Commission decides that direct redress to consumers is wholly or partially impracticable or
money remains after redress is completed, the Commission may apply any remaining money for such other equi-

109a
table relief (including consumer information remedies) as
it determines to be reasonably related to the Defendants’
practices alleged in the Complaint. Any money not used
for such equitable relief is to be deposited to the U.S.
Treasury as disgorgement. The Defendants and Relief
Defendants have no right to challenge any actions the
Commission or its representatives may take pursuant to
this Subsection.
VII.
CUSTOMER INFORMATION
IT IS FURTHER ORDERED that Scott Tucker and
the Corporate Defendants, the Corporate Defendants’ officers, agents, employees, and attorneys, and all other
persons in active concert or participation with any of
them, who receive actual notice of this Order, are hereby
permanently restrained and enjoined from directly or indirectly:
A. Failing to provide sufficient customer information,
to the extent it is in the Defendants’ possession, custody
or control, to enable the Commission to efficiently administer consumer redress. If a representative of the Commission requests in writing any information related to redress, the Defendants must provide it, in the form prescribed by the Commission, within 14 days.
B. Disclosing or transferring to any other person customer information, including the name, address, telephone number, email address, social security number,
other identifying information, or any data that enables
access to a customer’s account (including a credit card,
bank account, or other financial account), that the Defendants obtained prior to entry of this Order in connection with the offering and collection of high-fee, shortterm payday loans.
C. Failing to destroy such customer information in all
forms in its possession, custody, or control within 30 days

110a
after receipt of written direction to do so from a representative of the Commission. Provided, however, that
customer information need not be disposed of, and may
be disclosed, to the extent requested by a government
agency or required by law, regulation, or court order.
VIII.
ORDER ACKNOWLEDGMENTS
IT IS FURTHER ORDERED that the Defendants
and Relief Defendants obtain acknowledgments of receipt of this Order:
A. The Defendants and Relief Defendants, within 7
days of entry of this Order, must submit to the Commission an acknowledgment of receipt of this Order sworn
under penalty of perjury.
B. For 20 years after entry of this Order, Scott Tucker, for any business that Scott Tucker, individually or collectively with any other defendant in this action, is the
majority owner or controls directly or indirectly, and
each Corporate Defendant must deliver a copy of this
Order to (1) all principals, officers, directors, and LLC
managers and members; (2) all employees, agents, and
representatives who participate in the Collection of
Debts; and (3) any business entity resulting from any
change in structure as set forth in the Section titled Compliance Reporting. Delivery must occur within 7 days of
entry of this Order for current personnel. For all others,
delivery must occur before they assume their responsibilities.
C. From each individual or entity to which Scott
Tucker and the Corporate Defendants delivered a copy of
this Order, these Defendants must obtain, within 30 days,
a signed and dated acknowledgment of receipt of this Order.

111a
IX.
COMPLIANCE REPORTING
IT IS FURTHER ORDERED that Scott Tucker and
the Corporate Defendants make timely submissions to
the Commission:
A. One year after entry of this Order, Scott Tucker
and the Corporate Defendants must submit compliance
reports, sworn under penalty of perjury:
1. Scott Tucker and each Corporate Defendant
must:
a. Identify the primary physical, postal, and email address and telephone number, as designated points of contact, which representatives
of the Commission may use to communicate
with Scott Tucker and the Corporate Defendants;
b. Identify all of Scott Tucker’s or the Corporate
Defendant’s businesses by all of their names,
telephone numbers, and physical, postal, email, and Internet addresses;
c. Describe the activities of each business and
the involvement of any other defendant in this
proceeding;
d. Describe in detail whether and how Scott
Tucker and the Corporate Defendants are in
compliance with each Section of this Order;
and
e. Provide a copy of each Order Acknowledgment obtained pursuant to this Order, unless
previously submitted to the Commission.

112a
2. Additionally, Scott Tucker must:
a. Identify all telephone numbers and all physical, postal, email and Internet addresses, including all residences;
b. Identify all business activities, including any
business for which Scott Tucker performs services whether as an employee or otherwise
and any entity in which Scott Tucker has any
ownership interest; and
c. Describe in detail Scott Tucker’s involvement
in each such business, including title, role, responsibilities, participation, authority, control,
and any ownership.
B. For 20 years after entry of this Order, Scott Tucker and the Corporate Defendants must submit compliance notices, sworn under penalty of perjury, within 14
days of any change in the following:
1. Scott Tucker and each Corporate Defendant
must report any change in:
a. Any designated point of contact; or
b. The structure of any Corporate Defendant or
any entity that Scott Tucker or any Corporate
Defendant has any ownership interest in or
controls directly or indirectly that may affect
compliance obligations arising under this Order, including: creation, merger, sale, or dissolution of the entity or any subsidiary, parent,
or affiliate that engages in any acts or practices subject to this Order.
2. Additionally, Scott Tucker must report any
change in:

113a
a. Name, including aliases or fictitious names, or
residence address; or
b. Title or role in any business activity, including
any business for which Scott Tucker performs
services whether as an employee or otherwise
and any entity in which Scott Tucker has any
ownership interest, and identify the name,
physical address, and any Internet address of
the business or entity.
C. Scott Tucker and the Corporate Defendants must
submit to the Commission notice of the filing of any
bankruptcy petition, insolvency proceeding, or similar
proceeding by or against Scott Tucker or the Corporate
Defendants within 14 days of its filing.
D. Any submission to the Commission required by
this Order to be sworn under penalty of perjury must be
true and accurate and comply with 28 U.S.C. § 1746, such
as by concluding: “I declare under penalty of perjury under the laws of the United States of America that the
foregoing is true and correct. Executed on: _____” and
supplying the date, signatory’s full name, title (if applicable), and signature.
E. Unless otherwise directed by a Commission representative in writing, all submissions to the Commission
pursuant to this Order must be emailed to DEbrief@ftc.gov or sent by overnight courier (not the U.S.
Postal Service) to: Associate Director for Enforcement,
Bureau of Consumer Protection, Federal Trade Commission, 600 Pennsylvania Avenue NW, Washington, DC
20580. The subject line must begin: FTC v. AMG Services, Inc., No. X120026.

114a
X.
RECORDKEEPING
IT IS FURTHER ORDERED that Scott Tucker and
the Corporate Defendants must create certain records
for 20 years after entry of the Order, and retain each
such record for 5 years. Specifically, Corporate Defendants and Scott Tucker for any business that Scott Tucker, individually or collectively with any other defendants
in this action, is a majority owner or controls directly or
indirectly, must create and retain the following records:
A. Accounting records showing the revenues from all
goods or services sold;
B. Personnel records showing, for each person providing services, whether as an employee or otherwise, that
person’s: name; addresses; telephone numbers; job title
or position; dates of service; and (if applicable) the reason
for termination;
C. Records of all consumer complaints and refund requests, whether received directly or indirectly, such as
through a third party, and any response;
D. All records necessary to demonstrate full compliance with each provision of this Order, including all submissions to the Commission; and
E. A copy of each unique advertisement or other marketing material.
XI.
COMPLIANCE MONITORING
IT IS FURTHER ORDERED that, for the purpose
of monitoring Scott Tucker and the Corporate Defendants’ compliance with this Order:
A. Within 14 days of receipt of a written request from
a representative of the Commission, Scott Tucker and
the Corporate Defendants must: submit additional compliance reports or other requested information, which
must be sworn under penalty of perjury; appear for dep-

115a
ositions; and produce documents for inspection and copying. The Commission is also authorized to obtain discovery, without further leave of court, using any of the procedures prescribed by Federal Rules of Civil Procedure
29, 30 (including telephonic depositions), 31, 33, 34, 36, 45,
and 69, provided that Scott Tucker or the Corporate Defendants, after attempting to resolve a dispute without
court action and for good cause shown, may file a motion
with this Court seeking an order for one or more of the
protections set forth in Rule 26(c).
B. For matters concerning this Order, the Commission is authorized to communicate directly with the Defendants. The Defendants must permit representatives
of the Commission to interview any employee or other
person affiliated with the Defendants who has agreed to
such an interview. The person interviewed may have
counsel present.
C. The Commission may use all other lawful means,
including posing, through its representatives, as consumers, suppliers, or other individuals or entities, to the Defendants or any individual or entity affiliated with the
Defendants, without the necessity of identification or prior notice. Nothing in this Order limits the Commission’s
lawful use of compulsory process, pursuant to Sections 9
and 20 of the FTC Act, 15 U.S.C. §§ 49, 57b-1.
XII.

PRESERVATION OF RECORDS AND
TANGIBLE THINGS
IT IS FURTHER ORDERED that the Defendants
and officers, agents, employees, and attorneys, and all
other persons in active concert or participation with any
of them, who receive actual notice of this Order are hereby enjoined from: destroying, erasing, mutilating, concealing, altering, transferring, or otherwise disposing of,
in any manner, directly or indirectly, any documents or

116a
records that relate to the business practices, or business
or personal finances, of the defendants in this proceeding
or any other entity directly or indirectly under the control of any defendant in this proceeding. In the event of
the dissolution of any Corporate Defendant, that Defendant shall ensure continued preservation of all such documents and records through the conclusion of the proceeding (and any appeals therefrom). Provided that, nothing
in this Article shall prohibit destruction of consumer information as may be directed by the Commission pursuant to Article VI.C.
XIII.

DISSOLUTION OF STIPULATED ORDERS
FOR PRELIMINARY AND PERMANENT
INJUNCTIONS AND JUDGMENT
IT IS FURTHER ORDERED that, upon entry of this
Order, the Court’s Order Entering Stipulated Preliminary Injunction and Bifurcation dated December 27, 2012
(ECF No. 296) is VACATED; and

IT IS FURTHER ORDERED that, upon entry of this
Order, the Court’s Stipulated Order for Permanent Injunction and Judgment dated October 8, 2013 (ECF No.
478) is VACATED.
XIV.
RETENTION OF JURISDICTION
IT IS FURTHER ORDERED that this Court retains
jurisdiction of this matter for purposes of construction,
modification, and enforcement of this Order.
The Clerk of the Court shall enter judgment accordingly and close the case.
Dated this 30 day of April, 2017.
/s/ Gloria M. Navarro
Gloria M. Navarro, Chief Judge
United States District Judge

117a
APPENDIX D
UNITED STATES DISTRICT COURT
DISTRICT OF NEVADA
————
NO. 2:12-cv-00536-GMN-VCF
————
FEDERAL TRADE COMMISSION,
Plaintiff,
v.
AMG SERVICES INC., et al.,
Defendants.
————
JUDGMENT IN A CIVIL CASE
————
September 30, 2016
————
Decision by Court. This action came to trial or hearing before the Court. The issues have been tried or
heard and a decision has been rendered.
IT IS ORDERED AND ADJUDGED that judgment
is hereby entered pursuant to Order #1057 entered September 30, 2016.
Date: September 30, 2016
/s/ Lance S. Wilson
Clerk
/s/ M. Morrison
(By) Deputy Clerk

118a
APPENDIX E
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
²²²²


No. 16-17197
 ²²²²
FEDERAL TRADE COMMISSION,
Plaintiff-Appellee,
v.
AMG CAPITAL MANAGEMENT, LLC;
BLACK CREEK CAPITAL CORPORATION;
BROADMOOR CAPITAL PARTNERS, LLC;
LEVEL 5 MOTORSPORTS, LLC;
SCOTT A. TUCKER; PARK 269 LLC; KIM C. TUCKER,
Defendants-Appellants.
————
Appeal from the United States District Court
for the District of Nevada, Las Vegas in
No. 2:12-cv-00536-GMN-VCF,
Gloria M. Navarro, Chief Judge, Presiding
————
Filed: June 20, 2019
————

Before: O’SCANNLAIN and BEA, Circuit Judges,
and STEARNS,* District Judge.
*

The Honorable Richard G. Stearns, United States District Judge
for the District of Massachusetts, sitting by designation.

119a
————
ORDER
————
The full court has been advised of the petition for rehearing en banc, and no judge has requested a vote on
whether to rehear the matter en banc. Fed. R. App. P.
35.
The petition for rehearing en banc is DENIED.

120a
APPENDIX F
RELEVANT STATUTORY PROVISIONS
1. Section 5 of the Federal Trade Commission Act,
Pub. L. No. 203, 38 Stat. 717 (1914), codified as amended
at 15 U.S.C. § 45, provides:
§ 4 5 . Unfair methods of competition unlawful; prevention by Commission
(a) Declaration of unlawfulness; power to prohibit unfair practices; inapplicability to foreign
trade
(1) Unfair methods of competition in or affecting
commerce, and unfair or deceptive acts or practices
in or affecting commerce, are hereby declared unlawful.
(2) The Commission is hereby empowered and
directed to prevent persons, partnerships, or corporations, except banks, savings and loan institutions
described in section 57a(f )(3) of this title, Federal
credit unions described in section 57a(f )(4) of this
title, common carriers subject to the Acts to regulate commerce, air carriers and foreign air carriers
subject to part A of subtitle VII of title 49, and persons, partnerships, or corporations insofar as they
are subject to the Packers and Stockyards Act,
1921, as amended [7 U.S.C. 181 et seq.], except as
provided in section 406(b) of said Act [7 U.S.C.
227(b)], from using unfair methods of competition in
or affecting commerce and unfair or deceptive acts
or practices in or affecting commerce.
(3) This subsection shall not apply to unfair
methods of competition involving commerce with

121a
foreign nations (other than import commerce) unless—
(A) such methods of competition have a direct,
substantial, and reasonably foreseeable effect—
(i) on commerce which is not commerce
with foreign nations, or on import commerce
with foreign nations; or
(ii) on export commerce with foreign nations, of a person engaged in such commerce
in the United States; and
(B) such effect gives rise to a claim under the
provisions of this subsection, other than this paragraph.
If this subsection applies to such methods of competition only because of the operation of subparagraph (A)(ii), this subsection shall apply to such
conduct only for injury to export business in the
United States.
(4)(A) For purposes of subsection (a), the term
“unfair or deceptive acts or practices” includes such
acts or practices involving foreign commerce that—
(i) cause or are likely to cause reasonably
foreseeable injury within the United States;
or
(ii) involve material conduct occurring within the United States.
(B) All remedies available to the Commission
with respect to unfair and deceptive acts or practices shall be available for acts and practices described in this paragraph, including restitution to
domestic or foreign victims.

122a
(b) Proceeding by Commission; modifying and
setting aside orders
Whenever the Commission shall have reason to believe that any such person, partnership, or corporation
has been or is using any unfair method of competition or
unfair or deceptive act or practice in or affecting commerce, and if it shall appear to the Commission that a
proceeding by it in respect thereof would be to the interest of the public, it shall issue and serve upon such person, partnership, or corporation a complaint stating its
charges in that respect and containing a notice of a hearing upon a day and at a place therein fixed at least thirty
days after the service of said complaint. The person,
partnership, or corporation so complained of shall have
the right to appear at the place and time so fixed and
show cause why an order should not be entered by the
Commission requiring such person, partnership, or corporation to cease and desist from the violation of the law
so charged in said complaint. Any person, partnership,
or corporation may make application, and upon good
cause shown may be allowed by the Commission to intervene and appear in said proceeding by counsel or in person. The testimony in any such proceeding shall be reduced to writing and filed in the office of the Commission.
If upon such hearing the Commission shall be of the opinion that the method of competition or the act or practice
in question is prohibited by this subchapter, it shall make
a report in writing in which it shall state its findings as to
the facts and shall issue and cause to be served on such
person, partnership, or corporation an order requiring
such person, partnership, or corporation to cease and desist from using such method of competition or such act or
practice. Until the expiration of the time allowed for filing a petition for review, if no such petition has been duly

123a
filed within such time, or, if a petition for review has been
filed within such time then until the record in the proceeding has been filed in a court of appeals of the United
States, as hereinafter provided, the Commission may at
any time, upon such notice and in such manner as it shall
deem proper, modify or set aside, in whole or in part, any
report or any order made or issued by it under this section. After the expiration of the time allowed for filing a
petition for review, if no such petition has been duly filed
within such time, the Commission may at any time, after
notice and opportunity for hearing, reopen and alter,
modify, or set aside, in whole or in part any report or order made or issued by it under this section, whenever in
the opinion of the Commission conditions of fact or of law
have so changed as to require such action or if the public
interest shall so require, except that (1) the said person,
partnership, or corporation may, within sixty days after
service upon him or it of said report or order entered after such a reopening, obtain a review thereof in the appropriate court of appeals of the United States, in the
manner provided in subsection (c) of this section; and
(2) in the case of an order, the Commission shall reopen
any such order to consider whether such order (including
any affirmative relief provision contained in such order)
should be altered, modified, or set aside, in whole or in
part, if the person, partnership, or corporation involved
files a request with the Commission which makes a satisfactory showing that changed conditions of law or fact require such order to be altered, modified, or set aside, in
whole or in part. The Commission shall determine whether to alter, modify, or set aside any order of the Commission in response to a request made by a person, partner-

124a
ship, or corporation under paragraph1 (2) not later than
120 days after the date of the filing of such request.
(c) Review of order; rehearing
Any person, partnership, or corporation required by
an order of the Commission to cease and desist from using any method of competition or act or practice may obtain a review of such order in the court of appeals of the
United States, within any circuit where the method of
competition or the act or practice in question was used or
where such person, partnership, or corporation resides or
carries on business, by filing in the court, within sixty
days from the date of the service of such order, a written
petition praying that the order of the Commission be set
aside. A copy of such petition shall be forthwith transmitted by the clerk of the court to the Commission, and
thereupon the Commission shall file in the court the record in the proceeding, as provided in section 2112 of title
28. Upon such filing of the petition the court shall have
jurisdiction of the proceeding and of the question determined therein concurrently with the Commission until
the filing of the record and shall have power to make and
enter a decree affirming, modifying, or setting aside the
order of the Commission, and enforcing the same to the
extent that such order is affirmed and to issue such writs
as are ancillary to its jurisdiction or are necessary in its
judgement to prevent injury to the public or to competitors pendente lite. The findings of the Commission as to
the facts, if supported by evidence, shall be conclusive.
To the extent that the order of the Commission is affirmed, the court shall thereupon issue its own order
commanding obedience to the terms of such order of the
Commission. If either party shall apply to the court for
1

So in original. Probably should be “clause”.

125a
leave to adduce additional evidence, and shall show to the
satisfaction of the court that such additional evidence is
material and that there were reasonable grounds for the
failure to adduce such evidence in the proceeding before
the Commission, the court may order such additional evidence to be taken before the Commission and to be adduced upon the hearing in such manner and upon such
terms and conditions as to the court may seem proper.
The Commission may modify its findings as to the facts,
or make new findings, by reason of the additional evidence so taken, and it shall file such modified or new findings, which, if supported by evidence, shall be conclusive,
and its recommendation, if any, for the modification or
setting aside of its original order, with the return of such
additional evidence. The judgment and decree of the
court shall be final, except that the same shall be subject
to review by the Supreme Court upon certiorari, as provided in section 1254 of title 28.
(d) Jurisdiction of court
Upon the filing of the record with it the jurisdiction of
the court of appeals of the United States to affirm, enforce, modify, or set aside orders of the Commission shall
be exclusive.
(e) Exemption from liability
No order of the Commission or judgement of court to
enforce the same shall in anywise relieve or absolve any
person, partnership, or corporation from any liability under the Antitrust Acts.
(f ) Service of complaints, orders and other processes; return
Complaints, orders, and other processes of the Commission under this section may be served by anyone duly
authorized by the Commission, either (a) by delivering a

126a
copy thereof to the person to be served, or to a member
of the partnership to be served, or the president, secretary, or other executive officer or a director of the corporation to be served; or (b) by leaving a copy thereof at the
residence or the principal office or place of business of
such person, partnership, or corporation; or (c) by mailing a copy thereof by registered mail or by certified mail
addressed to such person, partnership, or corporation at
his or its residence or principal office or place of business.
The verified return by the person so serving said complaint, order, or other process setting forth the manner of
said service shall be proof of the same, and the return
post office receipt for said complaint, order, or other process mailed by registered mail or by certified mail as
aforesaid shall be proof of the service of the same.
(g) Finality of order
An order of the Commission to cease and desist shall
become final—
(1) Upon the expiration of the time allowed for
filing a petition for review, if no such petition has
been duly filed within such time; but the Commission may thereafter modify or set aside its order to
the extent provided in the last sentence of subsection (b).
(2) Except as to any order provision subject to
paragraph (4), upon the sixtieth day after such order is served, if a petition for review has been duly
filed; except that any such order may be stayed, in
whole or in part and subject to such conditions as
may be appropriate, by—
(A) the Commission;
(B) an appropriate court of appeals of the
United States, if (i) a petition for review of such

127a
order is pending in such court, and (ii) an application for such a stay was previously submitted
to the Commission and the Commission, within
the 30-day period beginning on the date the application was received by the Commission, either
denied the application or did not grant or deny
the application; or
(C) the Supreme Court, if an applicable petition for certiorari is pending.
(3) For purposes of subsection (m)(1)(B) and of
section 57b(a)(2) of this title, if a petition for review
of the order of the Commission has been filed—
(A) upon the expiration of the time allowed for
filing a petition for certiorari, if the order of the
Commission has been affirmed or the petition for
review has been dismissed by the court of appeals and no petition for certiorari has been duly
filed;
(B) upon the denial of a petition for certiorari,
if the order of the Commission has been affirmed
or the petition for review has been dismissed by
the court of appeals; or
(C) upon the expiration of 30 days from the
date of issuance of a mandate of the Supreme
Court directing that the order of the Commission
be affirmed or the petition for review be dismissed.
(4) In the case of an order provision requiring a
person, partnership, or corporation to divest itself
of stock, other share capital, or assets, if a petition
for review of such order of the Commission has
been filed—

128a
(A) upon the expiration of the time allowed for
filing a petition for certiorari, if the order of the
Commission has been affirmed or the petition for
review has been dismissed by the court of appeals and no petition for certiorari has been duly
filed;
(B) upon the denial of a petition for certiorari,
if the order of the Commission has been affirmed
or the petition for review has been dismissed by
the court of appeals; or
(C) upon the expiration of 30 days from the
date of issuance of a mandate of the Supreme
Court directing that the order of the Commission
be affirmed or the petition for review be dismissed.
(h) Modification or setting aside of order by Supreme Court
If the Supreme Court directs that the order of the
Commission be modified or set aside, the order of the
Commission rendered in accordance with the mandate of
the Supreme Court shall become final upon the expiration of thirty days from the time it was rendered, unless
within such thirty days either party has instituted proceedings to have such order corrected to accord with the
mandate, in which event the order of the Commission
shall become final when so corrected.
(i) Modification or setting aside of order by
Court of Appeals
If the order of the Commission is modified or set aside
by the court of appeals, and if (1) the time allowed for filing a petition for certiorari has expired and no such petition has been duly filed, or (2) the petition for certiorari
has been denied, or (3) the decision of the court has been

129a
affirmed by the Supreme Court, then the order of the
Commission rendered in accordance with the mandate of
the court of appeals shall become final on the expiration
of thirty days from the time such order of the Commission was rendered, unless within such thirty days either
party has instituted proceedings to have such order corrected so that it will accord with the mandate, in which
event the order of the Commission shall become final
when so corrected.
( j) Rehearing upon order or remand
If the Supreme Court orders a rehearing; or if the
case is remanded by the court of appeals to the Commission for a rehearing, and if (1) the time allowed for filing
a petition for certiorari has expired, and no such petition
has been duly filed, or (2) the petition for certiorari has
been denied, or (3) the decision of the court has been affirmed by the Supreme Court, then the order of the Commission rendered upon such rehearing shall become final
in the same manner as though no prior order of the Commission had been rendered.
(k) “Mandate” defined
As used in this section the term “mandate”, in case a
mandate has been recalled prior to the expiration of thirty days from the date of issuance thereof, means the final
mandate.
(l) Penalty for violation of order; injunctions
and other appropriate equitable relief
Any person, partnership, or corporation who violates
an order of the Commission after it has become final, and
while such order is in effect, shall forfeit and pay to the
United States a civil penalty of not more than $10,000 for
each violation, which shall accrue to the United States
and may be recovered in a civil action brought by the At-

130a
torney General of the United States. Each separate violation of such an order shall be a separate offense, except
that in a case of a violation through continuing failure to
obey or neglect to obey a final order of the Commission,
each day of continuance of such failure or neglect shall be
deemed a separate offense. In such actions, the United
States district courts are empowered to grant mandatory
injunctions and such other and further equitable relief as
they deem appropriate in the enforcement of such final
orders of the Commission.
(m) Civil actions for recovery of penalties for
knowing violations of rules and cease and desist orders respecting unfair or deceptive acts or practices; jurisdiction; maximum amount of penalties;
continuing violations; de novo determinations;
compromise or settlement procedure
(1)(A) The Commission may commence a civil action to recover a civil penalty in a district court of
the United States against any person, partnership,
or corporation which violates any rule under this
subchapter respecting unfair or deceptive acts or
practices (other than an interpretive rule or a rule
violation of which the Commission has provided is
not an unfair or deceptive act or practice in violation of subsection (a)(1)) with actual knowledge or
knowledge fairly implied on the basis of objective
circumstances that such act is unfair or deceptive
and is prohibited by such rule. In such action, such
person, partnership, or corporation shall be liable
for a civil penalty of not more than $10,000 for each
violation.
(B) If the Commission determines in a proceeding under subsection (b) that any act or
practice is unfair or deceptive, and issues a final

131a
cease and desist order, other than a consent order, with respect to such act or practice, then the
Commission may commence a civil action to obtain a civil penalty in a district court of the United States against any person, partnership, or
corporation which engages in such act or practice—
(1) after such cease and desist order becomes final (whether or not such person, partnership, or corporation was subject to such
cease and desist order), and
(2) with actual knowledge that such act or
practice is unfair or deceptive and is unlawful
under subsection (a)(1) of this section.
In such action, such person, partnership, or corporation shall be liable for a civil penalty of not
more than $10,000 for each violation.
(C) In the case of a violation through continuing failure to comply with a rule or with subsection (a)(1), each day of continuance of such failure shall be treated as a separate violation, for
purposes of subparagraphs (A) and (B). In determining the amount of such a civil penalty, the
court shall take into account the degree of culpability, any history of prior such conduct, ability to
pay, effect on ability to continue to do business,
and such other matters as justice may require.
(2) If the cease and desist order establishing that
the act or practice is unfair or deceptive was not issued against the defendant in a civil penalty action
under paragraph (1)(B) the issues of fact in such action against such defendant shall be tried de novo.
Upon request of any party to such an action against

132a
such defendant, the court shall also review the determination of law made by the Commission in the
proceeding under subsection (b) that the act or
practice which was the subject of such proceeding
constituted an unfair or deceptive act or practice in
violation of subsection (a).
(3) The Commission may compromise or settle
any action for a civil penalty if such compromise or
settlement is accompanied by a public statement of
its reasons and is approved by the court.
(n) Standard of proof; public policy considerations
The Commission shall have no authority under this
section or section 57a of this title to declare unlawful an
act or practice on the grounds that such act or practice is
unfair unless the act or practice causes or is likely to
cause substantial injury to consumers which is not reasonably avoidable by consumers themselves and not outweighed by countervailing benefits to consumers or to
competition. In determining whether an act or practice is
unfair, the Commission may consider established public
policies as evidence to be considered with all other evidence. Such public policy considerations may not serve
as a primary basis for such determination.

133a
2. Section 13 of the Federal Trade Commission Act,
Pub. L. No. 203, 38 Stat. 717 (1914), codified as amended
at 15 U.S.C. § 53, provides:
§ 53. False advertisements; injunctions and restraining orders
(a) Power of Commission; jurisdiction of courts
Whenever the Commission has reason to believe—
(1) that any person, partnership, or corporation
is engaged in, or is about to engage in, the dissemination or the causing of the dissemination of any advertisement in violation of section 52 of this title,
and
(2) that the enjoining thereof pending the issuance of a complaint by the Commission under section 45 of this title, and until such complaint is dismissed by the Commission or set aside by the court
on review, or the order of the Commission to cease
and desist made thereon has become final within
the meaning of section 45 of this title, would be to
the interest of the public,
the Commission by any of its attorneys designated by
it for such purpose may bring suit in a district court of
the United States or in the United States court of any
Territory, to enjoin the dissemination or the causing of
the dissemination of such advertisement. Upon proper showing a temporary injunction or restraining order shall be granted without bond. Any suit may be
brought where such person, partnership, or corporation resides or transacts business, or wherever venue
is proper under section 1391 of title 28. In addition,
the court may, if the court determines that the interests of justice require that any other person, partnership, or corporation should be a party in such suit,

134a
cause such other person, partnership, or corporation
to be added as a party without regard to whether venue is otherwise proper in the district in which the suit
is brought. In any suit under this section, process may
be served on any person, partnership, or corporation
wherever it may be found.
(b) Temporary restraining orders; preliminary
injunctions
Whenever the Commission has reason to believe—
(1) that any person, partnership, or corporation
is violating, or is about to violate, any provision of
law enforced by the Federal Trade Commission,
and
(2) that the enjoining thereof pending the issuance of a complaint by the Commission and until
such complaint is dismissed by the Commission or
set aside by the court on review, or until the order
of the Commission made thereon has become final,
would be in the interest of the public—
the Commission by any of its attorneys designated by
it for such purpose may bring suit in a district court of
the United States to enjoin any such act or practice.
Upon a proper showing that, weighing the equities and
considering the Commission’s likelihood of ultimate
success, such action would be in the public interest,
and after notice to the defendant, a temporary restraining order or a preliminary injunction may be
granted without bond: Provided, however, That if a
complaint is not filed within such period (not exceeding 20 days) as may be specified by the court after issuance of the temporary restraining order or preliminary injunction, the order or injunction shall be dissolved by the court and be of no further force and ef-

135a
fect: Provided further, That in proper cases the Commission may seek, and after proper proof, the court
may issue, a permanent injunction. Any suit may be
brought where such person, partnership, or corporation resides or transacts business, or wherever venue
is proper under section 1391 of title 28. In addition,
the court may, if the court determines that the interests of justice require that any other person, partnership, or corporation should be a party in such suit,
cause such other person, partnership, or corporation
to be added as a party without regard to whether venue is otherwise proper in the district in which the suit
is brought. In any suit under this section, process may
be served on any person, partnership, or corporation
wherever it may be found.
(c) Service of process; proof of service
Any process of the Commission under this section
may be served by any person duly authorized by the
Commission—
(1) by delivering a copy of such process to the
person to be served, to a member of the partnership
to be served, or to the president, secretary, or other
executive officer or a director of the corporation to
be served;
(2) by leaving a copy of such process at the residence or the principal office or place of business of
such person, partnership, or corporation; or
(3) by mailing a copy of such process by registered mail or certified mail addressed to such person, partnership, or corporation at his, or her, or its
residence, principal office, or principal place or
business.

136a
The verified return by the person serving such process
setting forth the manner of such service shall be proof
of the same.
(d) Exception of periodical publications
Whenever it appears to the satisfaction of the court
in the case of a newspaper, magazine, periodical, or
other publication, published at regular intervals—
(1) that restraining the dissemination of a false
advertisement in any particular issue of such publication would delay the delivery of such issue after
the regular time therefor, and
(2) that such delay would be due to the method
by which the manufacture and distribution of such
publication is customarily conducted by the publisher in accordance with sound business practice, and
not to any method or device adopted for the evasion
of this section or to prevent or delay the issuance of
an injunction or restraining order with respect to
such false advertisement or any other advertisement,
the court shall exclude such issue from the operation
of the restraining order or injunction.

137a
3. Section 19 of the Federal Trade Commission Act,
Pub. L. No. 203, 38 Stat. 717 (1914), codified as amended
at 15 U.S.C. § 57b, provides:
§ 57b. Civil actions for violations of rules and cease
and desist orders respecting unfair or deceptive acts
or practices
(a) Suits by Commission against persons, partnerships, or corporations; jurisdiction; relief for
dishonest or fraudulent acts
(1) If any person, partnership, or corporation violates any rule under this subchapter respecting unfair or deceptive acts or practices (other than an interpretive rule, or a rule violation of which the
Commission has provided is not an unfair or deceptive act or practice in violation of section 45(a) of
this title), then the Commission may commence a
civil action against such person, partnership, or corporation for relief under subsection (b) in a United
States district court or in any court of competent
jurisdiction of a State.
(2) If any person, partnership, or corporation engages in any unfair or deceptive act or practice
(within the meaning of section 45(a)(1) of this title)
with respect to which the Commission has issued a
final cease and desist order which is applicable to
such person, partnership, or corporation, then the
Commission may commence a civil action against
such person, partnership, or corporation in a United States district court or in any court of competent
jurisdiction of a State. If the Commission satisfies
the court that the act or practice to which the cease
and desist order relates is one which a reasonable
man would have known under the circumstances

138a
was dishonest or fraudulent, the court may grant
relief under subsection (b).
(b) Nature of relief available
The court in an action under subsection (a) shall have
jurisdiction to grant such relief as the court finds necessary to redress injury to consumers or other persons,
partnerships, and corporations resulting from the rule violation or the unfair or deceptive act or practice, as the
case may be. Such relief may include, but shall not be limited to, rescission or reformation of contracts, the refund of money or return of property, the payment of
damages, and public notification respecting the rule violation or the unfair or deceptive act or practice, as the
case may be; except that nothing in this subsection is intended to authorize the imposition of any exemplary or
punitive damages.
(c) Conclusiveness of findings of Commission in
cease and desist proceedings; notice of judicial proceedings to injured persons, etc.
(1) If (A) a cease and desist order issued under
section 45(b) of this title has become final under
section 45(g) of this title with respect to any person’s, partnership’s, or corporation’s rule violation
or unfair or deceptive act or practice, and (B) an action under this section is brought with respect to
such person’s, partnership’s, or corporation’s rule
violation or act or practice, then the findings of the
Commission as to the material facts in the proceeding under section 45(b) of this title with respect to
such person’s, partnership’s, or corporation’s rule
violation or act or practice, shall be conclusive unless (i) the terms of such cease and desist order expressly provide that the Commission’s findings
shall not be conclusive, or (ii) the order became final

139a
by reason of section 45(g)(1) of this title, in which
case such finding shall be conclusive if supported by
evidence.
(2) The court shall cause notice of an action under this section to be given in a manner which is
reasonably calculated, under all of the circumstances, to apprise the persons, partnerships, and corporations allegedly injured by the defendant’s rule violation or act or practice of the pendency of such action. Such notice may, in the discretion of the court,
be given by publication.
(d) Time for bringing of actions
No action may be brought by the Commission under
this section more than 3 years after the rule violation to
which an action under subsection (a)(1) relates, or the unfair or deceptive act or practice to which an action under
subsection (a)(2) relates; except that if a cease and desist
order with respect to any person’s, partnership’s, or corporation’s rule violation or unfair or deceptive act or
practice has become final and such order was issued in a
proceeding under section 45(b) of this title which was
commenced not later than 3 years after the rule violation
or act or practice occurred, a civil action may be commenced under this section against such person, partnership, or corporation at any time before the expiration of
one year after such order becomes final.
(e) Availability of additional Federal or State remedies; other authority of Commission unaffected
Remedies provided in this section are in addition to,
and not in lieu of, any other remedy or right of action
provided by State or Federal law. Nothing in this section
shall be construed to affect any authority of the Commission under any other provision of law.

